<html>
<title> - DHS CYBERSECURITY: ROLES AND RESPONSIBILITIES TO PROTECT THE NATION'S CRITICAL INFRASTRUCTURE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
 DHS CYBERSECURITY: ROLES AND RESPONSIBILITIES TO PROTECT THE NATION'S 

                        CRITICAL INFRASTRUCTURE
=======================================================================


                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 13, 2013

                               __________

                            Serial No. 113-4

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] 

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
81-458                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Tulsi Gabbard, Hawaii
Lou Barletta, Pennsylvania           Filemon Vela, Texas
Chris Stewart, Utah                  Steven A. Horsford, Nevada
Keith J. Rothfus, Pennsylvania       Eric Swalwell, California
Richard Hudson, North Carolina
Steve Daines, Montana
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
                       Greg Hill, Chief of Staff
          Michael Geffroy, Deputy Chief of Staff/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9

                               WITNESSES
                                Panel I

Ms. Jane Holl Lute, Deputy Secretary, Department of Homeland 
  Security:
  Oral Statement.................................................    10
  Prepared Statement.............................................    11

                                Panel II

Mr. Anish B. Bhimani, Chairman, Financial Services Information 
  Sharing and Analysis Center:
  Oral Statement.................................................    47
  Prepared Statement.............................................    49
Mr. Gary W. Hayes, Chief Information Officer, Centerpoint Energy:
  Oral Statement.................................................    52
  Prepared Statement.............................................    53
Ms. Michelle Richardson, Legislative Counsel, American Civil 
  Liberties Union:
  Oral Statement.................................................    57
  Prepared Statement.............................................    58

                             FOR THE RECORD

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Prepared Statement of Dean C. Garfield.........................    44
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Letter From Bennie G. Thompson and Yvette D. Clarke............     8
The Honorable Yvette D. Clarke, a Representative in Congress From 
  the State of New York:
  Article, Best Security Team Gold Winner........................    41

                                APPENDIX

Questions From Honorable Susan W. Brooks for Jane Holl Lute......    71
Questions From Honorable Scott Perry for Jane Holl Lute..........    72
Question From Honorable Susan W. Brooks for Gary W. Hayes........    72


 DHS CYBERSECURITY: ROLES AND RESPONSIBILITIES TO PROTECT THE NATION'S 
                        CRITICAL INFRASTRUCTURE

                              ----------                              


                       Wednesday, March 13, 2013

             U.S. House of Representatives,
                    Committee on Homeland Security,
                                            Washington, DC.
    The committee met, pursuant to call, at 10:16 a.m., in Room 
311, Cannon House Office Building, Hon. Michael T. McCaul 
[Chairman of the committee] presiding.
    Present: Representatives McCaul, King, Miller, Meehan, 
Duncan, Marino, Chaffetz, Palazzo, Barletta, Stewart, Rothfus, 
Hudson, Daines, Brooks, Perry, Thompson, Sanchez, Jackson Lee, 
Clarke, Richmond, Keating, Barber, Payne, O'Rourke, Gabbard, 
Vela, Horsford, and Swalwell.
    Chairman McCaul. The Committee on Homeland Security will 
come to order. I appreciate everybody's patience. The Ranking 
Member should be here any minute now. The committee is meeting 
today to consider the cybersecurity roles and responsibilities 
of the Department of Homeland Security. I now recognize myself 
for an opening statement.
    I would like to first of all thank our witnesses for 
testifying today and particularly Deputy Secretary Jane Lute, 
who is testifying for the Department here today. I also look 
forward to seeing Secretary Napolitano in the coming weeks to 
discuss DHS's budget and its plan to maintain operations during 
these challenging times.
    The chart on the screen depicts the roles of each major 
agency protecting our Nation from cyber attacks. This chart was 
first presented to me by General Alexander at the NSA. And then 
separately by Deputy Secretary Jane Lute over at the NCCIC 
facility. The significance of this agreed-upon relationship to 
our National security is paramount. Each and every agency 
depicted understands their roles and responsibilities, working 
in tandem to keep Americans safe.
    The purpose of this hearing is to examine the Department of 
Homeland Security's role, capabilities, and challenges 
concerning cybersecurity. There are many issues facing the 
Department. Today's hearing is an opportunity to focus on the 
cyber threats facing our homeland and how together we can 
defend against them.
    Cyber attacks come in all forms. America is the victim of 
cyber espionage. Countries steal our military and intelligence 
information. There are threats of cyber warfare from terrorists 
and economic cyber attacks from Iran and from China. These 
countries are stealing our trade secrets and intellectual 
property. The most daunting is undoubtedly the cyber threats 
against our critical infrastructures.
    We know that four nations are conducting reconnaissance on 
our utilities, they are penetrating our gas and water systems, 
and also our energy grids. If the ability to send a silent 
attack through our digital networks falls into our enemy's 
hands, this country could be the victim of a devastating 
attack.
    Yet while threats are imminent, no major cybersecurity 
legislation has been enacted since 2002. Imagine months without 
power. An attack on our transformers could cripple our power 
grids and our economy would follow. This is not science 
fiction. It is reality. A report recently released by Mandiant 
confirmed China is the source of nearly 90 percent of cyber 
attacks against the United States.
    Most troubling is that these hackers targeted a company 
that provides remote access to more than 60 percent of North 
America's oil and gas pipelines. Hackers have also attacked the 
servers of our air traffic control system, and just last year 
an al-Qaeda operative issued a call for ``electronic jihad'' 
against the United States comparing our technological 
vulnerabilities to that of our security before 9/11.
    Iran and Russia are some of the world's worst offenders. 
Last December Iranians attacked the state-owned Saudi Aramco 
with the goal of stopping Saudi Arabia's oil production. 
Additionally this year, Iran conducted multiple denial of 
service attacks on major U.S. banks. The slide up there 
demonstrates all of the denial of service attacks that have 
been conducted. You can see it is truly a global phenomenon. It 
is a global threat.
    Unlike 9/11, we have seen the warning signs. But now it is 
time to act. For us to defend against cyber attacks we must 
designate roles for all the key agencies. That is DHS, DOD, and 
the Justice Department. Each play a critical role defending our 
homeland against cyber threats and none can do it alone.
    When DHS was established, the Secretary of DHS was made 
responsible for coordinating the overall National effort to 
enhance the protection of our critical infrastructure. The 
National Infrastructure Protection Plan and the recent 
Executive Order, solidified DHS's role as the lead Federal 
agency in protecting domestic, critical infrastructure.
    Most importantly, the agencies themselves have agreed that 
a framework, where DOJ is the lead for investigation, DHS is 
the lead for protection, and DOD the lead for defense. This 
would allow each department to concentrate on their core 
mission with, as General Alexander once said, DHS is the entry 
point for working with the industry.
    In order to fulfill this role, as a civilian command 
center, DHS has been building its partnership with the private 
sector and growing its capability as an effective conduit for 
threat information sharing. DHS manages a bottom-up network of 
entities from local first responders to Nation-wide threat 
analysis and emergency response centers like the National 
Cybersecurity & Communications Integration Center or the NCCIC.
    The Department possesses the ability to provide real-time 
information necessary for instant threat detection and to share 
emerging threat information to enable industry to act 
immediately to safeguard critical infrastructure. Additionally 
DHS has a well-developed Privacy Office to protect Americans' 
privacy and civil liberties.
    While the Department has made great progress, there are 
areas for further improvement across the board when dealing 
with cyber threats. Legal barriers, regulatory uncertainty, and 
a lack of resources remain challenges. Additionally there is 
not enough private-sector participation in the programs that 
are already in place because they either don't have the 
resources, or don't see the value in doing so.
    Congress has the ability and the obligation to help fix 
these problems. For us to thwart attacks we must build upon the 
Executive branch's efforts and work with all stakeholders to 
find a consensus necessary to protect this country. As part of 
this commitment, the Continuing Resolution recently passed by 
the House includes an increase of $282 million for 
cybersecurity over fiscal year 2012.
    Hearings like the one today will help guide the legislative 
process. I have made it clear from the first day as Chairman in 
this Congress, that cybersecurity be the highest legislative 
priority in this Congress. I look forward to listening to all 
the witnesses about what works, what doesn't, and what we can 
do to streamline our cyber defenses.
    One of the primary lessons from 9/11 is that only by 
working together can we detect and deter our enemies. In the 
wake of that tragedy, the walls prevented agencies from sharing 
threat information which became very apparent. We cannot allow 
turf battles to hinder us from developing the defenses 
necessary to prevent cyber attacks. The threat is real and this 
time we see it coming.
    [The statement of Chairman McCaul follows:]
                Statement of Chairman Michael T. McCaul
                             March 13, 2013
    I would like to thank all of our witnesses for testifying today. 
Deputy Secretary Lute is testifying for the Department but I look 
forward to seeing Secretary Napolitano in the coming weeks to discuss 
DHS' budget and its plan to maintain operations during these 
challenging times.
    The chart on the screen depicts the roles of each major agency 
protecting our Nation from cyber attacks. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The significance of this agreed-upon relationship to our National 
security is paramount. Each and every agency depicted understands their 
roles and responsibilities, working in tandem to keep America safe.
    The purpose of this hearing is to examine the Department of 
Homeland Security's (DHS) role, capabilities, and challenges concerning 
cybersecurity. There are many issues facing the Department.
    Today's hearing is an opportunity to focus on the cyber threats 
facing our homeland and how together, we can defend against them.
    Cyber attacks come in all forms. America is the victim of cyber 
espionage. Countries steal our military and intelligence information. 
There are threats of cyber-warfare from terrorists, and economic cyber 
attacks from Iran and China. These countries are stealing our trade 
secrets and intellectual property. The most daunting is undoubtedly the 
cyber threats against our critical infrastructure.
    We know that foreign nations are conducting reconnaissance on our 
utilities--they are penetrating our gas and water systems and also our 
energy grids--and if the ability to send a silent attack through our 
digital networks falls into our enemies' hands, this country could be 
the victim of a devastating attack.
    Yet while threats are imminent, no major cybersecurity legislation 
has been enacted since 2002.
    Imagine months without power. An attack on our transformers could 
cripple our power grids and our economy would follow. This is not 
science fiction; it is reality. A report recently released by Mandiant 
confirmed China is the source of nearly 90% of cyber attacks against 
the United States. Most troubling is that these hackers targeted a 
company that provides remote access to more than 60% of North America's 
oil and gas pipelines.
    Hackers have also attacked the servers of our Air Traffic Control 
System, and just last year, an al-Qaeda operative issued a call for 
``electronic jihad'' against the United States--comparing our 
technological vulnerabilities to that of our security before 9/11.
    Iran and Russia are some of the world's worst offenders. Last 
December, Iranians attacked the state-owned Saudi Aramco, with the goal 
of stopping Saudi Arabia's oil production. Additionally, this year Iran 
conducted multiple denial of service attacks on major U.S. banks.
    Unlike 9/11, we have seen the warning signs--now it is time to act. 
For us to defend against cyber attacks we must designate roles for all 
of the key agencies--DHS, DoD, and the Justice Department. Each play a 
crucial role defending our homeland against cyber threats and none can 
do it alone.
    When DHS was established, the Secretary of DHS was made responsible 
for ``coordinating the overall National effort to enhance the 
protection of our critical infrastructure.''
    The National Infrastructure Protection Plan (NIPP) and the recent 
Executive Order solidified DHS' role as the lead Federal agency in 
protecting domestic critical infrastructure.
    Most importantly, the agencies themselves agree that a framework 
where DOJ is the lead for investigation, DHS is the lead for protection 
and DoD as the lead for defense would allow each department to 
concentrate on their core mission with, as General Alexander once said, 
`` . . . DHS as the entry point for working with industry.''
    In order to fulfill this role as a civilian command center, DHS has 
been building its partnerships with the private sector and growing its 
capacity as an effective conduit for threat information sharing. DHS 
manages a bottom-up network of entities from local first responders to 
Nation-wide threat analysis and emergency response centers like the 
National Cybersecurity and Communications Integration Center (NCCIC).
    The Department possesses the ability to provide real-time 
information necessary for instant threat detection, and to share 
emerging threat information to enable industry to act immediately to 
safeguard critical infrastructure. Additionally, DHS has a well-
developed Privacy Office to protect Americans' privacy and civil 
liberties.
    While the Department has made great progress, there are areas for 
further improvement across the board when dealing with cyber threats. 
Legal barriers, regulatory uncertainty and a lack of resources remain 
challenges. Additionally, there is not enough private-sector 
participation in the programs that are already in place, because they 
either don't have the resources or don't see the value in doing so.
    Congress has the ability and the obligation to help fix these 
problems. For us to thwart attacks, we must build upon the Executive 
branch's efforts and work with all stakeholders to find the consensus 
necessary to protect this country. As part of this commitment, the 
Continuing Resolution recently passed by the House includes an increase 
of $282 million for cybersecurity over fiscal year 2012 levels.
    Hearings like the one today will help guide the legislative 
process. I look forward to listening to all of our witnesses about what 
works, what doesn't, and what we can do to streamline our cyber 
defenses.
    One of the primary lessons from 9/11 is that only by working 
together can we detect and deter our enemies. In the wake of that 
tragedy, the walls preventing agencies from sharing threat information 
became apparent. We cannot allow turf battles to hinder us from 
developing the defenses necessary to prevent cyber attacks. The threat 
is real, and this time we see it coming. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman McCaul. With that the Chairman now recognizes the 
Ranking Minority Member, Mr. Thompson.
    Mr. Thompson. Thank you very much, Mr. Chairman, for 
holding this very timely hearing today.
    Each week brings new reports of cyber breaches. Hackers are 
becoming more sophisticated. They are hitting Americans where 
we live, work, and play at an unprecedented rate and in new and 
very troubling ways.
    Last month, President Obama signed an Executive Order 
improving critical infrastructure cybersecurity that directed 
the Department of Homeland Security to establish a new 
voluntary program for critical infrastructure.
    The issuance of this Executive Order is a positive step 
forward. It has the potential to foster unprecedented 
collaboration between the Federal Government and the private 
sector on this very difficult homeland security challenge.
    I look forward to hearing from you, Deputy Secretary Lute, 
about the Department's central role under this order, as well 
as the progress DHS has made in recent years to build its cyber 
capabilities.
    I am also looking forward to hearing from representatives 
of critical infrastructure sectors that are joining us today 
about the importance of fostering a close working relationship 
between industry and the Federal Government.
    At my urging, Ms. Richardson of the American Civil 
Liberties Union is here to help us think about how we can 
protect that relationship in a way that protects the privacy 
and civil liberties of all Americans.
    While the issuance of the Executive Order is a welcome 
development, it will take legislative action to fully address 
cyber threats and vulnerabilities to critical infrastructure.
    I appreciate what the Chairman has said about his desire to 
focus on cybersecurity this Congress. But as we saw in the 
112th Congress, simply wanting to pass cybersecurity 
legislation is not sufficient.
    Mr. Chairman, I know you share my desire to authorize DHS's 
cybersecurity programs and bolster our Nation's ability to ward 
off attacks to critical infrastructure. However, I am afraid 
that some of our colleagues in the House have not seen the 
light.
    Hopefully the testimony we receive today will help this 
committee make the case for moving cybersecurity legislation to 
the House floor. Even as we begin work on our bill, we must not 
lose sight of the need to defend, pursue, and exercise our 
jurisdiction.
    Recently, another committee introduced cyber legislation, 
H.R. 624, which is expected to see action on the House floor in 
April. That bill, for the first time, would authorize the 
Department's National cybersecurity and communications 
integrations center, but the Speaker did not refer the bill to 
this committee.
    Last week, I, along with Ranking Member Clarke, sent you a 
letter urging you to insist upon a referral of the bill. Our 
Members deserve the opportunity to consider the Cyber 
Intelligence Sharing and Protection Act before it goes to the 
full House.
    With that, Mr. Chairman, I ask unanimous consent that our 
letter to you be inserted into the record.
    Chairman McCaul. Without objection, so ordered.
    [The information follows:]
          Letter From Bennie G. Thompson and Yvette D. Clarke
                                     March 5, 2013.
The Honorable Michael T. McCaul,
Chairman, Committee on Homeland Security, H2-176 Ford House Office 
        Building, U.S. House of Representatives, Washington, DC 20515.
The Honorable Patrick Meehan,
Chairman, Subcommittee on Cybersecurity, Infrastructure Protection, and 
        Security Technologies, 204 Cannon House Office Building, U.S. 
        House of Representatives, Washington, DC 20515.
    Dear Chairman McCaul and Subcommittee Chairman Meehan: We write 
regarding H.R. 624, the ``Cyber Intelligence Sharing and Protection 
Act.''
    As you are aware, H.R. 624 contains numerous provisions within the 
Rule X, clause 1(j) jurisdiction of the Committee on Homeland Security. 
Specifically, H.R. 624 contains provisions directing the Department of 
Homeland Security's National Cybersecurity and Communications 
Integration Center to integrate and disseminate homeland security 
information and addressing the Government-wide use of cyber threat 
information for cybersecurity or the protection of National security. 
Despite these provisions clearly falling within the Committee's 
legislative jurisdiction, the Speaker chose not to refer the measure to 
the committee upon introduction.
    On Friday, March, 1, 2013, the Chairman of the Permanent Select 
Committee on Intelligence, Representative Mike Rogers of Michigan, was 
quoted as saying that negotiations with the White House on the ``Cyber 
Intelligence Sharing and Protection Act'' are underway and that the 
parties are ``very close'' to agreeing on the role that the Department 
of Homeland Security would play to better defend against cyber 
attacks.\1\
---------------------------------------------------------------------------
    \1\ ``White House, lawmakers resume cybersecurity bill talks,'' 
Chicago Tribune at http://articles.chicagotribune.com/2013-03-01/
business/sns-rt-us-usa-cybersecurity-billbre9200w9-
20130301_1_cybersecurity-bill-cyber-attacks-rogers.
---------------------------------------------------------------------------
    Given that the provisions under discussion with the White House are 
within the committee's jurisdiction, it is troubling to learn that the 
leadership of another committee believes it has reached agreement on 
the parameters of the Department's cybersecurity role.
    Like you, we have strong views about the criticality of 
cybersecurity to the welfare of our Nation, the role of the Department 
of Homeland Security in that effort, and our committee's obligation to 
play a central role in shaping cybersecurity policy. That is why we 
firmly believe that the committee should defend, pursue, and exercise 
jurisdiction in this area. In light of the Speaker's decision not to 
refer H.R. 624 to the committee upon introduction, we urge you to 
insist upon a sequential referral of the measure and afford Members of 
the committee the opportunity to consider this legislation in an open 
mark-up session.
    By taking these actions early in the 113th Congress, you will 
demonstrate your commitment to vigorously defending this committee's 
legislative jurisdiction and protect this committee's position as a 
central player in the cybersecurity arena. Additionally, it will afford 
the committee, which has conducted extensive oversight and developed 
expertise in matters of cybersecurity, an opportunity to debate and 
inform the bill.
    Thank you, in advance, for your attention to this request. Should 
you or your staff have any questions on this matter, please contact Ms. 
Rosaline Cohen, Chief Counsel for Legislation of the Committee on 
Homeland Security[.]
            Sincerely,
                                        Bennie G. Thompson,
                                                    Ranking Member.
                                          Yvette D. Clarke,
     Ranking Member, Subcommittee on Cybersecurity, Infrastructure 
                             Protection, and Security Technologies.

    Mr. Thompson. Before I close, I would note that this 
hearing is taking place at a time when the effects of 
arbitrary, across-the-board spending cuts are just beginning to 
be realized.
    I look forward to hearing from you, Deputy Secretary Lute, 
about how the sequester and the perpetual uncertainty around 
budgeting impacts DHS's ability to plan, prioritize, and 
execute its critical cybersecurity mission.
    Once again, I would like to thank all of the witnesses for 
being here today and I look forward to their testimony. I yield 
back.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             March 13, 2013
    Each week brings new reports of cyber breaches. Hackers are 
becoming more sophisticated. They are hitting Americans where we live, 
work, and play at an unprecedented rate and in new and very troubling 
ways.
    Last month, President Obama signed an Executive Order entitled 
``Improving Critical Infrastructure Cybersecurity'' that directed the 
Department of Homeland Security to establish a new voluntary program 
for critical infrastructure.
    The issuance of this Executive Order is a positive step forward. It 
has the potential to foster unprecedented collaboration between the 
Federal Government and the private sector on this very difficult 
homeland security challenge.
    I look forward to hearing from you, Deputy Secretary Lute, about 
the Department's central role under this order, as well as the progress 
DHS has made in recent years to build its cyber capabilities.
    I also look forward to hearing from representatives of critical 
infrastructure sectors that are joining us today about the importance 
of fostering a close working relationship between industry and Federal 
Government.
    At my urging, Ms. Richardson of the American Civil Liberties Union 
is here to help us think about how we can structure that relationship 
in a way that protects the privacy and civil liberties of all 
Americans.
    While the issuance of the Executive Order is a welcome development, 
it will take legislative action to fully address cyber threats and 
vulnerabilities to critical infrastructure.
    I appreciate what the Chairman has said about his desire to focus 
on cybersecurity this Congress, but, as we saw in the 112th Congress, 
simply wanting to pass cybersecurity legislation is not sufficient.
    Mr. Chairman, I know you share my desire to authorize DHS's 
cybersecurity programs and bolster our Nation's ability to ward off 
attacks to critical infrastructure.
    However, I am afraid that some of our colleagues in the House have 
not seen the light.
    Hopefully, the testimony we receive today will help this committee 
make the case for moving cybersecurity legislation to the House floor.
    Even as we begin work on our bill, we must not lose sight of the 
need to defend, pursue, and exercise our jurisdiction.
    Recently, another committee introduced cyber legislation, H.R. 624, 
which is expected to see action in the House in April. That bill, for 
the first time, would authorize the Department's ``National 
Cybersecurity and Communications Integration Center'' but the Speaker 
did not refer it to this committee.
    Last week, I, along with the Ranking Member Clarke, sent you a 
letter urging you to insist upon a referral of that bill. Our Members 
deserve the opportunity to consider the Cyber Intelligence Sharing and 
Protection Act before it goes to the full House.
    Before I close, I would note that this hearing is taking place at a 
time when the effects of arbitrary, across-the-board spending cuts are 
just beginning to be realized. I look forward to hearing from you, 
Deputy Secretary Lute, about how the sequester and the perpetual 
uncertainty around budgeting impacts DHS' ability to plan, prioritize, 
and execute its critical cybersecurity mission.

    Chairman McCaul. I thank the Ranking Member and I also 
share in your commitment to marking up a cyber bill and getting 
it on the floor, passed by the House, Senate, and signed into 
law by the President.
    I would also, again, note that, concerning the budget 
resolution, the House actually included an increase of over 
$282 million for cybersecurity and I think that is a positive 
step forward in this mission.
    Other Members are reminded that opening statements may be 
submitted for the record. We are pleased to have two panels of 
distinguished witnesses.
    The first would be the Honorable Jane Lute, deputy 
secretary of the Department of Homeland Security. Dr. Lute came 
to this position in 2009 with over 30 years of military and 
senior executive experience in the United States Government, 
including service at the United Nations and the National 
Security Council.
    The deputy's full written statement will appear in the 
record. The Chairman now recognizes Deputy Secretary Lute for 5 
minutes for an opening statement.

STATEMENT OF HON. JANE HOLL LUTE, DEPUTY SECRETARY, DEPARTMENT 
                      OF HOMELAND SECURITY

    Ms. Lute [continuing]. Ensuring the Nation's cybersecurity 
is an integral part of the DHS mission, which is to help create 
a safe, secure, resilient place where the American way of life 
can thrive.
    Four years ago, in the QHSR, the Quadrennial Homeland 
Security Review commissioned by Congress, we called out five 
essential missions in order to perform our role: Preventing 
terrorism, securing our borders, administering and enforcing 
our immigration laws, building National resilience, and 
ensuring the Nation's cybersecurity.
    Cyberspace has become the very endoskeleton of modern life, 
and while this connectivity has led to transformations and 
advances around the world, it has also increased our shared 
risk.
    DHS is responsible for securing unclassified, Federal 
civilian agency networks and for working with owners and 
operators of critical infrastructure to help them secure their 
networks. We coordinate the National response to significant 
cyber-incidents and create and maintain a common operational 
picture for cyberspace across the Government.
    On a minute-by-minute basis, 24 by 7, our cyber teams 
confront the dangerous combination--excuse me--of known and 
unknown cyber vulnerabilities and adversaries across the globe 
with strong and expanding capabilities.
    We face denial-of-service attacks, the theft of valuable 
trade secrets, intrusions against Government networks, and 
attempts against the systems that control critical 
infrastructure.
    To protect Federal networks, DHS deploys technology to 
detect and block cyber intrusions, develop continuous 
diagnostics and mitigation for agency systems and provide 
guidance to agencies so that they can protect themselves.
    We also work closely with owners and operators of critical 
infrastructure to strengthen their facilities by sharing risk 
and threat information through on-site risk assessment, 
mitigation, and incident response.
    DHS is home to the National Cybersecurity & Communications 
Integration Center, the NCCIC, which many of you have seen, our 
'round-the-clock cyber situational awareness and incident 
response hub.
    Over the past 4 years, the NCCIC has responded to nearly 
half-a-million incidents and released more than 26,000 
actionable cybersecurity alerts to public and private-sector 
partners.
    Last year, our U.S. Computer Emergency Readiness Team, US-
CERT, resolved approximately 190,000 cyber incidents and issued 
7,500 alerts, a 68 percent increase over 2011. Our Industrial 
Control Systems Cyber Emergency Response Team responded to 177 
incidents, while completing 89 site visits and deploying 15 
teams to respond to significant private-sector incidents.
    We partnered closely with the Departments of Justice and 
Defense to ensure, as the Chairman said, that a call to one is 
a call to all, mobilizing all of the resources of the Federal 
Government in partnership to prevent and respond, when 
necessary, rapidly to cyber incidents.
    While each agency operates within the parameters of its 
authorities, our overall Federal response to cyber incidents of 
consequence is coordinated among the three of us. This 
synchronization ensures that all of our capabilities are 
brought to bear against cyber threats.
    But while our accomplishments our significant, we need the 
help of Congress, by enacting a suite of comprehensive 
cybersecurity legislative measures. In the interim, last month 
the President took the executive action within current 
authorities and established the Executive Order.
    This Executive Order on improving critical infrastructure 
cybersecurity supports enhanced sharing of cyber threat 
information with the private sector. It also directs DHS to 
develop a voluntary program to promote the adoption of a 
cybersecurity framework for critical infrastructure and to 
assist the private sector in its implementation.
    At the same time, a policy directive on critical 
infrastructure security and resilience strengthens our ability 
to share information about how critical infrastructure systems 
are functioning and the consequence of failures.
    These documents reflect input from stakeholders of all 
viewpoints across Government, industry, and the advocacy 
community. They include rigorous protections for individual 
privacy and civil liberties.
    Mr. Chairman, the American people expect us to secure the 
country from the growing threats posed in cyberspace and to 
ensure that the critical infrastructure of this country is 
protected. We look forward to working with this committee and 
with Congress to ensure that we continue to do everything 
possible to keep the Nation safe and secure.
    Thank you very much.
    [The prepared statement of Ms. Lute follows:]
                  Prepared Statement of Jane Holl Lute
                             March 13, 2013
    Chairman McCaul, Ranking Member Thompson, and Members of the 
committee: I am pleased to join you today, and I thank the committee 
for your strong support for the Department of Homeland Security (DHS) 
over the past 4 years and, indeed, since the Department's founding 10 
years ago.
    I can think of no more urgent and important topic in today's 
interconnected world than cybersecurity, and I appreciate the 
opportunity to explain the Department's mission in this space and how 
we continue to improve cybersecurity for the American people as well as 
work to safeguard the Nation's critical infrastructure and protect the 
Federal Government's networks.
                        current threat landscape
    Cyberspace is woven into the fabric of our daily lives. According 
to recent estimates, this global network of networks encompasses more 
than 2 billion people with at least 12 billion computers and devices, 
including global positioning systems, mobile phones, satellites, data 
routers, ordinary desktop computers, and industrial control computers 
that run power plants, water systems, and more.
    While this increased connectivity has led to significant 
transformations and advances across our country--and around the world--
it also has increased the importance and complexity of our shared risk. 
Our daily life, economic vitality, and National security depend on 
cyberspace. A vast array of interdependent IT networks, systems, 
services, and resources are critical to communication, travel, powering 
our homes, running our economy, and obtaining Government services. No 
country, industry, community, or individual is immune to cyber risks. 
The word ``cybersecurity'' itself encompasses protection against a 
broad range of malicious activity, from denial-of-service attacks, to 
theft of valuable trade secrets, to intrusions against Government 
networks and systems that control our critical infrastructure.
    The United States confronts a dangerous combination of known and 
unknown vulnerabilities in cyberspace and strong and rapidly expanding 
adversary capabilities. Cyber crime has also increased significantly 
over the last decade. Sensitive information is routinely stolen from 
both Government and private-sector networks, undermining the integrity 
of the data contained within these systems. We currently see malicious 
cyber activity from foreign nations engaged in espionage and 
information warfare, terrorists, organized crime, and insiders. Their 
methods range from distributed denial-of-service (DDoS) attacks and 
social engineering to viruses and other malware introduced through 
thumb drives, supply chain exploitation, and leveraging trusted 
insiders' access.
    We have seen motivations for attacks vary from espionage by foreign 
intelligence services to criminals seeking financial gain and hackers 
who may seek bragging rights in the hacker community. Industrial 
control systems are also targeted by a variety of malicious actors who 
are usually intent on damaging equipment and facilities or stealing 
data. Foreign actors are also targeting intellectual property with the 
goal of stealing trade secrets or other sensitive corporate data from 
U.S. companies in order to gain an unfair competitive advantage in the 
global market.
    Cyber attacks and intrusions can have very real consequences in the 
physical world. Last year, DHS identified a campaign of cyber 
intrusions targeting natural gas and pipeline companies that was highly 
targeted, tightly focused and well crafted. Stolen information could 
provide an attacker with sensitive knowledge about industrial control 
systems, including information that could allow for unauthorized 
operation of the systems. As the President has said, we know that our 
adversaries are seeking to sabotage our power grid, our financial 
institutions, and our air traffic control systems. These intrusions and 
attacks are coming all the time and they are coming from different 
sources and take different forms, all the while increasing in 
seriousness and sophistication.
    The U.S. Government has worked closely with the private sector 
during the recent series of denial-of-service incidents. We have 
provided classified cyber threat briefings and technical assistance to 
help banks improve their defensive capabilities and we have increased 
sharing and coordination among the various Government elements in this 
area. These developments reinforce the need for Government, industry, 
and individuals to reduce the ability for malicious actors to establish 
and maintain capabilities to carry out such efforts.
    In addition to these sophisticated attacks and intrusions, we also 
face a range of traditional crimes that are now perpetrated through 
cyber networks. These include child pornography and exploitation, as 
well as banking and financial fraud, all of which pose severe economic 
and human consequences. For example, in March 2012, the U.S. Secret 
Service (USSS) worked with U.S. Immigration and Customs Enforcement 
(ICE) to arrest nearly 20 individuals in its ``Operation Open Market,'' 
which seeks to combat transnational organized crime, including the 
buying and selling of stolen personal and financial information through 
on-line forums. As Americans become more reliant on modern technology, 
we also become more vulnerable to cyber exploits such as corporate 
security breaches, social media fraud, and spear phishing, which 
targets employees through emails that appear to be from colleagues 
within their own organizations, allowing cyber criminals to steal 
information.
    Cybersecurity is a shared responsibility, and each of us has a role 
to play. Emerging cyber threats require the engagement of our entire 
society--from Government and law enforcement to the private sector and, 
most importantly, members of the public. The key question, then, is how 
do we address this problem? This is not an easy question because 
cybersecurity requires a layered approach. The success of our efforts 
to reduce cybersecurity risks depends on effective identification of 
cyber threats and vulnerabilities, analysis, and enhanced information 
sharing between departments and agencies from all levels of government, 
the private sector, international entities, and the American public.
                  roles, responsibilities, activities
    DHS is committed to ensuring cyberspace is supported by a secure 
and resilient infrastructure that enables open communication, 
innovation, and prosperity while protecting privacy, confidentiality, 
and civil rights and civil liberties by design.
Securing Federal Civilian Government Networks
    DHS has operational responsibilities for securing unclassified 
Federal civilian government networks and working with owners and 
operators of critical infrastructure to secure their networks through 
cyber threat analysis, risk assessment, mitigation, and incident 
response capabilities. We also are responsible for coordinating the 
National response to significant cyber incidents and for creating and 
maintaining a common operational picture for cyberspace across the 
Government.
    DHS directly supports Federal civilian departments and agencies in 
developing capabilities that will improve their cybersecurity posture 
in accordance with the Federal Information Security Management Act 
(FISMA). To protect Federal civilian agency networks, our National 
Protection and Programs Directorate (NPPD) is deploying technology to 
detect and block intrusions through the National Cybersecurity 
Protection System and its EINSTEIN protective capabilities, while 
providing guidance on what agencies need to do to protect themselves 
and measuring implementation of those efforts.
    NPPD is also developing a Continuous Monitoring as a Service 
capability, which will result in an array of sensors that feed data 
about an agency's cybersecurity risk and present those risks in an 
automated and continuously-updated dashboard visible to technical 
workers and managers to enhance agencies' ability to see and counteract 
day-to-day cyber threats. This capability will support compliance with 
administration policy, be consistent with guidelines set forth by the 
National Institute of Standards and Technology (NIST), and enable 
Federal agencies to move from compliance-driven risk management to 
data-driven risk management. These activities will provide 
organizations with information necessary to support risk response 
decisions, security status information, and on-going insight into 
effectiveness of security controls.
Protecting Critical Infrastructure
    Critical infrastructure is the backbone of our country's National 
and economic security. It includes power plants, chemical facilities, 
communications networks, bridges, highways, and stadiums, as well as 
the Federal buildings where millions of Americans work and visit each 
day. DHS coordinates the National protection, prevention, mitigation, 
and recovery from cyber incidents and works regularly with business 
owners and operators to take steps to strengthen their facilities and 
communities. The Department also conducts on-site risk assessments of 
critical infrastructure and shares risk and threat information with 
State, local, and private-sector partners.
    Protecting critical infrastructure against growing and evolving 
cyber threats requires a layered approach. DHS actively collaborates 
with public and private sector partners every day to improve the 
security and resilience of critical infrastructure while responding to 
and mitigating the impacts of attempted disruptions to the Nation's 
critical cyber and communications networks and to reduce adverse 
impacts on critical network systems.
    DHS enhances situational awareness among stakeholders, including 
those at the State and local level, as well as industrial control 
system owners and operators, by providing critical cyber threat, 
vulnerability, and mitigation data, including through Information 
Sharing and Analysis Centers, which are cybersecurity resources for 
critical infrastructure sectors. DHS is also home to the National 
Cybersecurity & Communications Integration Center (NCCIC), a 247 cyber 
situational awareness, incident response, and management center that is 
a National nexus of cyber and communications integration for the 
Federal Government, intelligence community, and law enforcement.
Responding to Cyber Threats
    DHS is responsible for coordinating the Federal Government response 
to significant cyber or physical incidents affecting critical 
infrastructure. Since 2009, the NCCIC has responded to nearly half a 
million incident reports and released more than 26,000 actionable 
cybersecurity alerts to our public and private-sector partners. The DHS 
Office of Intelligence and Analysis is a key partner in NCCIC 
activities, providing tailored all-source cyber threat intelligence and 
warning to NCCIC components and public and private critical 
infrastructure stakeholders to prioritize risk analysis and mitigation.
    An integral player within the NCCIC, the U.S. Computer Emergency 
Readiness Team (US-CERT) also provides response support and defense 
against cyber attacks for Federal civilian agency networks as well as 
private-sector partners upon request. US-CERT collaborates and shares 
information with State and local government, industry, and 
international partners, consistent with rigorous privacy, 
confidentiality, and civil liberties guidelines, to address cyber 
threats and develop effective security responses. In 2012, US-CERT 
processed approximately 190,000 cyber incidents involving Federal 
agencies, critical infrastructure, and our industry partners. This 
represents a 68 percent increase from 2011. In addition, US-CERT issued 
over 7,455 actionable cyber-alerts in 2012 that were used by private-
sector and Government agencies to protect their systems, and had over 
6,400 partners subscribe to the US-CERT portal to engage in information 
sharing and receive cyber threat warning information.
    The Department's Industrial Control Systems Cyber Emergency 
Response Team (ICS-CERT) also responded to 177 incidents last year 
while completing 89 site assistance visits and deploying 15 teams with 
US-CERT to respond to significant private-sector cyber incidents. DHS 
also empowers owners and operators through a cyber self-evaluation 
tool, which was used by over 1,000 companies last year, as well as in-
person and on-line training sessions.
    Successful response to dynamic cyber threats requires leveraging 
homeland security, law enforcement, and military authorities and 
capabilities, which respectively promote domestic preparedness, 
criminal deterrence and investigation, and National defense. DHS, the 
Department of Justice (DOJ), and the Department of Defense (DOD) each 
play a key role in responding to cybersecurity incidents that pose a 
risk to the United States. In addition to the aforementioned 
responsibilities of our Department, DOJ is the lead Federal department 
responsible for the investigation, attribution, disruption, and 
prosecution of domestic cybersecurity incidents while DOD is 
responsible for securing National security and military systems as well 
as gathering foreign cyber threat information and defending the Nation 
from attacks in cyberspace. DHS supports our partners in many ways. For 
example, the United States Coast Guard as an Armed Force has partnered 
with U.S. Cyber Command and U.S. Strategic Command to conduct military 
cyberspace operations.
    While each agency operates within the parameters of its 
authorities, the U.S. Government's response to cyber incidents of 
consequence is coordinated among these three agencies such that ``a 
call to one is a call to all.'' Synchronization among DHS, DOJ, and DOD 
not only ensures that whole-of-Government capabilities are brought to 
bear against cyber threats, but also improves Government's ability to 
share timely and actionable cybersecurity information among a variety 
of partners, including the private sector.
Combating Cyber Crime
    DHS employs more law enforcement agents than any other Department 
in the Federal Government and has personnel stationed in every State 
and in more than 75 countries around the world. To combat cyber crime, 
DHS relies upon the skills and resources of the USSS and ICE and works 
in cooperation with partner organizations to investigate cyber 
criminals. Since 2009, DHS has prevented $10 billion in potential 
losses through cyber crime investigations and arrested more than 5,000 
individuals for their participation in cyber crime activities.
    The Department leverages the 31 USSS Electronic Crimes Task Forces 
(ECTF), which combine the resources of academia, the private sector, 
and local, State, and Federal law enforcement agencies to combat 
computer-based threats to our financial payment systems and critical 
infrastructure. A recently executed partnership between ICE Homeland 
Security Investigations and USSS demonstrates the Department's 
commitment to leveraging capability and finding efficiencies. Both 
organizations will expand participation in the existing ECTFs. In 
addition to strengthening each agency's cyber investigative 
capabilities, this partnership will produce benefits with respect to 
the procurement of computer forensic hardware, software licensing, and 
training that each agency requires. The Department is also a partner in 
the National Cyber Investigative Joint Task Force, which serves as a 
collaborative entity that fosters information sharing across the 
interagency.
    We work with a variety of international partners to combat cyber 
crime. For example, through the U.S.-E.U. Working Group on 
Cybersecurity and Cybercrime, which was established in 2010, we develop 
collaborative approaches to a wide range of cybersecurity and cyber 
crime issues. In 2011, DHS participated in the Cyber Atlantic tabletop 
exercise, a U.S.-E.U. effort to enhance international collaboration of 
incident management and response, and in 2012, DHS and the European 
Union signed a joint statement that advances transatlantic efforts to 
enhance on-line safety for children. ICE also works with international 
partners to seize and destroy counterfeit goods and disrupt websites 
that sell these goods. Since 2010, ICE and its partners have seized 
over 2,000 domain names associated with businesses selling counterfeit 
goods over the internet. To further these efforts, the administration 
issued its Strategy on Mitigating the Theft of U.S. Trade Secrets last 
month. DHS will act vigorously to support the Strategy's efforts to 
combat the theft of U.S. trade secrets--especially in cases where trade 
secrets are targeted through illicit cyber activity by criminal 
hackers.
    In addition, the National Computer Forensic Institute has trained 
more than 1,000 State and local law enforcement officers since 2009 to 
conduct network intrusion and electronic crimes investigations and 
forensic functions. Several hundred prosecutors and judges as well as 
representatives from the private sector have also received training on 
the impact of network intrusion incident response, electronic crimes 
investigations, and computer forensics examinations.
Building Partnerships
    DHS serves as the focal point for the Government's cybersecurity 
outreach and awareness efforts. Raising the cyber education and 
awareness of the general public creates a more secure environment in 
which the private or financial information of individuals is better 
protected. For example, the Multi-State Information Sharing and 
Analysis Center (MS-ISAC) opened its Cyber Security Operations Center 
in November 2010, which has enhanced NCCIC situational awareness at the 
State and local government level and allows the Federal Government to 
quickly and efficiently provide critical cyber threat, risk, 
vulnerability, and mitigation data to State and local governments. MS-
ISAC has since grown to include all 50 States, three U.S. territories, 
the District of Columbia, and more than 200 local governments.
    The Department also has established close working relationships 
with industry through partnerships like the Protected Critical 
Infrastructure Information (PCII) Program, which enhances voluntary 
information sharing between infrastructure owners and operators and the 
Government. The Cyber Information Sharing and Collaboration Program 
established a systematic approach to cyber threat information sharing 
and collaboration between critical infrastructure owners and operators 
across the various sectors. And, in 2010, we launched a National 
campaign called ``Stop.Think.Connect'' to spread public awareness about 
how to keep our cyber networks safe.
    In addition, DHS works closely with international partners to 
enhance information sharing, increase situational awareness, improve 
incident response capabilities, and coordinate strategic policy issues 
in support of the administration's International Strategy for 
Cyberspace. For example, the Department has fostered international 
partnerships in support of capacity building for cybersecurity through 
agreements with Computer Emergency Response and Readiness Teams as well 
as the DHS Science & Technology Directorate (S&T). Since 2009, DHS has 
established partnerships with Australia, Canada, Egypt, India, Israel, 
the Netherlands, and Sweden.
Fostering Innovation
    The Federal Government relies on a variety of stakeholders to 
pursue effective research and development projects that address 
increasingly sophisticated cyber threats. This includes research and 
development activities by the academic and scientific communities to 
develop capabilities that protect citizens by enhancing the resilience, 
security, integrity, and accessibility of information systems used by 
the private sector and other critical infrastructure. DHS supports 
Centers of Academic Excellence around the country to cultivate a 
growing number of professionals with expertise in various disciplines, 
including cybersecurity.
    DHS S&T is leading efforts to develop and deploy more secure 
internet protocols that protect consumers and industry internet users. 
We continue to support leap-ahead research and development, targeting 
revolutionary techniques and capabilities that can be deployed over the 
next decade with the potential to redefine the state of cybersecurity 
in response to the Comprehensive National Cybersecurity Initiative. For 
example, DHS was a leader in the development of protocols at the 
Internet Engineering Task Force called Domain Name System Security (DNS 
SEC) Extensions. DNS SEC is necessary to protect internet users from 
being covertly redirected to malicious websites and helps prevent 
theft, fraud, and abuse on-line by blocking bogus page elements and 
flagging pages whose Domain Name System (DNS) identity has been 
hijacked. S&T is also driving improvements through a Transition to 
Practice Program as well as liability and risk management protections 
provided by the Support Anti-Terrorism by Fostering Effective 
Technology (SAFETY) Act that promote cybersecurity technologies and 
encourage their transition into successful use.
Growing and Strengthening our Cyber Workforce
    We know it only takes a single infected computer to potentially 
infect thousands and perhaps millions of others. But at the end of the 
day, cybersecurity is ultimately about people. The most impressive and 
sophisticated technology is worthless if it's not operated and 
maintained by informed and conscientious users.
    To help us achieve our mission, we have created a number of 
competitive scholarship, fellowship, and internship programs to attract 
top talent. We are growing our world-class cybersecurity workforce by 
creating and implementing standards of performance, building and 
leveraging a cybersecurity talent pipeline with secondary and post-
secondary institutions Nation-wide, and institutionalizing an 
effective, on-going capability for strategic management of the 
Department's cybersecurity workforce. Congress can support this effort 
by pursuing legislation that provides DHS with the hiring and pay 
flexibilities we need to secure Federal civilian networks, protect 
critical infrastructure, respond to cyber threats, and combat cyber 
crime.
                        recent executive actions
    As discussed above, America's National security and economic 
prosperity are increasingly dependent upon the cybersecurity of 
critical infrastructure. With today's physical and cyber infrastructure 
growing more inextricably linked, critical infrastructure and emergency 
response functions are inseparable from the information technology 
systems that support them. The Government's role in this effort is to 
share information and encourage enhanced security and resilience, while 
identifying and addressing gaps not filled by the marketplace.
    Last month, President Obama issued Executive Order 13636 on 
Improving Critical Infrastructure Cybersecurity as well as Presidential 
Policy Directive 21 on Critical Infrastructure Security and Resilience, 
which will strengthen the security and resilience of critical 
infrastructure through an updated and overarching National framework 
that acknowledges the increased role of cybersecurity in securing 
physical assets.
DHS Responsibilities
    The President's actions mark an important milestone in the 
Department's on-going efforts to coordinate the National response to 
significant cyber incidents while enhancing the efficiency and 
effectiveness of our work to strengthen the security and resilience of 
critical infrastructure. The Executive Order supports more efficient 
sharing of cyber threat information with the private sector and directs 
NIST to develop a Cybersecurity Framework to identify and implement 
better security practices among critical infrastructure sectors. The 
Executive Order directs DHS to establish a voluntary program to promote 
the adoption of the Cybersecurity Framework in conjunction with Sector-
Specific Agencies and to work with industry to assist companies in 
implementing the framework.
    The Executive Order also expands the voluntary DHS Enhanced 
Cybersecurity Service program, which promotes cyber threat information 
sharing between Government and the private sector. This engagement 
helps critical infrastructure entities protect themselves against cyber 
threats to the systems upon which so many Americans rely. This program 
is a good example of information sharing with confidentiality, privacy, 
and civil liberties protections built into its structure. DHS will 
share with appropriately-cleared private-sector cybersecurity providers 
the same threat indicators that we rely on to protect the .gov domain. 
Those providers will then be free to contract with critical 
infrastructure entities and provide cybersecurity services comparable 
to those provided to the U.S. Government.
    Through the Executive Order, the President also directed agencies 
to incorporate privacy, confidentiality, and civil liberties 
protections. It specifically instructs DHS to issue a public report on 
activities related to implementation, which would therefore enhance the 
existing privacy policy, compliance, and oversight programs of DHS and 
the other agencies.
    In addition, the Presidential Policy Directive directs the 
Executive branch to strengthen our capability to understand and 
efficiently share information about how well critical infrastructure 
systems are functioning and the consequences of potential failures. It 
also calls for a comprehensive research and development plan for 
critical infrastructure to guide the Government's effort to enhance 
market-based innovation.
    Because the vast majority of U.S. critical infrastructure is owned 
and operated by private companies, reducing the risk to these vital 
systems requires a strong partnership between Government and industry. 
There is also a role for State, local, Tribal, and territorial 
governments who own a significant portion of the Nation's critical 
infrastructure. In developing these documents, the administration 
sought input from stakeholders of all viewpoints in industry, 
Government, and the advocacy community.
    Their input has been vital in crafting an order that incorporates 
the best ideas and lessons learned from public and private-sector 
efforts while ensuring that our information sharing incorporates 
rigorous protections for individual privacy, confidentiality, and civil 
liberties. Indeed, as we perform all of our cyber-related work, we are 
mindful of the need to protect privacy, confidentiality, and civil 
liberties. The Department has implemented strong privacy and civil 
rights and civil liberties standards into all its cybersecurity 
programs and initiatives from the outset. To accomplish the integrated 
implementation of these two directives, DHS has established an 
Interagency Task Force made up of representatives from across all 
levels of government.
                    continuing need for legislation
    It is important to note that the Executive Order directs Federal 
agencies to work within current authorities and increase voluntary 
cooperation with the private sector to provide better protection for 
computer systems critical to our National and economic security. It 
does not grant new regulatory authority or establish additional 
incentives for participation in a voluntary program. We continue to 
believe that a suite of legislation is necessary to implement the full 
range of steps needed to build a strong public-private partnership, and 
we will continue to work with Congress to achieve this.
    The administration's legislative priorities for the 113th Congress 
build upon the President's 2011 Cybersecurity Legislative Proposal and 
take into account 2 years of public and Congressional discourse about 
how best to improve the Nation's cybersecurity. Congress should enact 
legislation to incorporate privacy, confidentiality, and civil 
liberties safeguards into all aspects of cybersecurity; strengthen our 
critical infrastructure's cybersecurity by further increasing 
information sharing and promoting the establishment and adoption of 
standards for critical infrastructure; give law enforcement additional 
tools to fight crime in the digital age; and create a National Data 
Breach Reporting requirement.
                               conclusion
    The American people expect us to secure the country from the 
growing danger of cyber threats and ensure the Nation's critical 
infrastructure is protected. The threats to our cybersecurity are real, 
they are serious, and they are urgent.
    I look forward to working with this committee and the Congress to 
ensure we continue to take every step necessary to protect cyber space, 
in partnership with government at all levels, the private sector, and 
the American people, and continue to build greater resiliency into 
critical cyber networks and systems.
    I appreciate this committee's guidance and support as together we 
work to keep our Nation safe. Thank you, again, for the attention you 
are giving to this urgent matter.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman McCaul. I thank the Secretary and I now recognize 
myself for 5 minutes for questions.
    Let me say first, Dr. Lute, how much I enjoyed visiting the 
NCCIC and our conversation out there and our visit. I would 
encourage all Members to the extent you haven't been out there 
to the cyber command center at DHS that you do so.
    I think it is a very valuable experience as we move forward 
towards marking up a bill and getting it on the House floor. I 
think the Member education process is extremely important in 
moving forward to protecting the Nation from this very 
dangerous threat.
    You know, we hear every day about attacks from China, the 
Mandiant report, or military systems, Russia, very 
sophisticated, Iran--one of the latest ones was particularly 
disturbing when you hear about a rogue nation like Iran hacking 
into Aramco's computer systems, 30,000 computers--hard drives 
erased.
    At the same time, a simultaneous attack against our major 
financial sector. We will hear from the financial sector in the 
second panel. In fact, JPMorgan was a victim just yesterday.
    This is a serious concern. An attack like the one on Aramco 
and our financial sector could have been extremely chaotic and 
cause major disruption and destruction.
    I wanted to say, in the limited time I have, I am very 
impressed that, in spite of Congress's failure to act, that 
you, that the Secretary, that General Alexander with the NSA 
and Director Mueller with the FBI have come together to 
actually reach out in a workable arrangement and as I think we 
look forward to crating legislation, this is a model that I 
think it provides a good first step in terms of what kind of 
legislation we are going to mark up on this committee.
    I know you referred to threat information almost like a 
phonebook, you said the Manhattan phonebook, I know you are 
from New York. But a piece of it in NSA's domain, a piece of it 
within DHS, you know NSA's more foreign classified threat, DHS 
threat information, FBI. But what we don't really fail to 
realize is that majority of this threat information actually 
resides in the private sector with the critical infrastructures 
out there.
    So I think the goal is how do we create a safe harbor, if 
you will, where all of these entities can come together and 
share this threat information in real time, so we can protect 
not only the interest of the Federal Government but also the 
critical infrastructures that are out there.
    I know you and I talked about the idea of having 
representatives from the ISAC's, the Information Sharing 
Analysis Centers, as a full participant on the NCCIC and 
forward, I think that will be a--certainly a worthwhile goal to 
pursue.
    So with that, let me just turn it over to you in the little 
bit of time I have and maybe explain this model, how y'all came 
up with it and how you see the NCCIC moving forward?
    Ms. Lute. Thank you, Mr. Chairman.
    I would say the model derived out of Secretary Napolitano's 
conviction along with Director Mueller and General Alexander, 
that we needed to pool our strengths in order to share the 
burden that is being posed to the American public by threats in 
cybersecurity.
    We call there when they meet, we call it the TROIKA and 
they come together and they speak in very plain terms about how 
we can operationalize the need to respond to these threats. We 
can do it by bringing our authorities and our capabilities 
that, as you see in this chart, are distributed among the three 
agencies.
    You mentioned the analogy of the Manhattan phonebook, and 
it is true. If you think about the old-fashioned Manhattan 
phonebook, for those of us who remember it, it was a pretty 
thick thing.
    The government has Q, think of it as that way, and all the 
rest of the threat information exists out there in the private 
sector and we need to find ways to share this information in 
real time. Now that will require better automation, better 
technology, smarter networks, smarter machines, but also that 
users, enterprises, and organizations get more savvy as well.
    There is a famous saying making the rounds, that there are 
two kinds of companies in the United States, in the world 
perhaps, those that have been hacked and those that know they 
have been hacked.
    The status quo is simply unacceptable and the Government is 
not standing still in the face of that. Our job is to protect 
society from threats as they emerge. There are threats in 
cyberspace and we need to mobilize to act. But we need to do it 
mindful of the role of the private sector. Most of the critical 
infrastructure is in private-sector hands and we operate on the 
basis of, or the principle of, nothing about you without you. 
So sit down with us and let's walk through how we can again, 
pool all of our strengths to share these burdens.
    So of it, as you said, Mr. Chairman will result in greater 
representation on the NCCIC floor, greater information sharing, 
greater transparency, but the time to act is now.
    Chairman McCaul. I certainly agree and I think, you know, 
we have conducted and I may say, Chairman Pat Meehan of the 
Cybersecurity Subcommittee has done an outstanding job setting 
up listening posts, listening to the private sector. We--our 
philosophy is our bill, we will have buy-in from the 
stakeholders.
    We will have feedback from the private sector about what 
works and what doesn't work. We believe that our relationship 
should be a shared relationship with the infrastructures, with 
the industry rather than a forced one, which I think doesn't 
work as well, and less proscriptive because it is an ever-
evolving area where the law can be quickly behind events.
    So, it needs to be agile, it needs to be flexible. The one 
issue I have heard--now some sectors work very well at DHS like 
we will hear from the finance sector, of course the oil and gas 
sector. Others say that they want more participation.
    How can you improve, I think DHS and the NCCIC 
effectiveness, capability, and participation with the private 
sector, who I believe is really the true partner here?
    Ms. Lute. Thank you, Mr. Chairman.
    There are partners that they are true partners, but 
equally, so are the other partners in the other agencies in the 
Federal Government, the sector lead agencies that work every 
day with elements of the critical infrastructure of this 
country across the 16 sectors of critical infrastructure.
    We have prepared and handed out to all of our counterpart 
agencies and to all of the governors a checklist for 
understanding the problem posed by cybersecurity. What they 
should be asking in their organizations, how they should work 
with their partners in the private sector. We are prepared to 
bring our expertise together with theirs in these various 
sectors.
    Some sectors are ahead of others, the defense sector for 
example, IT, telecom, finance as you will hear from. Others are 
mobilizing and increasingly becoming aware and taking action 
and we are prepared to support all of those efforts.
    Chairman McCaul. Yes, the tour I got in the NCCIC, I saw 
the operations in progress. I know that NSA just did a little 
sort of pilot program with you where they did share more 
sensitive information through the civilian portal known as DHS 
and I think the results were actually quite good and I think 
the feedback was very positive about the efforts.
    I think the civilian interface is important and it is 
important to a lot of privacy groups I know as well. I know 
General Alexander actually endorsed that idea that DHS provide 
that civilian interface to the private sector.
    So with the 9 seconds I have, I look forward to working 
with you, I look forward to working with this committee on 
drafting important legislation and finally getting this thing 
done. It has been long overdue. I have been working on this 
issue for quite some time and I finally feel that the time is 
right now for the Congress to act for us to get something done 
and we are working with our Senate counterparts, which is 
something you didn't see last Congress.
    I believe that, you know, Michael Daniel in the White House 
has been very open and it is something that I think is 
something that is too important from a National security 
standpoint to play politics with. It is something we need to 
get out of this committee, out of the Senate, and signed into 
law by the President.
    So with that, I will now recognize the Ranking Member.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    I look forward to working with you on this committee with 
respect to our jurisdiction to make sure that we have our 
opportunity to put the Homeland Security's stamp on whatever 
goes to the floor.
    That being said, Dr. Lute, good seeing you again. We have 
been missing each other for a while.
    President Bush and President Obama both have indicated 
through various statements and Executive Orders that 
cybersecurity has to be a priority. With the latest Executive 
Order from President Obama, can you tell this committee if that 
Executive Order is satisfactory enough or would you encourage 
this committee to take on legislation relative to 
cybersecurity?
    Ms. Lute. Thank you, thanks very much. Good to see you 
also.
    The Executive Order--through the Executive Order, the 
President has acted within his authorities to direct us to 
undertake a number of aggressive measures to improve the status 
quo. We think legislation is still necessary.
    We need to enhance information sharing, create incentives 
for that, incorporate privacy, civil rights, civil liberties, 
assurances, and safeguards into all aspects of cybersecurity 
and adopt a framework for cybersecurity standards.
    We think Congress has an important role to play, also in 
affirmatively establishing the positive authority of DHS to 
protect dot-gov and to help create a National data breach 
reporting mechanism. So we think there is still a need for 
legislation and certainly look forward to working with the 
committee within its jurisdiction to successfully reach that 
goal.
    Mr. Thompson. Thank you very much, I am glad you made that 
point.
    The Chairman put a slide on the screen here that talked 
about a three-part relationship between the DOD, DOJ, and DHS. 
To some degree, the process is beginning to work, but from what 
I understand, your testimony today is the roles could be 
further defined legislatively so that those three agencies can 
do their work in a better manner. Is that correct?
    Ms. Lute. What I am saying, Mr. Thompson, is that, yes, we 
think we can--it would be helpful to have legislation clarify 
and strengthen the role of DHS in protecting .gov, 
strengthening the tools available to law enforcement, and 
clarifying that this is a problem of great urgency that the 
Government is seized with.
    Mr. Thompson. We received briefings quite a bit on 
vulnerabilities that exist within cyber. But most of those 
briefings go in the direction of hackers from China, hackers 
from Russia, and that is a very significant part of the 
challenge. But from your testimony, there is also other areas 
that we should be looking at beyond that.
    So most of our briefings for the most part come from a 
defense posture and I am convinced that that is necessary. But 
from DHS's perspective, how do you see DHS's role and in 
managing that cyber jurisdiction that you have?
    Ms. Lute. Well you are talking to an old soldier.
    Mr. Thompson. Absolutely.
    Ms. Lute. So I certainly understand the role of the Defense 
Department, and in particular, knowing the National Security 
Agency as I have since 1978, I understand and value its 
contribution to the National defense. It absolutely has a role 
to play.
    But cyberspace is civilian space. We need to manage it as 
civilian space. The status quo is not acceptable. People are 
under attacks. The attacks that are emanating from actors in 
China or Iran or Russia or elsewhere around the world are 
certainly worrisome. We have raised these issues in our 
diplomatic and other dialogues with appropriate authorities.
    But we also know is one of the greatest dangers that we 
face are the existing vulnerabilities that go unpatched in our 
systems every single day. They number in the millions. So we 
have got to take action collectively. Our role, in Homeland 
Security, and we called this out 4 years ago. We said, 
essential to helping create a safe, secure, resilient place 
where the American way of life can thrive, is ensuring our 
National cybersecurity. We intend to fulfill that 
responsibility.
    Mr. Thompson. Thank you very much. Yield back, Mr. 
Chairman.
    Chairman McCaul. I thank you Ranking Member. Chairman now 
recognizes the gentleman from New York, Mr. Peter King.
    Mr. King. Thank you Mr. Chairman. Secretary Lute, great to 
see you back here. Thank you very much. Let me commend the 
Chairman for going forth with this hearing. This is absolutely 
essential that legislation be passed. I believe that DHS and 
this committee have a vital role to play in that, in those 
regards. Without setting up a competition but showing seamless 
cooperation. What unique capacity does DHS bring to the table, 
let's say separate from the FBI, separate from DOD? Why is it 
essential that DHS be part of the final answer?
    Ms. Lute. Thank you, good to see you also. When you think 
about the expertise and the resources and the authorities and 
jurisdictions that each of the departments bring, DOD is 
responsible, General Alexander, responsible for securing dot-
mil. Dot-mil, if I can be allowed a comparison, is the size of 
this pen cap. Dot-gov is the size of this box in front of me. 
Dot-com is the size of this room. And growing. Organically and 
instantaneously every single day.
    What we bring is our working relationship with the private 
sector. The responsibility to coordinate National protection 
efforts on behalf of the Federal Government. The responsibility 
to secure dot-gov. Now I have handed out, and I hope you have 
all received our strategy for securing dot-gov. That addresses 
issues, and we have policies and capabilities and staff, that 
assist the Federal agencies in managing their IT systems well. 
Knowing and training the users, the administrators of their 
systems, knowing, understanding and protecting the systems and 
technologies and the boundaries of the network as well.
    Our job, and we take it seriously, is to prevent bad things 
from happening and respond rapidly when we do. We have 
extraordinary men and women who work in the Department on this. 
In fact, our ICS-CERT, our Industrial Control Systems 
Cybersecurity Emergency Response Team, was just highlighted by 
SC magazine as the No. 1 cybersecurity team in the country. We 
take great pride in that.
    So we bring this perspective and this additional set of 
responsibilities and authorities and capabilities to bear.
    Mr. King. At the current moment, do you believe that DHS 
has sufficient resources to implement and carry out the 
Executive Order?
    Ms. Lute. We are, we are undertaking to carry out the 
Executive Order and devising on an aggressive time table, the 
plans, the approaches, the frameworks, and the inputs. Those 
resourcing decisions will need to be made in the context when 
that work is completed. But we have mobilized ourselves 
internally, created a task organization within the Department, 
across every aspect of the Department, to get that work done in 
response to the President's direction.
    Mr. King. On the issue of the hostile power cyber breaches, 
to the extent you can discuss it in open forum, if you could 
refer to the Mandiant report and the impact of China hacking 
into the United States. The significance of that, and could you 
just drive home how significant that is?
    Ms. Lute. Well we believe it is extraordinarily significant 
and what I would say about the Mandiant report only, is that it 
is illustrative of the extraordinary capability that exists in 
the American private sector in the area of cybersecurity. We 
really have some of the best in the world in this country. When 
it comes to technology, expertise, insight, analysis, and 
perseverance, with what is a growing problem.
    Second, what I would say is, I guess I would echo what Tom 
Donilon said recently in a speech on the question of China, we 
have raised this issue of the attacks that are emanating from 
actors in China, with Chinese authorities. We have called on 
them to acknowledge it, take it seriously, understand it. To 
investigate it and stop it and to work with us in creating 
broad norms of responsible cyber behavior.
    Mr. King. Would you say that Mandiant is typical or 
atypical of cooperation between Government and the private 
sector?
    Ms. Lute. What I would say is that it is the leading edge 
of what will be best practice.
    Mr. King. Okay. Do you intend to pursue that type of 
relationship?
    Ms. Lute. Absolutely.
    Mr. King. Yes, okay.
    Ms. Lute. What is very clear, Chairman, is that no single 
entity can do all that needs doing here. Partnering with the 
private sector is an intrinsic part of our approach to 
cybersecurity.
    Mr. King. Secretary, thank you very much. Yield back. Thank 
you.
    Chairman McCaul. The gentleman, the Chairman now recognizes 
the gentlelady from California, Ms. Sanchez.
    Ms. Sanchez. Thank you Mr. Chairman and thank you Secretary 
for being before us. This is an issue that many of us have been 
working on this for a while. I have the opportunity to sit on 
the Armed Services Committee and do cybersecurity from that 
end.
    There are many people, let me begin by saying, I 
congratulate you in working across so many agencies and 
departments with respect to this in the Executive arena. I know 
that in the House and the Senate, those of us who work on this 
on different committees sometimes don't even know we are all 
working on it. So I congratulate you on that.
    But there are some of my colleagues who feel that the total 
answer to this is our Defense Department. I find that, 
especially when I am sitting with Intel members or with HASC 
members or people who are very comfortable, if you will, with 
the military. So sitting also on this committee, I understand 
there is just so much more to be done than just to use our 
Department of Defense or some of those agencies and initiatives 
on the rest of this.
    Can you, can you do me a favor and walk through currently 
what, how you are involved and what the situation would look 
like for example? Let's say a big telecom, maybe AT&T gets 
hacked and it is ruinous to many people who use, for whatever 
reason, that company on a daily basis. From the moment we know 
that something is going wrong, so we have got a private-sector 
person, company, entity. Then it is important to all of us, 
because we may do banking through that, or talking to each 
other, networks. So I would assume you are involved with that. 
Then who ultimately, you know, who really shuts things down or 
figures out what went on? Or re-routes what is going on?
    Can you sort of walk us through that so that we have an 
understanding of what the different roles are, private, DHS, 
military if it is there, et cetera, et cetera?
    Ms. Lute. So thanks very much for that. There is no 
question that what is going on in cyberspace and on the 
internet right now, it is contested space. As we all have said, 
and as we all know, there is a variety of sources of threats 
and attacks. There is a variety of pre-existing threats and 
attacks.
    Among our most capable industries is the telecom industry. 
You cited AT&T, certainly they are a leading player in that 
industry. But the moment of attack is not the point at which to 
begin our dialogue. We haven't. We are in constant dialogue 
with AT&T, the other internet providers, other service 
providers across the critical infrastructures in cyberspace 
already. We have been doing that now for years.
    Together with our partners in DOJ and DOD, who also have 
their relationships and dialogues with them. So if there is an 
attack, what we look to see is how well the entity under attack 
can defend itself. Can we augment that with additional 
information? Here is where part of what we have been innovating 
over the past few years is really coming into play.
    The government, as I mentioned, has threat information. Can 
we put that in the hands of the private sector so that they can 
take appropriate steps to defend themselves? We have proven 
that we can. This country can protect itself and we will use 
all of our resources to do so. But we also know that there is a 
vast amount of information in the private sector.
    Can we mobilize that? As kind of a cyber neighborhood 
watch, so that everyone has the benefit of where the threats 
might be coming from and when. So we have developed what we 
call, is a sufficiency framework for defense of the networks, 
where we step through, beginning at the entity level, the 
agency or the organization's level. Are they doing everything 
they can? Can they be augmented by us? By the FBI? By other 
parts of the Federal Government or other parts of government 
usefully? Can we step through that to ensure that we prevent 
bad things from happening and that we respond and mitigate 
immediately when they do?
    Ms. Sanchez. At what point, because we have read, in 
places, that more and more are experts within Intel and Defense 
are aiding, if you will, some of these private entities. At 
what point would they swoop in to save the situation?
    Ms. Lute. So we work side-by-side with our partners in the 
Federal Government, including in the intelligence agency, 
appropriately under rules. Also mindful of the responsibilities 
to, that we all have within our authorities. We will not manage 
the cybersecurity of this Nation as an Intel program. No one is 
suggesting that.
    What we do want to do is mobilize all of the resources that 
we have in the Federal Government to address the status quo 
which is unacceptable.
    Ms. Sanchez. Thank you, Secretary. I have other questions, 
but I will submit them for the record. Thank you for your work 
in this.
    Ms. Lute. Thank you.
    Chairman McCaul. Chairman now recognizes the Committee--
Cybersecurity Subcommittee Chairman, Mr. Meehan, out of order, 
and ask for unanimous consent that he be recognized. Without 
objection.
    Mr. Meehan. Thank you, Mr. Chairman.
    I am very grateful for the opportunity to join with you on 
this. I thank you for your leadership in taking this issue at 
the outset for our committee, because of its importance which I 
think is being driven home. Not just by our awareness of the 
events that are taking place within the Nation currently, but 
the recognition as well as the communications we have had with 
you and your colleagues across the spectrum, both in the 
governmental sector and the private sector of the importance of 
this issue.
    While I believe that you have been consistent in the 
clarion call of recognition on this issue, I think we as a 
Nation are lagging in an appreciation for the genuine scope of 
the threat that we face. In addition that the changing nature 
in that it isn't enough just to be reliant on Government alone, 
that there is a partnership that is going to be necessary.
    I am struck by the reality, 90 percent of the network that 
we are being tasked with protecting is in the private sector. 
You clarified that well, so we can, among ourselves in the 
Government and the Defense Department, NSA, communicate. So I 
am really interested in how we create this collaboration with 
the private sector tying back to our Governmental entities. 
Recognizing of course, as well, that as we get into 
communication, not just from the Government, what we know to 
the private sector, but requests from the private sector to 
share information with the Government that we begin to open the 
door to other kinds of issues about who gets it, when, where, 
and what do we do?
    Can you just give me an oversight of where the critical 
parts are in that relationship and how we encourage the private 
sector to be really engaged in this?
    Ms. Lute. Thank you. In every way, at every level we are 
working with the private sector. From the meetings that the 
Secretary has, and the dialogues that I have at my level 
throughout our organization in Homeland Security, as well 
again, if I may say in the Department of Justice and in the 
Department of Defense we meet regularly with the private sector 
to understand the world in cyberspace from their point of view. 
But we are also mindful of our role as Government. So we work 
with the other Federal agencies to--and we have been working to 
begin to craft a framework, and an approach that will address 
the unacceptable status quo with respect to cybersecurity 
attacks.
    Every 90 seconds from an operational perspective, US-CERT 
gets a call about an intrusion. We push out tons of information 
every day, every week. Recently with the attacks on the 
financial sector, we have been working with the bureau to put 
out joint information bulletins, pushing out hundreds of 
thousands of signatures and information that the private sector 
can use. We hear uniformly that this has been important and 
helpful information, and they want more. So this is an evolving 
partnership, but one that begins from a very solid foundation 
of respect, mutual regard, and an understanding that no single 
entity can do all that needs doing.
    Mr. Meehan. How about the private sector sharing with you 
though, and not just in a voluntary capacity because you have 
been great, we have discussed--I had the opportunity with the 
Chairman among others to spend time talking to some of these 
entities in New York and otherwise, that are on the front lines 
of these attacks that are coming across. It is a very sobering 
situation to see the scope of it. But the--you know those are 
groups that are coming to you to work together. An issue that 
we are going to have to struggle with is the whole concept of 
disclosure by private entities when they know that they have 
been hacked.
    I think you said it well, those that have been hacked, and 
those that know they have been hacked. That they know they have 
been hacked, there is an incentive for them to disclose, 
incentive for them to participate with us. How do we make them 
partners? Then how do we deal with those who do not wish to 
disclose and could be in possession of information which is 
material and important to the defense of our Nation?
    Ms. Lute. Thank you. I won't speak for the private sector, 
I was raised to speak for myself, and I know you certainly will 
understand this. But we have heard this, the notion, and we 
think we understand it, that it does create a burden on this 
question of disclosure. But there is a far superior burden to 
the consumers and to the users of this critical infrastructure, 
if these entities are hacked.
    If people's private information has been unlawfully and 
illegitimately exfiltrated and there is potential for 
exploitation by cyber criminals or others, in cyber--and we 
think that we have to address that concern as well. So we look 
forward to working with Congress as it contemplates legislation 
in trying to square this circle.
    Mr. Meehan. Well my time has expired, but I thank you Mr. 
Chairman and I also look forward to--I thank you for your 
observation of the need for legislation that helps clarify a 
number of things, among which is the framework to allow us to 
work with you and your--you know your fellow agencies, in an 
effective way to create this public/private partnership. It is 
a big task ahead.
    Thank you.
    Chairman McCaul. Let me commend subcommittee Chairman 
Meehan for his great work in this area, listening to the 
private sector, and the stakeholders which is vitally 
important, along with Ms. Clarke from New York, who is now 
recognized.
    Oh, I am sorry, Ms. Jackson Lee is now recognized. Please 
forgive me.
    Ms. Jackson Lee. Let me thank you very much for your work, 
Secretary Lute, and I do want to thank my Chairman and Ranking 
Member, their timing is impeccable. Over the last 24 hours we 
have heard the proclamations, or proclaiming of a cyber war, 
cyber threats of major proportion in the next 2 years. So I 
would like to just hold up to say this is a very informative 
document, and a very helpful document. As I ask you a series of 
questions, I do want to make a particular plea.
    In the course of answering my question if you might respond 
to that plea. The plea is that alongside of those who intend to 
do enormous devastating harm, are those that we call, hackers. 
Over the last 24 hours, we have heard some of the most 
provocative hacking in public officials from the First Lady to 
the former Secretary of State, to a number of entertainers, and 
I believe that one of our pathways to success is whether or not 
we can convince these individuals, whether they are benign, 
whether they happen to be in the category of cerebral persons 
who want to be stimulated, that they need to work with us, or 
that this is a dangerous proposition when it comes to the 
security of the Nation.
    Because potentially if we have a cyber war, then are we 
going to have all of those intervening factors cloud what we 
are supposed to do to fight those who are truly engaged in 
terrorism? So I want you to be able to answer that premise of 
what kind of outreach or understanding do we have of the hacker 
community? Obviously some are in the category of criminal 
activities. But if we just sit here in this committee and speak 
about trying to get our hands around cyber threats, and for 
example by being aggressive and saying, this is devastating, 
wind up having all of our systems hacked because we have not 
communicated how devastating this is, or there is not an 
outreach or there is not an understanding.
    Where are these people at? We are not reaching--finding 
them either through the investigatory process or not. So I ask 
that question and I will pause for a moment for you to answer.
    Ms. Lute. Thank you. I don't use the term, war zone or--
when I talk about cyberspace. We can't manage the Nation's 
cybersecurity as if it were a war zone. I mean we have to 
address this mobilizing all of the resources we have, including 
the bright and extraordinary young talent that some say make up 
the hacker world. We have a member of the Homeland Security 
Advisory Committee, Jeff Moss who is the founder of DEFCON, and 
Black Hat, one of the leading organizations that draws on that 
kind of talent. We have also recently, at the Secretary's 
instruction, implemented the findings of a cybersecurity 
workforce, a cyber skills workforce initiative.
    This task force, which was chaired by industry leaders in 
the United States took 90 days and came back to us with ways to 
raise the skills of our workforce. Ms. Renee Forney sitting 
behind me, chairs this effort now in the Department. We are 
going to do five things, and I think these five things are 
going to in part, appeal to this audience. We are going to 
hire, test, and train to the very best standards of 
cybersecurity expertise that exists. We are going to open 
pipelines, widen the pipelines bringing people, talented young 
people into Federal service.
    We would like them to come to the Department of Homeland 
Security first, but we will accept their contribution to 
Government across the board, wherever they go. We are going to 
work with industry and with academia to do it. We are going to 
strategically manage our workforce to prize this very valuable 
talent. This is the place where we really invest in our people. 
So, this is the way we are going to reach out.
    Ms. Jackson Lee. Let me get these last three questions in. 
Do you think that the lead role of the DHS is effective now? 
Bush first established it, now you are in the Obama 
administration. Two, do you have the flexibility of hiring--you 
just mentioned it, but do you need more flexibility in hiring 
the right kind of people? Are you improving the sharing of 
information between State and local entities from the Federal 
Government?
    Ms. Lute. Yes, we are up to the task. We need permanent 
flexibility in our hiring. We can--we will always improve, and 
can always improve our information sharing, and we are working 
on that.
    Ms. Jackson Lee. Do you think there will be a cyber war in 
the next 2 years?
    Ms. Lute. Uh.
    Ms. Jackson Lee. Even though you don't use the word, war?
    Ms. Lute. I was a soldier for a long time----
    Ms. Jackson Lee. I didn't hear you, I am sorry?
    Ms. Lute. I was a soldier for a long time. I think we--
cyberspace will remain contentious for some time to come. But 
there is a lot we can do about it, and are.
    Ms. Jackson Lee. Do you think it can threaten the lifestyle 
of Americans over the next 2 to 5 years?
    Ms. Lute. Not if I can help it.
    Ms. Jackson Lee. We thank you for your commitment, but I 
hope that we will have this continuing dialogue. I frankly 
believe if we do not reach the hacker community, and separate 
them out from us, trying to fight what can be Government 
undermining, I think we will have a serious problem. I look 
forward to working with you. Thank you.
    Chairman McCaul. I thank the gentlelady from Texas.
    The gentleman from Utah, Mr. Stewart, is recognized.
    Mr. Stewart. Thank you. I think you have been an excellent 
witness, you are concise, you illustrate in ways that help us 
understand, and I appreciate that. I was an Air Force pilot for 
14 years. I flew a fairly sophisticated weapons system, but our 
ROE was fairly straightforward. I mean if we were attacked, we 
responded. If our forward operating bases were attacked, our 
infrastructure was attacked, we would respond, and I just don't 
get the same sense here that there--you know the rules of how 
we operate are as clear as it was in those examples.
    We talk a lot about defend, defend, defend and I would like 
to spend a few minutes elaborating on your comments on 
deterrents. My questions I guess would be this: Does the Obama 
administration view--do they have clear red lines that China or 
Iran or any other organization knows that they cannot cross? Do 
they--have we been able to communicate effectively to them what 
those red lines are? Are we aggressive enough, do you think 
that that would help to deter future attacks by making them pay 
the price?
    It seems like they ping us all the time with impunity in 
some cases. That concerns me a little bit, and I would 
appreciate your response to that concern?
    Ms. Lute. One of the things we know about former--being 
former military--is that society has entrusted its Government 
with the responsibility to run the military, keep the Nation 
safe, defend us from attack. We do that in a physical world. We 
are better at that than anybody else in the world as well.
    What we also know is that not every problem presents itself 
for a military solution. But there are--nevertheless there is 
learning, there is information, there is capability, and there 
is technology that we can derive from our partners in DOD and 
from our understanding around the world to better defend 
ourselves against these attacks.
    But, as we know, 90 percent of the critical infrastructure 
in this country is in private-sector hands. We have to involve 
them in that approach. General Alexander takes the back seat to 
no one in his willingness, ability, and determination to defend 
this country, should we reach that point.
    I take a back seat to no one, in my commitment to use our 
civilian resources appropriately under the law to do that as 
well.
    Mr. Stewart. Well, I appreciate your response, but maybe 
let me press just a little bit on this. That is, again, I 
don't--help me understand what price these organizations fear 
or what they feel they are going to pay with some of their--
with their constant attacks.
    I mean, do they feel like we respond to those and they have 
anything to lose? Or do they feel like they can operate in 
this--again, with impunity, without us really pressing them 
back on that?
    Ms. Lute. There is a--at the moment in cyberspace, offense 
wins. We know that. I won't speak for how these organizations 
that are lobbing threats, unlawfully stealing trade secrets and 
other kinds of crime, quite frankly, in cyberspace, what they 
think or what motivates them.
    What I will say is that we are increasingly making the 
country aware of the threats posed in cybersecurity. This is 
present in our dialogues. I have standing conversations with a 
number of international partners at the homeland security 
level.
    We rely on our diplomats to communicate our diplomatic 
messages, but at an operator's level we are communicating very 
clearly as well, behavior that is unacceptable, and trying to 
find ways that we can--that like-minded governments can work 
together to stop these actors from acting.
    Mr. Stewart. Yes. Well, you know, I appreciate your 
comment, I really do. Maybe I am not communicating my concern 
adequately. But again, it just seems to me that we have not 
instilled a--again, we talk about defend, defend, defend and in 
your response you mentioned that again and again. But I am not 
sure that we are aggressive enough in deter and making them pay 
a price. Am I wrong on that concern, do you think?
    Ms. Lute. I think we are getting better at that all the 
time. It is an imperative for us. This simply can't go on 
unimpugned.
    Mr. Stewart. Okay. All right.
    Mr. Chairman, I yield back.
    Chairman McCaul. Okay.
    The Chairman now recognizes the gentleman from Arizona, Mr. 
Barber.
    Mr. Barber. Thank you, Mr. Chairman.
    The first meeting I came to under your leadership of this 
committee, I was very pleased to hear that you made 
cybersecurity a top priority for our committee and for the 
Congress. I 100 percent agree that that has got to be the case.
    My concern is generally, and perhaps you can comment on 
this, Ms. Lute, is the public, it seems to me, is pretty much 
unaware of the threat that this poses to the homeland, to the 
country. I think traditionally, you know, we think of 
protecting the homeland, protecting our Nation, as military 
protection or police protection. This issue is not a very 
visible issue at all, unfortunately, for most people.
    Could you comment on what we can and should be doing, both 
in the administration and in Congress and in the public at 
large to make people more aware of the imminent danger of cyber 
attacks and how we can get public support for taking the 
necessary action?
    Ms. Lute. Thank you very much for this question. Part of 
the problem is strategic, centralized, and top-driven, the 
threats that we perceive in cyberspace to National security. We 
are addressing them.
    But cyberspace is transactional, decentralized, and bottom-
driven. So is homeland security. We are transaction-based, 
decentralized, bottom-driven. In our world, it is not so much 
need-to-know, it is duty-to-share, when we are talking about 
information.
    So we are working aggressively to put the word out. A lot 
of people are unaware. We have been promoting, through a cyber 
education program, such things as ``Stop. Think. Connect,'' so 
that people engage intellectually before they get on-line, so 
they understand cyber threats. We have more to do in this 
regard, but equally, citizens, companies, State and local 
government, every aspect of our society needs to get engaged.
    Mr. Barber. Thank you for that. I just want to add to the 
gentleman's earlier comment that we see a lot of witnesses in 
Congress and I really want to commend you on your clarity and 
your brevity in responding to our questions and in your initial 
opening statement.
    I have a question related to the recent Inspector General's 
audit of the Industrial Control Systems Cyber Emergency 
Response Team. It found that although the team has made 
significant progress in building out its capabilities to 
support critical infrastructure owners and operators, the 
challenges still remain, particularly in the sharing of timely 
and actionable threat information.
    Could you please comment on the challenge of balancing the 
need to get information to critical infrastructure in time to 
stop attacks, while protecting intelligent sources and methods?
    Ms. Lute. We are working on that.
    Sorry, I beg your pardon.
    I would be happy to talk in greater detail in a different 
setting. It is not--it is a significant issue. How do we share 
information appropriately? But not only between the Government 
and the private sector, but between the private-sector entities 
themselves. I see US-CERT as the best in the country.
    Mr. Barber. Very good. I certainly want to commend the 
Secretary for the action that she has taken and the priority 
she has given and, through you, carrying out this action within 
DHS.
    I am firmly of the belief that we have to have legislation. 
We have to have legislation that improves and increases our 
capabilities to stop these attacks, both on the private as well 
as the public web sites and infrastructure. I also believe that 
we have to figure out a way to make sure we have--assure people 
that we are protecting their privacy.
    So to the question about hackers. As we work to improve 
cybersecurity, I want to know more about what we can do to 
penalize those who perpetrate cyber attacks. That we send--how 
do we send a clear message to our cyber adversaries of the high 
cost of attacking the United States?
    Also, could you talk about what we can do to hold hackers 
who are not friendly, in any way, accountable for their 
actions?
    Ms. Lute. Thank you for that. Two aspects to my answer. No. 
1, we need to strengthen the hand of law enforcement to enforce 
the law. To a large extent, what we are seeing in cyberspace is 
crime. We need to give our law enforcement officers the tools 
they need to investigate, pursue, and successfully prosecute 
the crimes that occur in cyberspace. We are working very 
closely, Secret Service, Immigration Customs Enforcement, 
working very closely with the FBI, other law enforcement 
agencies, to do just that. We are getting better all the time. 
Here is an area where legislation can help.
    A word, if I may, on privacy, civil rights and civil 
liberties. We can do both. We can ensure your cybersecurity 
while protecting your civil rights and civil liberties. It must 
remain a dual imperative.
    Mr. Barber. Thank you, Mr. Chairman. You can count on my 
support for legislation. This has to be a bipartisan issue and 
I appreciate your leadership and that of the Ranking Member.
    Chairman McCaul. I thank the gentleman. I agree with you on 
the capability issue, as well. Also, Dr. Lute, on the balance 
of privacy versus security. It is hugely important and I think 
DHS is well-suited for that.
    The Chairman now recognizes the gentleman from 
Pennsylvania, Mr. Rothfus.
    Mr. Rothfus. Thank you, Mr. Chairman.
    Thank you, Madam Secretary, for being here today. This is 
very informative for me.
    I understand the collaboration that exists now between DHS, 
the Defense Department, and the Department of Justice, FBI. A 
question that occurs to me is whether or not we currently have 
any Federal official who is the primary point of contact for 
the oversight of cybersecurity?
    Ms. Lute. So we would say that the Secretary of Homeland 
Security is responsible for coordinating across the Government, 
but we work collaboratively with our partners in DOJ and DOD.
    Mr. Rothfus. So the Secretary would convene meetings of 
these other agencies to ensure that collaboration is taking 
place as appropriate----
    Ms. Lute. Also attend. The responsibility for securing dot-
mil belongs with DOD and in other sectors, and of course, the 
lead law enforcement investigative agency is the FBI.
    Mr. Rothfus. If I could just----
    Ms. Lute. I beg your pardon.
    Mr. Rothfus. Thank you. A couple of questions as I review 
the organizational structure of the Department of Homeland 
Security and whether or not you are as organized as optimal.
    We appear to have a number of offices within the Department 
that address cybersecurity. Under Science and Technology, we 
have the Office of Cybersecurity Division, where we have US-
CERT, as I understand it. Under National Protection and 
Programs Directorate, we have the Office of Cybersecurity and 
Communications. Then under Intelligence and Analysis we have 
another Office of Cyber, Infrastructure, and Science.
    None of these offices that appear to deal with 
cybersecurity directly report to the Secretary. If you could 
just share with us how that works, how that information is 
channeled to the Secretary from these disparate offices, and 
whether or not there should be consideration for any kind of 
reorganization within the Department, given the importance of 
cybersecurity?
    Ms. Lute. The Secretary maintains constant awareness of 
where we are in cybersecurity and is very up to speed on every 
aspect of the operations of the offices that you described.
    As chief operating officer of the Department, my job is to 
see that everything is running. Every Wednesday, I chair a 3-
hour cybersecurity meeting among all of those agencies.
    This is like so much else. I am an operator. Operations 
conform to functions and needs that agencies or, in our case, 
the Federal Government require. Is our organizational structure 
optimal? I don't know of any such thing sort of anywhere. It is 
a constantly-evolving process.
    The issue of direct report may, at a surface level, 
communicate salience, importance, or ease of access. The 
Secretary places extreme importance on the cyber activities of 
the Department, has no problem getting access or answers to any 
question or issue that may arise, and we maintain constant 
vigilance over all of these parts of the Department.
    So can we change and improve? Of course. What will drive 
us? We have got a cybersecurity strategy. We have laid out an 
approach to securing dot-gov, we are engaging the private 
sector and the American people on an educational platform, as 
well, as I mentioned.
    We will adapt our organization to these imperatives as we 
move along. We are paying a lot of attention to this.
    Mr. Rothfus. Thank you.
    We have some great assets in southwestern Pennsylvania with 
University of Pittsburgh, Carnegie Mellon University. I am just 
curious how you are leveraging, if at all, the capacities of 
our academic institutions in this effort.
    Ms. Lute. Well-known to us, great partners in the analytics 
side, I mean our S&T, you mentioned Science and Technology, 
Doug Maughan who heads our cybersecurity work on that front. It 
is a National treasure. He knows these organizations, is well-
known to them. So we leverage them a lot as we can.
    I mentioned also in response to an early question, our 
desire to broaden the pipeline of talent that comes into 
homeland security, working with academia and with industry as 
well.
    Mr. Rothfus. Thank you.
    I yield back.
    Chairman McCaul. Thank you to the gentleman.
    The Chairman now recognizes the gentleman from New Jersey, 
Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman.
    It is very good to see you once again.
    You know, we have been talking a lot about the different 
Government departments are working well together, sharing 
information in terms of this whole issue. But it seems like it 
is still a challenge and I hear you saying that the private 
sector is coming along. But you know, much progress has been 
made with NCCIC program. You said that we need to get private 
entities on board.
    Specifically, what legislation can be passed to create 
incentives for that?
    Ms. Lute. Thank you, Congressman Payne and Mr. Chairman 
with your permission, I would just like to acknowledge 
Congressman Payne's father's passing a year ago last week. He 
was one of my father's closest friends. He admired him and 
appreciated the work he did. I may be a New Yorker, I was born 
in Newark, and I have never forgotten it, and I just would like 
to acknowledge with respect and appreciation his work, 
Congressman and yours as well on behalf of the people from 
someplace I call home.
    Chairman McCaul. We all share in that our condolences to 
you and your father.
    Mr. Payne. Yes, and to you ma'am, your father played a 
great part in recognizing my father's commitment to public 
service very early on when a lot of people doubted it and he 
was one of the people that really helped open the door for him 
and we see what he was able to accomplish. So to your family, I 
thank you as well.
    So, in terms of the legislation to create incentive?
    Ms. Lute. So, many of the ideas in the cyber EO, draw on 
the House Republicans Cyber Taskforce. We think additional 
legislation in terms of enhancing information sharing and 
creating incentives for industry to participate with us and 
adopting standards and best practices.
    For example, we know today, we know today, that we can--we 
have the technology to identify hardware that is on systems, 
white list software that is acceptable to be on systems, 
understand network configurations and have machines talk to 
each other in real time to identify threat factors and respond 
and patch in real time.
    We think that by sharing this information and creating a 
culture of accountability and action that industry will be 
incentivized to act. We need Congress's help in this regard and 
we look forward to working with the committee to achieve that.
    Mr. Payne. Okay.
    But it--I know there has been some difficulty in getting 
these private entities to buy in at times and even admit that 
they have been hacked and have had problems. It is almost like 
having a bully and you are scared to say that you have been 
attacked by this bully because it shows some type of weakness. 
How do we get them to even admit that they have had issues when 
a lot of them hold back that information?
    Ms. Lute. We think an important component of legislation 
would be establishing a National data breach reporting system 
and we have changed the culture, not completely, in the example 
that you cite. We need to change the culture here because as 
problematic as it--as some may think it might be to report on a 
breach, it is far more problematic when the breach goes 
unreported and far more problematic when people's privacy and 
their private information goes exfiltrated unlawfully. We need 
to address that and close that gap.
    Mr. Payne. Thank you.
    I think I will yield back, Mr. Chairman.
    Chairman McCaul. The gentleman--and I--let me just point 
out, I think the liability protections that we will be looking 
at can greatly incentivize the private sector to share the 
information and provide that safe harbor that they can go to 
which we envision to be the, you know, the NCCIC itself. So, 
let me also on a point of personal privilege, your father and I 
worked on the Sudan caucus and I know he founded that caucus 
and was just a great soul and we miss him.
    Mr. Payne. Thank you.
    Chairman McCaul. With that, I now recognize the gentleman 
from Mississippi, Mr. Palazzo.
    Mr. Palazzo. Thank you, Mr. Chairman and I would like to 
thank Ms. Lute for being here today. Thank you for your 
testimony and also thank you for the vital service that you 
provide and protecting our homeland from threats and your 
dedication and your military service is also commendable as one 
soldier to another. I was a former Marine, now a soldier to a 
soldier, okay. I had to put that in there, I might get in 
trouble. I have a gunnery sergeant in my office serving as the 
military fellow. But anyway, I digress.
    Listen, protecting our private and our public sector from 
cyber attacks is extremely important. But in the interest of 
time, I would also like to know, you know, what does Department 
of Homeland Security do to protect their own information? 
Because I am aware the Department uses the National Center for 
Critical Information Processing and Storage which is also known 
as NCCIPS, to house Nationally-sensitive critical or classified 
information, hundreds of millions of dollars have been invested 
in massive and redundant infrastructure and IT equipment to 
ensure uninterrupted service to multiple Federal agencies who 
share this facility.
    So given the amount of sensitive information the Department 
stores at the center, how secure is the center as well as DHS 
assets from potential cyber attacks?
    Ms. Lute. Thank you for that.
    We are the largest tenant. I think three-quarters of the 
data center is leased by us for secure data processing and 
storage. We adopt as we do in other aspects of homeland 
security, a layered approach, from perimeter fences, roving 
patrols, armed access gates, guards, CCTV, facility control 
systems, fully redundant power supplies.
    What we are trying to model in homeland security is best 
practice across the range of activities that we have said is 
necessary to secure dot-gov, from being aware on how to well 
manage our IT systems, understand who has access, et cetera. 
But it is a layered approach involving physical as well as 
cyber measures.
    Mr. Palazzo. As we focus on how we protect our information 
and prevent cyber attacks, should the Department and other 
Federal agencies use NCCIPS as a model for securing sensitive 
information?
    Ms. Lute. We think it represents an approach to best 
practice who, again, incorporates not only physical but 
cybersecurities as well.
    Mr. Palazzo. So it is a good model?
    Ms. Lute. It is a good model.
    Mr. Palazzo. For other agencies to adopt?
    Ms. Lute. Yes.
    Mr. Palazzo. It is secure?
    Ms. Lute. Yes.
    Mr. Palazzo. Safe?
    Ms. Lute. Yes.
    Mr. Palazzo. All right, now----
    Ms. Lute. Mississippi, I spent a year in Mississippi, so--
--
    Mr. Palazzo. Not in August, right?
    Ms. Lute. In August, it was hot.
    Mr. Palazzo. Bless your heart.
    It--real quick, to just change a little bit and I don't 
think anybody has really touched--I know China has come up a 
couple of times. You know, my experience with the Chinese 
hasn't, you know, really been pleasant from the sense that, you 
know, after Katrina, they flooded our markets with contaminated 
drywall, you know, constantly hearing about their products 
being dangerous to children, you know, coated in lead-based 
paint and so on.
    Then you look at--from a military standpoint, they are 
building up their military and to hear the report that came out 
2 weeks ago that there is blatant attacks by the Chinese 
government that is kind of attacking our systems. Can you 
elaborate just real quickly on the cyber threat posed by China 
and any plans this administration has in deterring China from 
continuing to steal U.S. intellectual property and other assets 
from the public and private sectors? What would be our red line 
that we say they cannot cross before we retaliate?
    Ms. Lute. Congressman, what I will say in this forum, and I 
am happy to pursue this in an appropriate forum other than 
here, is that we are concerned about the attacks that seem--
appear to be emanating from actors within China. We made this 
very clear. We have called on Chinese authorizes to recognize 
and address this, to investigate it, pursue it, and to work 
with us in establishing collaborative norms. We take this very 
seriously.
    Mr. Palazzo. Thank you.
    I yield back.
    Chairman McCaul. The Chairman now recognizes the--let's see 
here, hold on second, the--yes, the gentleman from Texas, Mr. 
O'Rourke.
    Mr. O'Rourke. Thank you. Thank you, Mr. Chairman.
    Secretary Lute, thank you for your testimony today and the 
quality of your answers to the questions asked so far.
    A lot of analogies have been made today to physical space 
and cyberspace, physical security and cybersecurity and one 
that I would like you to respond to is the analogy between 
border security and cybersecurity and one of the challenges we 
have had as a committee and a Congress is defining what border 
security is and we are spending $18 billion on it today, twice 
what we were spending in 2006. We have doubled the size of the 
Border Patrol. A lot of important future legislation hinges on 
our answer to it, and we are unable to define it.
    I can see perhaps as cybersecurity reaches a greater 
profile and there is more attention paid to and we understand 
the nature of the threat. There could be an overcorrection or 
an over response and I think to protect against that, we need 
to find measurable goals and milestones against those goals.
    Could you talk about how Department of Homeland Security 
has defined those so far or plans to in the future?
    Ms. Lute. So when we speak about and everybody is searching 
for the illusive analogy in the physical world to cyberspace. 
You know, is it--is it like a global commons, you know, is it 
like clean air or clean water? I think cyberspace is more like 
light than air and I think it presents challenges in that 
respect.
    What we want and what we have been promoting is an open, 
interoperable, reliable, and secure internet globally. 
Certainly that requires more than we can do in the Department 
of Homeland Security, more than we can do as a country, it 
requires all of us around the world. We have benefited 
enormously from this.
    Our job in homeland security is to secure dot-gov and to 
work with the private sector to secure the Nation's critical 
infrastructure. We are evolving standards of what that means, 
reducing the number of attacks and threats, repairing 
instantaneously vulnerabilities as they are automated or as 
they are detected on an automated basis. So this will be an 
evolving set of challenges and issues that we will be dealing 
with.
    Mr. O'Rourke. What are the protections to the taxpayer with 
these evolving goals and definitions? I mean we can spend $10 
billion, $100 billion, a trillion, $10 trillion, how do we know 
that we have spent enough, that our money is being used 
effectively, that we are meeting the goals that you and the 
oversight committee have agreed upon?
    Ms. Lute. Right. How do we know that what we are doing is 
working? If we have a removable media policy, is that enough? 
If we control access to our networks, is that enough? If we 
give everybody dual-key authentication responsibilities when 
engaging in networks, will that be enough? This is what we are 
crafting. We are doing it together with the private sector.
    Because while we have ideas of our own, we know that they 
do as well. We look forward to working with this committee, 
because we know that you have ideas. So that is very much on 
our minds. Because we are determined to address this problem.
    Mr. O'Rourke. So you are talking about the process which 
you will undertake to define those goals and measure success 
and effectiveness. Are those specific goals, perhaps specific 
to the threats and challenges that we face in these, the three 
domains that you mentioned? Are those goals that you will share 
with this committee?
    Ms. Lute. Yes, absolutely.
    Mr. O'Rourke. We will be able to measure progress against 
those goals. Measure the effectiveness of the dollar spent.
    Ms. Lute. That is the, again, we operate on a duty-to-share 
model, in terms of information and how we work in Homeland 
Security. Especially in cybersecurity. So we will.
    Mr. O'Rourke. One of the things that you mentioned that 
caught my attention is cyber space is civilian space. There 
have been a couple of questions to this, but how do you see 
your job in terms of managing that balance that you talked 
about, between civil rights as you talked about it, personal 
freedom, liberties, the things that make the internet such a 
driver of economic growth and creativity in our country and in 
the world, and balance that against these security concerns?
    Ms. Lute. So if I could be permitted an example? I was the 
lead negotiator for the United States with the European Union 
on a data-sharing agreement called Passenger Name Recognition, 
PNR, to ensure the safety of air travel. It took us 18 months 
to have this negotiation. At the center of it was our ability 
to enforce our laws at our borders and to ensure the 
operational safety of the traveling public. Equally at the 
center was the role, were issues of privacy and civil rights 
and civil liberties.
    We have been managing billions of files of data over the 
past 10 years in the Department of Homeland Security with 
respect to this traveling information. There has not been one 
privacy incident. So we think we can get it right. Again, I am 
an operator and this comes down to what it is we do.
    Mr. O'Rourke. That is impressive. Thank you. Thank you, Mr. 
Chairman.
    Chairman McCaul. The gentleman, the gentlelady from 
Indiana, Mrs. Brooks, is recognized.
    Mrs. Brooks. Thank you, Mr. Chairman and thank you deputy 
secretary for being here and for your service. In 2012, FEMA 
and DHS held a National-level exercise. I have been a deputy 
mayor in the city of Indianapolis in the late 1990s working 
closely with public safety. As a U.S. attorney have worked with 
Federal, State, and local on a number of exercises, 
particularly after 9/11. I value the importance of exercises. 
It was on the Nation's ability to prevent, respond, and recover 
from a significant cyber incident, as I understand it. We hear 
that obviously cyber incidents are becoming greater in number 
and in severity.
    My question is: What role does FEMA play, before, during 
and after, a significant or a catastrophic cyber incident? At 
what point might we expect that, if that after-action report is 
finished, and if it is not finished, when can we expect its 
release?
    Ms. Lute. I will have to get back to you on the release of 
the after-action report. In my background and tradition, those 
are extremely important exercises, the lessons learned. What 
you want to do successfully in any organization, and we 
particularly want to do in Homeland Security, is embed these 
lessons learned so that we can replicate our success and avoid 
repeating failure.
    Lessons learned are an important part of that. You know 
when I was a young Signal Officer in the Army, we use to do 
exercise all the time. The Signal Officer always had to keep 
everything running so that the infantry or armor, they could do 
exercises. But we had to have everything working perfectly. 
Well, what if it doesn't work perfectly? What are the 
consequences to our ability to operate? So how do you bake that 
in to our exercises and our understanding?
    FEMA of course plays a key role in leading Federal-level 
exercises, which State and locals are so much a part. So we are 
beginning to bake this into our thinking about exercise 
scenarios. But also, FEMA also, you know, in the Department of 
Homeland Security, is the Federal Response Agency. So what are 
the consequences, how do we understand, working with industry, 
the consequences of catastrophic failure and what that will 
mean for the public? How do we mitigate it, how do we restore 
services quickly? Address our responsibilities in that regard. 
So very much on our minds.
    Mrs. Brooks. Does DHS, does FEMA actually possess the legal 
resources and authority it needs, in the case of a catastrophic 
incident?
    Ms. Lute. Well FEMA certainly has the authorities that it 
needs to respond to an incident. What we know is that, a cyber 
incident could have consequences that matter for which FEMA is 
appropriately authorized to respond.
    Mrs. Brooks. Okay. Do you know how FEMA works with the 
private sector in, I am not certain, are you familiar with the 
exercise that they did in 2012?
    Ms. Lute. Yes, yes.
    Mrs. Brooks. How does FEMA work with the private sector in 
recovery?
    Ms. Lute. Well, well again, you know one of the things 
about Homeland Security is our partnership with the American 
people. FEMA is an example of where we live that every day in 
response to disasters. So it is a very close working 
relationship. Our dialogue at the State and local level with 
FEMA representatives on the ground, with community leaders, 
political officials as well, it is pretty interwoven.
    I think the central point for me on cyber and FEMA is that 
physical and cyber infrastructure are inextricably linked. 
There can be vulnerability to that infrastructure through 
cyber, to which we have to be attentive, broaden our minds and 
understandings of what could result, and mobilize the 
appropriate levels at the Federal level to respond. The 
appropriate resources at the Federal level to respond.
    I would be happy to get you, to discuss this in greater 
detail. We are working with FEMA on the lessons learned, as you 
mentioned. We know that there could be consequences that we 
have to be attentive to.
    Mrs. Brooks. So how does FEMA interact with the other DHS 
components during a cyber incident specifically?
    Ms. Lute. They are at the table, appropriately, again for 
what response they may have to mobilize. The actions that they 
may have to take. They are certainly in the room and part of 
the response. As we understand the consequences of an event 
that may give rise to physical effects that would engage FEMA's 
responsibilities.
    Mrs. Brooks. Thank you, I yield back.
    Chairman McCaul. Thank you. The Chairman now recognizes the 
gentleman from Nevada, Mr. Horsford.
    Mr. Horsford. Thank you, Mr. Chairman and thank you, Deputy 
Secretary. It is been very informative to have you here in the 
presentation. I do have a specific question on cybersecurity 
but before I do that, while I have such a high-ranking 
representative, I wanted to share something with you and see if 
you could help me with the response.
    I heard from one of our local veterans recently. His name 
is James Courtney. He served three tours in Iraq and he is 
disabled after 15 years of active duty in the United States 
Army. His wife and the mother of three U.S. citizens, all boys, 
does not have a green card. As I understand it, in 2003, Sharon 
was held by the Border Patrol for several hours and denied even 
a phone call to her family in El Paso. Without any explanation 
Sharon was told if she just signed a simple document, that she 
would be let go. She now stands accused of falsely claiming to 
be a U.S. citizen.
    What do we say to families like this? Who have been 
affected by what is a broken process? From what I have heard, 
it sounds like this family has been wronged. Do you agree? What 
is the Department doing to address issues like this one?
    Ms. Lute. Congressman I am not familiar with the incident 
that you are speaking about. I don't want to give you an off-
the-cuff answer. I would be happy to take the facts back as you 
represent them, and find out.
    Mr. Horsford. If you wouldn't mind doing that. I know that 
this did occur in the prior administration and it is, some time 
ago but there are details that I think are important for this 
committee and for me to be able to respond to.
    You know, Mr. Chairman, I think that as we address larger 
issues, other issues including immigration, it is these type of 
circumstances that I hope will be brought forward and I that we 
can also talk about.
    Let me switch to the issue of cybersecurity. I wanted to 
follow up to the Ranking Member's question dealing with the 
sequester. You know, we have all agreed here today that 
cybersecurity is very important and that we need to work in a 
bipartisan manner to pass legislation to help both the private 
sector as well as the public sector.
    But we have a sequester that is affecting our ability to do 
our job today. So I would like to understand what the impact of 
the sequester has been to your Department, specifically as it 
relates to cybersecurity.
    Ms. Lute. Thank you for that. Cybersecurity is not immune 
from the impact of sequester. Both our perimeter deployment 
Einstein E3A will be affected. Our ability to automate the 
continuous diagnostics and monitoring system will be affected 
as well. Our ability to reach out to stakeholders as well.
    It is particularly important because in cyber space, in the 
world of technology, the problems and the solutions that we are 
going to be dealing with 2 years from now, haven't been 
invented yet. So this is a place and an environment where speed 
takes on a whole new meaning.
    Mr. Horsford. As it pertains to the workforce because as we 
have heard from members in the private sector, this is a very 
specialized workforce, and as we develop information-sharing 
capacity, what is our ability to recruit and retain on the 
Department side, the skill set of the workforce that we need in 
this regard?
    Ms. Lute. Of course it is affected, as you know. But one of 
the things that we are doing is overhauling our whole approach 
to become a world-class home to a world-class cybersecurity 
workforce. By hiring, testing, and training to the highest 
standards of cybersecurity. These really are cyber ninjas. 
Those are the standards that we want to instill, train to, 
certify, and maintain. We want to attract folks. We want to 
open the pipeline with industry and with academia. We want to 
strategically manage this workforce across the Department, and 
indeed, across the Federal Government one day.
    We want to overhaul our acquisition and procurement, 
including our workforce, so that they are as skilled of the 
needs in the contracting environment for this. We want to 
create a cyber reserve. So we are not standing still on this 
question at all.
    Mr. Horsford. Just if I could ask if the Department could 
provide us the college initiatives, I guess, that you have 
done. If you could maybe share that information with those of 
us who want to make sure that the Department is doing 
everything it can to reach out to the next generation of 
graduates that we need.
    Thank you, Mr. Chairman.
    Chairman McCaul. Thank you. The gentlelady from New York, 
the Ranking Member of the Cybersecurity, Infrastructure 
Protection, amd Security Techonologies Subcommittee, Ms. Clarke 
is recognized.
    Ms. Clarke. Thank you, Mr. Chairman. Deputy Secretary Lute, 
I don't mind sharing you with Congressman Payne. I am the New 
Yorker here.
    Let me first of all thank you for your passion, your 
talent, your expertise that you brought to bear on the 
cybersecurity mission for the Department of Homeland Security. 
It is truly refreshing.
    I also want to extend a thank you to our Ranking Member, 
Mr. Thompson, for his leadership and partnership in penning the 
letter to Chairman McCaul and me regarding the legislative 
jurisdiction issues that threatens to undermine the DHS mission 
and marginalize the effectiveness of governance and oversight 
of this committee. I think it is really important that we not 
get into a bidding war, but we all play a very critical role in 
this new governance in this space.
    Mr. Chairman, last year our committee faced strict 
resistance to legislating a strong statutory role for the 
Department of Homeland Security's cybersecurity mission. Though 
you may have differences of opinion with Mr. Lungren's 
legislation, the precise act, I am sure you would agree, that 
the strong authorities for the Department of Homeland Security 
were commendable.
    Unfortunately, some colleagues last year were unwilling to 
consider giving DHS the statutory certainty that it sorely 
needs and prevented the legislation from reaching the floor.
    So I am glad that you are holding this hearing today to 
hopefully spotlight the good work, and you have been, that the 
Department is doing. Just last month, ICS-CERT was awarded the 
best security team award at the RSA by ``SC Magazine.'' I would 
like to insert that recognition into the record. I think that 
we need to--morale is important here.
    Chairman McCaul. I agree and without objection, so ordered.
    [The information follows:]
                     BEST SECURITY TEAM GOLD WINNER
    The Industrial Control Systems Cyber Emergency Response Team (ICS-
CERT) Security Team responds to incidents, vulnerabilities, and threats 
that can impact those industrial control systems (ICS) which operate 
critical infrastructure across the United States. These systems are 
vital for the processes used throughout many critical sectors that the 
Nation depends on every day.
    The ICS-CERT Security Team's mission is to reduce cybersecurity 
risks by offering four core products and services to the Nation's 
critical infrastructure sectors: Providing situational awareness to 
Government and the private sector through National alerts and 
advisories that warn of cyber threats and vulnerabilities; conducting 
technical analysis of malware, system vulnerabilities, and emerging 
exploits; performing cybersecurity incident response for asset owners 
and operators; and partnering with the control system community to 
coordinate risk management efforts and serve as the focal point for 
information exchange.
    The ICS-CERT Security Team has received National and international 
recognition as an essential element for coordinating cybersecurity risk 
reduction efforts among the Nation's critical infrastructure asset 
owners. Through its incident response, situational awareness, and 
recommended practices efforts, the team is recognized as a National 
resource for cybersecurity guidance.
    It is also a key functional element of the DHS National Cyber 
Security and Communications Integration Center (NCCIC) and is integral 
to the Department's capability to coordinate National-level cyber 
events. ICS-CERT Security Team presence in the NCCIC Operations Center 
provides synergistic information-sharing value to the various public 
and private-sector partners participants.
    http://awards.scmagazine.com/best-security-team-0

    Ms. Clarke. Thank you, sir.
    I firmly believe that DHS's role needs the clarity and 
authority of statute to most effectively do its mission. That 
is why last year I introduced the Identifying Cybersecurity 
Risks to Critical Infrastructure Act to get an important 
segment of DHS's authorities written into law.
    So Deputy Secretary Lute, can you talk about the importance 
of getting your Department's cybersecurity mission and 
authorities codified in statute? What aspects of DHS's 
cybersecurity mission do you think would be particularly 
impactful if we could fully authorize them?
    Let me repeat that for you--can you speak to the importance 
of getting your Department's cybersecurity mission and 
authorities codified? What aspects of DHS's cybersecurity 
mission do you think would be particularly impactful?
    Ms. Lute. I certainly agree with the importance of that and 
the Secretary absolutely agrees. We think it is important in 
this rapidly unfolding field to clarify the responsibilities 
that this Department will be given, particularly when it comes 
to securing dot-gov, in the area of information sharing as 
well.
    Ms. Clarke. With that, I yield back the balance of my time.
    Chairman McCaul. Well, I thank you for your questioning. 
Know that I am committed to getting this done, to getting 
existing authorities codified, and to making the Department as 
strong a player as they are in this very important field, 
working together with the other agencies. I think we have one 
last Member, the gentleman from California, Mr. Swalwell.
    Mr. Swalwell. My district is in Northern California and it 
includes northern Silicon Valley and it is really the cradle of 
innovation. We also have two National laboratories and, I 
believe, more Ph.D.s in our district than anywhere else in the 
country. Very smart, innovative folks in our district, and I am 
concerned that if we were to get hit hard in our district, we 
would fall hard.
    I am also concerned that if we sneezed from a cyber attack, 
the rest of the country could catch a cold because of the 
ripple effect of what it would mean to many of the industries 
in our district. We are talking all of Silicon Valley south and 
then, of course, the part of Silicon Valley that is in my 
district in the north.
    So I am concerned that right now the rest of the country 
also does not understand enough about what the real threat is 
here. I want to know what we can do to better educate. Because 
we are starting to hear more about the threat, but--and folks, 
I think, will accept that their computer may get hacked. 
Someone may send out an e-mail in their name that didn't come 
from them.
    But I don't know if we are prepared yet or we understand 
that we could go to the bank one day and our account balance 
could say zero. Or we could show up to work one day and our job 
is no longer there because the technology or something critical 
to the employer has been stolen by someone abroad.
    When I was a prosecutor for 7 years, I worked closely with 
telecommunication companies to prosecute a number of our 
homicide cases, to work with them on subpoena compliance as 
well as ways to make sure that it was a two-way street, that 
their cooperation would not mean they would be penalized for 
working with us.
    Now I know that we do have the National Cybersecurity and 
Communications Integration Center and my first question is what 
is the participation like, in that center, with private 
industry and what can we do, legislation-wise and as far as 
coordination efforts, to make sure that private industry is 
really working with us?
    Because I know from being a prosecutor that it has to be a 
two-way street and because 90 percent of the networks are not 
dot-gov or dot-mil, if we don't have their cooperation or 
participation, we can't truly protect against the threat.
    Ms. Lute. Well, thank you for the question and thank you 
for your part of the country. I took my Ph.D. from Stanford. I 
am a believer. I am a believer.
    It is an extraordinary National asset for us, the vibrancy 
and the contribution of that community, not only to this 
country but to the world. This instantaneous organic growth of 
the internet, in many ways can trace its lineage back to this 
part of the country. We certainly appreciate it.
    We also appreciate the role of collaboration in the private 
sector. I speak very often with the leadership of private 
industry out in the Valley. They are extraordinarily thoughtful 
on all of the questions that we have discussed today.
    On the NCCIC thought, to your specific question, we do have 
private industry representatives in some of the various sectors 
and we can talk to you in detail about that. For those members, 
Mr. Chairman, who have yet to come see us, we invite--that 
door--let me just reiterate your invitation and urging that 
they come and see us.
    We agree on the partnership. We agree on the two-way 
street. We agree on the need for collaboration. We are putting 
our money where our mouth is in terms of having them on the 
floor with us at an operational level and including dialogue 
with them at a policy level at my and the Secretary's--in our 
discussions with them as well.
    So across the board I agree with you.
    Mr. Swalwell. Great. Right now in this era of sequester, 
and we don't know how long this is going to last, but we do 
know that the threats are going up and the money to fight the 
threats are going down. How much does that concern you that 
your budget could continue to be on the chopping block and 
reduced as our country becomes more and more vulnerable to a 
cyber attack?
    Ms. Lute. Nothing is standing still. As I mentioned before, 
in cyber space, the problems and the opportunities that even 2 
years from now, perhaps even 1 year from now, that we will be 
dealing with have not been invented yet. So time is of the 
essence.
    Mr. Swalwell. Finally, as a prosecutor, it is frustrating 
to me that it seems like we spend most of our time defending 
against the threat, but it is very hard, and I understand from 
the cases I have had, it is very hard to go after somebody on 
the law enforcement side and prosecute an individual who is 
hacking against us, tracing where the individual is coming 
from, which oftentimes is across the world.
    Can we truly, really not just prevent the threat or prevent 
a cyber attack, can we truly go after an individual and 
prosecute them and hold them to account?
    Ms. Lute. I am a big fan of the rule of law and I am a big 
fan of the power of the law in this country. We are working 
very closely with the FBI to strengthen the hand of law 
enforcement. We have mentioned this is one of the things that 
we think cyber legislation would usefully add, which are tools 
to put them in the hands of law enforcement officers to 
successfully prosecute cyber criminals.
    Mr. Swalwell. Great. Thank you, Mr. Chairman.
    Chairman McCaul. Thank you. Let me say, Deputy Secretary 
Lute, let me thank you for your testimony. It is been very 
impressive and I think very productive towards our discussions 
in developing legislation, which as I state, is a high 
priority.
    Also, Chairman Meehan and I will be scheduling tours for 
our members to the NCCIC and we look forward to seeing you out 
there again.
    With that, I know the Members will have--they have 
additional questions. You need to--you should respond in 
writing. With that, the clerk will prepare the witness table 
for the second panel.
    Okay, with that, let me go ahead and introduce the next 
panel and thank you for your patience.
    First we have Mr. Anish Bhimani; he is the managing 
director and chief information risk officer, JPMorgan Chase and 
is chairman of the Financial Services Information Sharing and 
Analysis Center, also known as the FSISAC, industry-wide 
organization charged with facilitating information sharing 
among the various members of the financial services sector as 
well as Government agencies. He has served as chairman since 
2011 and on the board since 2009.
    Next we have Mr. Gary Hayes; he is the vice president and 
chief information officer at CenterPoint Energy. In this 
position he oversees the information technology infrastructure 
and systems for the company's electric and gas delivery 
services, some actually in my district. Mr. Hayes has decades 
of experience in the field of energy infrastructure protection.
    Thank you for being here today.
    Last we have Ms. Michelle Richardson; she is the 
legislative counsel with the American Civil Liberties Union 
where she focuses on National security and Government 
transparency issues. Before joining the ACLU, Ms. Richardson 
served as counsel to the House Judiciary Committee where she 
specialized in National security and civil rights.
    We look forward to hearing from all of you. Your full 
statements will appear in the record, and I would also like to 
note that Mr. Dean Garfield, CEO of the IT Industry Counsel was 
also scheduled to appear but had a scheduling conflict. I ask 
unanimous consent that his statement be entered into the 
record.
    Without objection, so ordered.
    [The information follows:]
                 Prepared Statement of Dean C. Garfield
                             March 13, 2013
    Chairman McCaul, Ranking Member Thompson, and Members of the 
committee, thank you for the opportunity to testify today. I am Dean 
Garfield, president and CEO of the Information Technology Industry 
Council (ITI), and am pleased to testify before the House Committee on 
Homeland Security on the important topic of cybersecurity. ITI 
represents global leaders in innovation, from all corners of the 
information and communications technology sector, including hardware, 
software, and services.
    You have asked ITI to speak on the topic of cyber threat 
information sharing. Within that context, I would like to focus my 
testimony today on three areas: (1) The opportunity facing the United 
States to establish a cybersecurity policy framework that is a model 
for the rest of the world; (2) the critical role of bidirectional 
industry-Government information sharing in a robust cybersecurity 
policy framework; and (3) key considerations regarding how U.S. 
civilian agencies can effectively contribute to effective information 
sharing.
       our opportunity: the right cybersecurity policy framework
    I want to begin by stating a fact I think all of us agree on: We 
all are committed to protecting the Nation from cyber threats. The tech 
sector, other industries and stakeholders, Federal and State 
governments--we share a common responsibility to work collaboratively 
to provide effective, forward-thinking strategies and solutions that 
safeguard the American people and the networks and systems upon which 
we all rely. For us in the tech sector, this responsibility is part of 
our ethos. It is built into every one of our products and services.
    During the past few years, both Congress and the administration, 
working with numerous private-sector stakeholders, have sought to 
create policies to improve America's cybersecurity posture, 
particularly critical infrastructure (CI) cybersecurity. We commend the 
efforts our policymakers have devoted to the unique challenge of better 
protecting America's citizens, critical assets, and infrastructures 
from ever-evolving cyber threats.
    ITI and our member companies have been deeply involved in the 
policymaking process. Our views are based on a comprehensive set of 
cybersecurity principles for industry and Government we developed to 
better inform the public cybersecurity discussion.\1\ ITI's six 
principles aim to provide a useful and important lens through which any 
efforts to improve cybersecurity should be viewed. To be effective, 
efforts to enhance cybersecurity should:
---------------------------------------------------------------------------
    \1\ http://www.itic.org/dotAsset/191e377f-b458-4e3d-aced-
e856a9b3aebe.pdf.
---------------------------------------------------------------------------
    (1) Leverage public-private partnerships and build upon existing 
        initiatives and resource commitments;
    (2) Reflect the borderless, interconnected, and global nature of 
        today's cyber environment;
    (3) Be able to adapt rapidly to emerging threats, technologies, and 
        business models;
    (4) Be based on effective risk management;
    (5) Focus on raising public awareness; and
    (6) More directly focus on bad actors and their threats.
    We were pleased the cybersecurity bills passed by the House last 
year--on cybersecurity R&D, cybercrime, education and awareness, 
information sharing, and others--embodied these principles. We 
understand many of the ideas Members of Congress are contemplating this 
year will enable these approaches. We are also appreciative that the 
President's recent Executive Order adopts these same principles. 
Overall, the United States appears to be embracing a cyber environment 
that encourages efficiency, innovation, and economic prosperity while 
promoting security, business and individual privacy, and civil 
liberties.
    The United States is, however, not the only country grappling with 
how to develop the right cybersecurity framework. Governments around 
the world are also wrestling with important questions of how to protect 
their citizens and businesses in the face of ever-evolving cyber 
threats. Unfortunately, the approaches some other governments are 
taking do not always put innovation and collaboration first. Some 
governments are enacting inflexible, heavy-handed cybersecurity-related 
laws and policies that are rooted in top-down regulation and technology 
mandates. Most worryingly, these mandates are country-specific and thus 
at odds with global best practices. Such approaches rarely provide 
better security and in many cases may weaken security and disrupt 
global commerce and innovation.
    Thus, the U.S. approach is important for an additional reason. We 
can and must set a good example for the rest of the world about the 
right way to approach cybersecurity policy. And as we execute on our 
approach, it will be important that we in both Government and industry 
collaborate with our peers around the world to tackle our shared 
challenge. Cyberspace is a global and interconnected domain that spans 
geographic borders and National jurisdictions. Top-down approaches 
being pursued in other nations undermine the greater global 
collaboration that is needed to respond to threats. The U.S. Government 
must proactively seek dialogues with our trading partners about how to 
achieve the requisite levels of security needed to meet National 
security concerns while preserving interoperability, openness, and 
economic development.
   the role of bi-directional industry-government information sharing
    Mr. Chairman, Mr. Ranking Member, effective sharing of actionable 
information among and between the public and private sectors on cyber 
threats, and incidents is an essential component of improving 
cybersecurity. To be as nimble and flexible as many cyber intruders 
are, we need an improved information-sharing system that operates in 
real time, ensures protection of personal data, and is bi-directional--
from the private sector to Government, and from Government to the 
private sector. Of course, effective information sharing itself is not 
the goal. What matters is the action relevant stakeholders take with 
that shared information to manage and mitigate cyber risk. But we know 
from experience that, once effectively informed of the specific threats 
they face, organizations take appropriate and reasonable measures to 
mitigate them.
    Although many public and private-sector entities participate in 
information-sharing activities, there is broad agreement that gaps 
exist. ITI has worked closely with policymakers over the past few 
years, providing ideas and possible solutions for what types of 
improvements could and should be made. Overall, our recommendations 
fall into four general areas.
    First, we should improve upon existing information-sharing 
organizations rather than create new structures. We need to better 
leverage our current organizations and evolve them into more effective 
partnerships for true sharing. Dozens of organizations and structures 
play important roles facilitating cybersecurity information sharing 
among private entities and between the private and public sectors. Some 
key examples include the Information Sharing and Analysis Centers 
(ISACs), the U.S. Computer Emergency Readiness Team (US-CERT), and the 
National Cybersecurity and Communications Integration Center (NCCIC). 
These and other organizations represent nearly all sectors of the 
economy as well as Federal, State, and local governments.
    Second, we must improve the flow of actionable information from 
Government to industry. Government has unique insight into certain 
types of threats or hazards. When provided with this insight, the 
private sector's ability to assess risks, make prudent security 
investments, and develop appropriate resiliency strategies is greatly 
enhanced. The Executive Order intends to improve the Government's 
sharing of actionable information with the private sector on specific, 
targeted cyber threats and technical indicators that flag risks 
generally. We hope these changes are executed quickly, but we also 
believe that more needs to be done legislatively to build on the 
Executive Order.
    Third, we must address liability concerns that impede information 
flows. Private entities holding information about cybersecurity risks 
often decline to voluntarily disclose it, or delay disclosure, for fear 
of lawsuits or regulatory actions. There is a need for limited safe 
harbors in these cases, and this is a key role for Congress. We look 
forward to also working with you to pass legislation in this regard.
    Finally, privacy must be protected while information sharing is 
increased. We believe effective cybersecurity should strengthen 
personal privacy. For that reason, a policy framework must ensure that 
information that companies might share with the Government and each 
other for cybersecurity purposes should only be used for those 
purposes. This will protect civil liberties and at the same time give 
companies confidence that what they share will not be used for 
unrelated, unintended purposes.
          the way forward: the role of u.s. civilian agencies
    As we work to improve Government-industry information sharing, ITI 
understands policymakers are thinking about how the U.S. Government can 
better coordinate and execute its roles and responsibilities vis-a-vis 
the private sector in this area. Civilian agency leadership in this 
regard is critically important. ITI believes that whatever agency has 
principal responsibility for cybersecurity information sharing 
coordination should follow three key tenets. First, the lead agency 
needs to build on existing Government resources so as not to create new 
redundancies and confusion. Second, those tasked with this job must 
have the technical proficiencies to be able to provide rapid, real-
time, situational awareness. Finally, the lead agency must ensure 
Government-wide respect for the legitimate data security, privacy, and 
civil liberties concerns I alluded to earlier.
                               conclusion
    Mr. Chairman, Mr. Ranking Member, ITI and our member companies are 
pleased you are continuing to consider how we can improve information 
sharing for the purposes of cybersecurity. We stand ready to provide 
you any additional input and assistance. In addition to this testimony, 
we are submitting for the record two ITI papers that provide more 
detailed recommendations on how information sharing can be improved.\2\ 
Thank you.
---------------------------------------------------------------------------
    \2\ ITI Recommendation: Steps to Facilitate More Effective 
Information Sharing to Improve Cybersecurity (October 2011), and ITI 
Recommendation: Addressing Liability Concerns Impeding More Effective 
Cybersecurity Information Sharing (January 2012).

    The Chairman now recognizes Mr. Bhimani for 5 minutes for 
his opening statement.

  STATEMENT OF ANISH B. BHIMANI, CHAIRMAN, FINANCIAL SERVICES 
            INFORMATION SHARING AND ANALYSIS CENTER

    Mr. Bhimani. Thank you, Mr. Chairman.
    Chairman McCaul, Ranking Member Thompson, Members of the 
committee, my name is Anish Bhimani and I am appearing today as 
the chairman of the Financial Services Information Sharing and 
Analysis Center, FSISAC.
    The FSISAC was established in 1999 in response to 
Presidential Decision Directive 63. It is a nonprofit 
organization funded entirely by its member firms and sponsors. 
Its membership is comprised of over 4,400 financial and banking 
institutions, large and small, and it serves as a primary 
industry forum for collaboration on the critical cybersecurity 
threats facing the financial sector.
    Despite the competitive nature of our industry, members of 
the FSISAC recognize that the threat from cyber attacks affects 
all of us. That defending the Nation's critical infrastructure 
is not a competitive issue.
    To effectively combat this threat, we must come together as 
a sector and leverage the full capabilities of our collective 
membership. Above all, the key to the success of the FSISAC is 
trust amongst its members. Trust is not something that can be 
mandated nor easily earned.
    Indeed, over the past 14 years, FSISAC members have worked 
tirelessly to engender trust amongst each other and promote the 
flow of threat information across the sector. These efforts 
have paid off significantly.
    In January of this year, members of the FSISAC shared over 
92,000 pieces of threat intelligence and approximately 400 
events across the sector.
    Equally critical is a strong partnership and close 
collaboration with Government agencies. One example of this 
partnership is the successful effort to obtain over 250 secret-
level clearances and several top-secret SCI clearances for key 
financial services personnel. These clearances have enabled 
FSISAC members to receive briefings on new security threats and 
implement defenses to combat these threats.
    We would like to see this process updated and expanded to 
provide more clearances to the private sector and make it 
easier for this information to be shared more broadly and 
quickly with our members.
    Another good example of partnership is the work of the 
National Cybersecurity and Communications Integration Center, 
NCCIC at DHS, of what we heard said earlier.
    Since June 2011, FSISAC representatives cleared at the top-
secret SCI level have attended NCCIC daily briefs and other 
meetings to share information on threats and potential impacts 
to the sector. Our presence on the NCCIC floor has greatly 
enhanced the sector's awareness of and ability to respond to 
continuously evolving threats against the industry.
    In 2011, a pilot program known as the Government 
Information Sharing Framework, or GISF, was launched with the 
Defense Department. Under the program, an initial 16 financial 
services firms were granted access to advanced analysis on 
cyber threats. The GISF provided an invaluable service of the 
sector, enabling participants to receive actionable and timely 
information that allow them to search for similar activity in 
their own environments. Unfortunately, the Department of 
Defense terminated the pilot program in December 2011 due to 
funding limitations.
    The FSISAC strongly supports not only restarting the GISF 
program or a program like it, but also expanding its reach 
across the entire financial services sector.
    In addition to our DHS partnerships, we also benefit 
tremendously from having a strong sector-specific agency, 
specifically, the Treasury's Office of Critical Infrastructure 
Protection plays an invaluable role to the sector serving as a 
conduit between our members and the various agencies that play 
a role in critical infrastructure protection. We believe that 
given its knowledge of the industry, as well as its 
relationship with various agencies, Treasury is uniquely 
qualified to serve in that role.
    Finally, I would like to point out that it is impossible to 
discuss information sharing without also considering what 
specific information we need to share in order to most 
effectively protect our infrastructure.
    Although much of the current debate around information 
sharing has focused on the very important goal of protecting 
privacy, we believe that much could be accomplished without 
ever sharing any personal information. The most valuable 
information we could gain, such as technical details of cyber 
attacks, analysis of incident attack patterns, techniques and 
trends and contextual information about threat actor groups and 
campaigns tends to be extremely technical in nature and doesn't 
necessarily need to include any personal information nor reveal 
the organization affected.
    Whatever information we receive, the most important thing 
is that it be actionable and timely. Cyber threats are coming 
out as faster than ever before and are growing increasingly 
complex. As a result, receiving stale and outdated information 
is of very little value. In fact, it is a drain on resources 
and a waste of valuable time.
    We are strong advocates of a framework where our respective 
agencies and companies can deliver relevant information very 
quickly at network speed with information flowing in both 
directions.
    In closing, please accept my thanks on behalf of the FSISAC 
for the opportunity to address the committee on this critical 
issue. The ability to share information across the sector as 
well as our partners in Government and law enforcement, while 
still protecting privacy and civil liberties is core to our 
industry and our Nation's response of the growing threat.
    I look forward to any questions the committee may have.
    [The prepared statement of Mr. Bhimani follows:]
                 Prepared Statement of Anish B. Bhimani
                             March 13, 2013
    Chairman McCaul, Ranking Member Thompson, and Members of the 
committee, my name is Anish Bhimani, and I am the chief information 
risk officer of JPMorgan Chase & Co. I am appearing today as the chair 
of the Financial Services Information Sharing and Analysis Center (FS-
ISAC). I thank you for the opportunity to address the committee on the 
important topic of roles and responsibilities of the Government and 
private sector in the critical area of cybersecurity.
    I would like to address a few points today: First, an overview of 
the FS-ISAC, its charter, purpose, and membership; lessons learned with 
regard to information sharing; perspectives on the FS-ISAC membership's 
interaction with Government agencies; and finally, recommendations 
around information sharing and cybersecurity governance.
                           fs-isac background
    The FS-ISAC was established in 1999 in response to Presidential 
Decision Directive 63. This directive, later updated by Homeland 
Security Presidential Directive 7, required public and private-sector 
organizations to share information about cyber threats and 
vulnerabilities, with the goal of helping protect the Nation's critical 
infrastructure. The FS-ISAC is a nonprofit organization funded entirely 
by its member firms and sponsors. Its membership is comprised of 
thousands of financial and banking institutions, large and small, and 
its mission is straightforward--to provide the primary industry forum 
for collaboration on the critical cybersecurity threats facing the 
financial services sector. From 12 founding members at its inception, 
the FS-ISAC has grown to over 4,400 organizations, including commercial 
banks and credit unions of all sizes, brokerage firms, insurance 
companies, exchanges and clearing houses, payments processors, and over 
30 trade associations, representing the majority of the U.S. financial 
services sector.
    The overall objective of the FS-ISAC is to provide the financial 
services sector with the information it needs to defend against cyber 
threats and risk. It acts as a trusted third party that allows members 
to share threat, vulnerability, and incident information in a timely, 
trusted, and, if desired, anonymous manner. FS-ISAC information-sharing 
services and activities include:
  <bullet> Delivery of timely, relevant, and actionable alerts from 
        various sources distributed through the FS-ISAC Security 
        Operations Center (SOC);
  <bullet> Trusted mechanisms to facilitate member sharing of threat, 
        vulnerability, and incident information, in either an 
        attributed or non-attributed manner;
  <bullet> Sector-specific groups and subcommittees that provide forums 
        for members in a given part of the sector, e.g., the Payment 
        Processors Information Sharing Council (PPISC), Insurance Risk 
        Council, Payments Risk Council, Community Institutions Council, 
        and the Clearing House and Exchange Forum (CHEF);
  <bullet> Bi-weekly threat information sharing calls for members and 
        invited security/risk experts to discuss the latest threats, 
        vulnerabilities, and incidents affecting the sector;
  <bullet> Engagement with private-security companies to identify 
        threat information of relevance to the membership and the 
        sector;
  <bullet> Development of risk mitigation best practices, threat 
        viewpoints and toolkits, as well as member-driven research 
        regarding best practices at member organizations;
  <bullet> Subject Matter Expert committees, including the Threat 
        Intelligence and Business Resilience Committees, which provide 
        in-depth analysis of risks to the sector, and provide 
        technical, business, and operational impact assessments, as 
        well as strategies to mitigate risk; and
  <bullet> Participation in sector, cross-sector, and National 
        exercises and drills, such as the Cyber Attacks Against Payment 
        Processes (CAPP), National Level Exercise 2012, and the Cyber 
        Storm series.
    Despite the competitive nature of our industry, members of the FS-
ISAC recognize that the threat from cyber attacks affects all of us, 
and that defending the Nation's critical infrastructure is not a 
competitive issue. We all recognize that to effectively combat this 
threat, we must come together as a sector and leverage the full 
capabilities of our collective membership. We also know that we must 
trust one another. Trust, simply put, is the key to the success of the 
FS-ISAC, and any information-sharing model.
    Trust is not something that can be mandated, nor easily earned. 
Indeed, over the past 14 years, FS-ISAC members have worked tirelessly 
to engender trust amongst each other and are using all of the 
capabilities listed above to promote the flow of threat information 
across the sector. As an example, the FS-ISAC has built a model for 
sharing information in an authenticated, but anonymous, manner for 
those organizations that wish to take advantage of it. In addition, we 
have instituted a ``traffic light'' protocol, indicating levels of 
information sensitivity and how information may be disseminated to the 
membership, partners, and other organizations. These mechanisms have 
effectively and efficiently enabled the amount of information shared 
among FS-ISAC members to grow from a mere trickle a few years ago, to a 
veritable (but manageable) flood today. In January 2013, members shared 
over 92,000 pieces of threat intelligence and approximately 400 events 
across the sector.
                      u.s. government interaction
    Equally critical as industry collaboration is our partnership with 
Government agencies. We could not protect ourselves against cyber 
attacks without extremely close collaboration, partnership, and most 
importantly, information sharing, with a number of Government 
agencies--most notably, the U.S. Department of Treasury and the 
Department of Homeland Security, but also the Federal Reserve, Office 
of the Comptroller of the Currency, United States Secret Service, U.S. 
Cyber Command, Federal Bureau of Investigation, National Security 
Agency, Central Intelligence Agency, and State and local governments. 
Additionally, the FS-ISAC is a member of, and partner to, the Financial 
Services Sector Coordinating Council (FSSCC) for Homeland Security and 
Critical Infrastructure Protection, established under HSPD7, and works 
extremely closely with the Financial and Banking Information 
Infrastructure Committee (FBIIC), under the auspices of the President's 
Working Group on Financial Markets. These organizations and 
relationships are part of the financial sector's long history of 
public-private partnership with various Government agencies in the area 
of cybersecurity.
    One example of this partnership is the successful effort by the 
Department of Treasury, Homeland Security, FBI, U.S. Secret Service, 
and other partners to obtain over 250 secret-level clearances and 
several TS/SCI clearances for key financial services sector personnel. 
These clearances have enabled FS-ISAC members to receive briefings on 
new security threats and have provided useful information to the sector 
to implement effective controls and defenses to combat these threats. 
We know that this process is not always easy, and that sponsoring 
private-sector clearances has, historically, been difficult. But in our 
view, given how much cyber information is classified, it is absolutely 
essential that private-sector representatives have access to this 
information. The FS-ISAC would like to see this process updated and 
expanded to provide more clearances to the private sector, and make it 
easier for this information to be shared more broadly and quickly with 
our members.
    Another good example of partnership is the work of the National 
Cybersecurity & Communications Integration Center (NCCIC) at DHS. In 
June 2011, the FS-ISAC became the fourth private-sector organization to 
place staff on the floor at the NCCIC. Specifically, FS-ISAC 
representatives, cleared at the Top Secret/SCI level, attend NCCIC 
daily briefs and other meetings to share information on threats, 
vulnerabilities, incidents, and potential impacts to the sector. These 
individuals interact on a daily basis with the NCCIC, routinely submit 
and respond to requests for information, collaborate on analyses and 
work with the NCCIC staff to determine what information from the NCCIC 
would be of use to our members, and what can be shared with whom. Over 
the past 18 months in particular, our presence on the NCCIC floor has 
greatly enhanced situational awareness and information sharing between 
the sector and the Government, as well as across other critical 
infrastructure sectors that participate on the floor. More recently, 
the FS-ISAC has embedded a full-time staff person on the NCCIC floor in 
addition to the part-time resources that were deployed last year.
    One of the high points in the public-private partnership with the 
sector occurred in 2011 when a pilot program, known as the Government 
Information Sharing Framework (GISF) was launched with the Defense 
Department. Under the program, an initial 16 financial services firms 
(with a plan to expand participation later) were granted access to 
advanced threat information, as well as to classified analysis on 
threat actors and mitigation techniques. The GISF provided an 
invaluable service to the sector, enabling the pilot participants to 
receive actionable, timely, and contextual information that allowed 
them to search for similar threat activity in their own environments. 
It also allowed private-sector participants to adjust their assessments 
of cyber espionage threats using intelligence that had previously been 
unavailable. The program jump-started new efforts across the industry 
and helped reshape the sector's approach to assessing cyber espionage 
risks.
    Unfortunately, the Department of Defense terminated the pilot 
program in December 2011 due to funding limitations. The GISF was a 
significant leap forward in the public-private partnership, and 
represented a critical line of defense in mitigating the growing cyber 
threat. The loss of that information feed has already been felt, as 
numerous financial institutions have experienced activity from actors 
first identified through GISF reporting and intelligence. The FS-ISAC 
strongly supports not only restarting the GISF program, but also 
expanding its reach across the financial services sector. We urge 
Congress and the Department of Defense to resolve any outstanding 
funding or authorization issues and reinstate this crucial program.
    As you can see, the financial services sector, and the FS-ISAC in 
particular, work in collaboration with a wide range of Government 
agencies--probably more than anyone would imagine. At the same time, we 
benefit from having a strong sector-specific agency--the Treasury 
Department--that allows us to navigate the various Government agencies 
involved in cybersecurity.
    Specifically, the Treasury's Office of Critical Infrastructure 
Protection plays an invaluable role to the sector, serving as a conduit 
between our members and the various Government agencies that play a 
role in critical infrastructure protection. We believe that, given its 
knowledge of the financial services industry, as well as its 
relationship with various intelligence agencies, Treasury is uniquely 
qualified to serve in that role. Regardless of which organization is 
involved, however, the key is that we receive timely, actionable data 
from the appropriate source, whoever that is, so that we can take the 
appropriate action.
            creating a useful information sharing framework
    There are two critical elements to creating a useful information-
sharing framework: Determining what information should be shared, and 
developing robust processes for sharing timely information.
    In thinking through this problem, it is impossible to construct an 
effective information-sharing framework without also considering what 
specific information we need to share to most effectively protect our 
infrastructure. Although much of the current debate around information 
sharing has focused on the important goal of protecting personal 
information, we believe that much could be accomplished without ever 
sharing personally identifiable information. With that in mind, here 
are a few examples of information we at FS-ISAC believe would be most 
helpful to share:
  <bullet> Technical details of cyber attacks as seen on networks, in 
        IT systems, or by victims, including IP addresses of attackers 
        and their networks;
  <bullet> Analytic content of incidents, attack patterns, and trends 
        without revealing the organization affected;
  <bullet> Analysis of technical details to determine the techniques, 
        tools, and procedures that adversaries are using to target 
        victim organizations;
  <bullet> Contextual information about threat actor groups and 
        campaigns;
  <bullet> Information about the motivation, objectives, and 
        capabilities of these groups or campaigns.
    In addition to those most critical data elements we think must be 
shared, we also believe that critical infrastructure owners and 
operators would benefit from having a much stronger framework around 
how we share.
    The cybersecurity threats the financial industry faces are coming 
at us faster than ever before, and are growing increasingly complex. As 
a result, receiving stale and outdated information is of very little 
value in protecting our infrastructure--in fact, it is a drain on 
resources, and a waste of valuable time. We are strong advocates of a 
framework where our respective agencies and companies can deliver 
relevant information very quickly, at network speed, with that 
information flowing in both directions.
    Why is that important? Today, we in the private sector face attacks 
that were once directed only against major Government institutions. 
Government agencies may have established strategies and tactics to deal 
with those attacks that would be valuable to those us facing similar 
threats. Likewise, the financial sector has collectively established 
strategies and tactics that may be of use to Government agencies. 
Sharing these strategies and tools to deal with advanced threats 
comprehensively and quickly would do a great deal to help us all fight 
advanced attackers.
                               conclusion
    In closing, please accept my thanks on behalf of the FS-ISAC for 
the opportunity to address the committee on this critical issue. The 
risks associated with cyber attacks and threats are real, and of 
paramount importance to the financial industry as a whole. The ability 
to share information across the sector, as well as with our partners in 
Government and law enforcement, while still protecting privacy and 
civil liberties, is core to our industry and our Nation's response to 
the growing threat.
    I look forward to any questions the committee may have.

    Chairman McCaul. Thank you, Mr. Bhimani.
    The Chairman now recognizes Mr. Hayes for his testimony.

    STATEMENT OF GARY W. HAYES, CHIEF INFORMATION OFFICER, 
                       CENTERPOINT ENERGY

    Mr. Hayes. Thank you Chairman McCaul, Ranking Member 
Thompson, and Members of the committee. My name is Gary Hayes, 
I am the chief information officer for CenterPoint Energy and 
thank you for inviting me to testify and share my experiences 
and perspectives on cybersecurity and our Nation's critical 
infrastructure.
    A few quick points about CenterPoint Energy, we are 
headquartered in Houston, Texas. We have electric transmission 
and distribution, natural gas distribution and interstate 
pipeline. We serve over 5 million metered customers, primarily 
in Arkansas, Louisiana, Minnesota, Mississippi, Oklahoma, and 
Texas.
    In other words, we are the owner/operators of multiple 
critical infrastructure systems. We take cybersecurity 
seriously.
    As identified in our enterprise risk management program is 
one of the highest corporate risk. We have been in the cyber 
business for well over 10 years. The issue is the game has 
changed. The volume, voracity, and variety presented by 
extremely sophisticated and organized bad actors whose intent 
is to steal information or impact operations continues to 
exponentially evolve.
    The question is: How do we work together to meet these 
dynamic and ever-changing and evolving threats?
    I strive to keep my team focused by reminding them we need 
excellent solutions quickly not perfect solutions eventually. 
We have to keep that same thought in mind.
    Some key takeaways that I would like for us to talk about. 
First, we need shared goals and collaboration. Excellent 
solutions for collaboration, information sharing, and 
technology sharing. It is very clear we need each other in this 
cyber war, situational awareness, information, tools, and 
techniques to be proactive and not reactive.
    We must have a peer-to-peer partnership built on those 
shared goals, objectives, and trust to achieve these results.
    The good news is there are some examples of this today. Our 
industry's collective cybersecurity work with the DHS, DOE, 
TSA, and NIAC provides a foundation but we need more.
    Second, we need a pragmatic cyber framework. A framework 
must be based on the principles of risk and agility, a 
framework that provides value. It must provide learning, 
strategies, objectives, techniques, and tools that can be 
aligned with that risk.
    Another challenge is there is energy providers from 
hundreds of customers to millions of customers. So our solution 
has to be scalable. A one-size-fits-all will be ineffective and 
costly.
    Finally, we must have incident readiness. The reality is 
advanced persistent threat actors are not going away and the 
risk of cyber incidents remain. Increased situational awareness 
coupled with joint response and recovery plans have to be 
incorporated into everyone's current operating procedures.
    As I mentioned before, the effort in the electric sector 
with NIAC is an excellent example of an emerging Government and 
industry effort to address resiliency and incident response.
    In closing, I grew up in Oklahoma right in the heart of 
Tornado Alley. Any time a large thunderstorm rolled across the 
plains, my mom had us in the cellar. My dad stood at the top of 
the stairs looking at the sky trying to see if a funnel cloud 
was forming. Sometimes we were there for hours.
    Now flash forward a few decades, today we have tremendous 
situational awareness, meteorology based on advances in 
technology tell us when the funnel is forming. How strong is 
the tornado? What is the path and the time that it is going to 
reach our location? Couple this with education of the public, 
improvements and construction techniques and emergency response 
plans and we dramatically changed tornado safety.
    Looking back, I realize my parents were being responsive to 
the best information they had. The risk of not acting was too 
great.
    Today, I feel I am standing at the top of the cellar stairs 
looking to the skies and watching for that cyber tornado. We 
have protection in place but constant vigilance is our mission 
in this cyber storm. In summary, we must join in shared goals, 
peer-to-peer collaboration to be proactive and to be prepared.
    Chairman McCaul, Ranking Member Thompson, and Members of 
the committee, we appreciate the opportunity to share our 
perspectives and stand ready to assist you in your efforts as 
you move forward to protect our critical infrastructure.
    [The prepared statement of Mr. Hayes follows:]
                  Prepared Statement of Gary W. Hayes
                             March 13, 2013
                                overview
    Chairman McCaul, Ranking Member Thompson, and Members of the 
committee, my name is Gary Hayes and I am the chief information officer 
for CenterPoint Energy. Thank you for inviting me to testify on my 
experiences and perspectives on protecting critical infrastructure from 
cyber attacks.
    CenterPoint Energy, Inc. (``CenterPoint Energy''), headquartered in 
Houston, Texas, is a domestic energy delivery company that includes 
electric transmission and distribution, natural gas local distribution, 
natural gas gathering and processing, interstate pipelines, and 
competitive natural gas sales and services. It has assets totaling more 
than $21 billion. Our company has approximately 8,800 employees and 
serves more than 5 million metered customers primarily in Arkansas, 
Louisiana, Minnesota, Mississippi, Oklahoma, and Texas.
    As the CIO of CenterPoint Energy I am accountable for our 
cybersecurity programs and have direct responsibility for our corporate 
business systems' cybersecurity. Because of the diverse segments of the 
energy infrastructure in which CenterPoint Energy's companies 
participate, I coordinate, collaborate, and communicate with our 
operational technology functions to define policies, procedures, 
practices and programs in our efforts to provide cybersecurity. I have 
a highly dedicated, educated, and capable team executing 
responsibilities in this effort.
    I also have the responsibility to represent and coordinate 
representation of our company in industry and Government efforts 
focused on cybersecurity.
    We focus heavily on participation in relevant industry groups. I 
participate on the American Gas Association (``AGA'') and Edison 
Electric Institute (``EEI'') Cyber Task Groups and I coordinate with 
David Jewell, senior vice president, Commercial Operations, 
Optimization and Gas System, who represents CenterPoint Energy on the 
Cyber Task Group for the Interstate Natural Gas Association of America 
(``INGAA''). We also participate in numerous governmental, private, and 
industry-related efforts focused on cybersecurity.
    Our cybersecurity technologies operate across three areas: 
Interstate pipelines, local gas distribution utilities, and an electric 
utility. For cybersecurity purposes, our interstate natural gas 
transmission pipelines are under the jurisdiction of the Transportation 
Security Administration (``TSA''). Our local gas distribution companies 
operate under the same jurisdiction but, for cybersecurity purposes, 
have no single regulator because some of the Federal authority has been 
delegated to the States. And, finally, CenterPoint Energy's electric 
utility in the Houston, operates under the jurisdiction of the Federal 
Energy Regulatory Commission (``FERC'') for compliance with North 
American Electric Corporation reliability standards. We also work 
voluntarily with a multitude of other groups including the Federal 
Bureau of Investigation, Industrial Controls Systems Cyber Emergency 
Response Team (ICS-CERT) and the Department of Energy (DOE) and, of 
course, Department of Homeland Security (DHS).
    My goal today is to share CenterPoint Energy's perspective with 
regards to cybersecurity challenges, activities, and opportunities. 
That perspective is this: Cyber threats are evolving and require 
collaboration, information sharing with the Government, and continued 
collaboration with the industry to effectively protect the Nation's 
critical infrastructure. Our goal is to focus our resources on facing 
the cyber threat.
    This perspective is shaped by our experiences and participation in 
industry groups as well as our collaboration with several Governmental 
agencies including the DOE, DHS, and the TSA. Furthermore, our 
relationship with members of our supply chain, our suppliers and 
vendors, is critical. From these experiences, we have determined that 
we need the ability to respond in a quick and agile manner, as well as 
continuously improve our capabilities to respond. Collaboration is the 
key.
    As a critical energy transporter and distributor to the Nation, we 
know that we have responsibilities to the public, our customers, and 
our shareholders. We have prioritized our cybersecurity efforts in 
parallel with our corporate philosophy.
    (1) Public Safety
    (2) Energy Delivery
    (3) Customer Service
    I hope this document provides a helpful ``participant's view and 
perspective'' as we work together to protect our company and our 
Nation's critical infrastructure.
                cybersecurity efforts and collaboration
    CenterPoint Energy has a long history of safe and reliable energy 
delivery to our customers. Our team members take pride in getting up 
every morning with this mission top of mind. To this point, we take 
protection of the public, our control systems, customer and employee 
information, critical infrastructure information, and intellectual 
property very seriously. Cybersecurity has been incorporated into our 
processes, procedures, and operations through various mechanisms over 
time. But, we do recognize that the current cyber environment has 
escalated beyond historical expectations and our efforts must and will 
continue to evolve in order to meet these dynamic and ever-evolving 
threats.
    We have evolved from a strategy of ``perimeter defense'' (e.g., 
keep the bad actors out) to a strategy of ``depth-in-defense'' 
(recognition that technology system perimeters were susceptible to 
compromise, depth-in-defense provides increased reliance on detection 
and response mechanisms to address threats within the protection 
perimeter). We have established objectives, techniques, talent, and 
tools to assist us in our current efforts. We have also focused on 
educating our workforce, as they represent the first line of defense. 
However, we recognize our cybersecurity capabilities must continue to 
evolve. This recognition comes from education and collaboration with 
industry and Government. Our objectives are to mature and enhance our 
strategy and move to an ``agile defense''.\1\ In particular, we will 
enhance our focus on the people, processes, and technologies that can 
be managed, monitored, tested, measured, and continuously improved.
---------------------------------------------------------------------------
    \1\ An enhanced comprehensive security strategy referred to by NIST 
as ``agile defense''. Agile defense combines traditional perimeter, 
depth-in-defense, and depth-in-breadth, which is a planned, systematic 
set of multidisciplinary activities that seek to identify, manage, and 
reduce risk of exploitable vulnerabilities at every stage of the life 
cycle. Life cycle is the network that includes product design and 
development; manufacturing; packaging; assembly; system integration; 
distribution; operations; maintenance; and retirement.
---------------------------------------------------------------------------
    As an important part of the energy delivery value chain, we are 
also enhancing resiliency, which is our ability to respond quickly to 
attacks and to maintain critical services. As we have learned through 
our participation in many of the cyber discussions, ``bad actors will 
get in''. It is not a matter of ``if'' but a matter of ``when.'' 
Therefore, we continue to evolve our capability to respond and operate 
in a compromised state.
    Identifying and coordinating with the right stakeholders is vital 
to that evolution.
    First, we believe that participation with industry coalitions is 
critical. Our collaboration with fellow energy sector members allows us 
to continually learn and incorporate leading practices, provide mutual 
assistance and educate stakeholders and policy makers of real risks and 
possible solutions. We encourage and assist in collaboration between 
AGA, EEI, INGAA, and key policymakers.
    Second, collaboration between the public and private sector is a 
vital part of cyber protection. Deployment of the SmartGrid in Houston 
presented us with the opportunity to work with DOE, DHS, and other 
Federal agencies in order to successfully deliver advanced metering 
capabilities. Throughout the process, we collaborated with Government 
stakeholders to incorporate customer protection and cybersecurity into 
our design and operations. This could not have been achieved without 
information sharing, a focus on quality and integrity, strong risk 
management, and joint objectives--all of these achieved through 
collaboration.
    Those partnerships are also critical for our intelligent grid 
project and we look forward to continuing those relationships.
    Other examples illustrating the success of public-private 
partnerships are the joint industry and Governmental initiatives that 
developed the electric sector cybersecurity Capability Maturity Model, 
guidelines for the natural gas pipeline sectors' Pipeline Security 
Guidelines and many more activities that have benefited CenterPoint 
Energy and our industry. These collaborative efforts focused on 
targeted objectives and provided tangible programs, information, tools, 
techniques, and knowledge to help us enhance our efforts in this war 
against cyber threats. We encourage Congress to promote continued focus 
on private and public partnerships for the protection of our National 
security.
    And, finally, cybersecurity collaboration must take into account 
the entire life cycle and supply chain. Therefore, we must recognize 
the essential participation of our vendors and suppliers in this 
effort. They have worked with us to provide products and solutions to 
meet the demands of this challenge. Our joint goals and efforts focus 
on design, testing, and improvement of products to understand quality, 
integrity, risks, threats, mitigations, and management of these 
solutions in our operating environment.
                 cybersecurity participant observations
    There is a set of common themes that we see emerging from our 
cybersecurity efforts and dialogues:
    Shared Goals.--Identifying and merging the focus and priorities of 
the stakeholders is a key to success.
    Risk-Based Approach.--A risk-based approach is fundamental to our 
efforts. Goals should be prioritized and articulated clearly. Solutions 
should be focused and yet flexible. A ``one-size-fits-all'' approach 
won't work for unique problems. There are utility service providers 
serving hundreds of customers and others serving millions of customers; 
therefore, the risk profile will influence the objectives, techniques, 
and tools to effectively manage cybersecurity.
    Information Sharing and Situational Awareness.--We desire a defined 
collaborative process to share information in a quick, secure, and non-
prejudicial fashion. That process should educate us in ways that we can 
be proactive and not reactive. Throughout many conferences, meetings, 
calls, and other interactions, we continue to hear that the ICS-CERT 
serves as a strong template for developing a working model of 
collaboration. ``Boots-on-the-ground'' security team members find this 
of great value in their efforts in the cyber war. We believe this is an 
example of information sharing that provides actionable information, 
support to our industry, and brings value to public-private 
partnership.
    Leveraging Tools and Techniques.--Although we, and many others, 
employ market-leading technologies and information solutions, we 
believe our effort would be greatly enhanced by leveraging cyber 
technologies and solutions utilized by Governmental organizations and 
fellow industry members. We recognize there are many obstacles, but 
today's cybersecurity challenges require us to remove these obstacles 
and provide a repeatable and supportable path to facilitate results. 
Each day of delay is another day of opportunity for advanced persistent 
threat actors.
    Security Clearance.--Expanded security and expedited clearance for 
appropriate personnel within the private sector and expedited 
communication of critical information is critical to the ability of 
owners and operators to be proactive and responsive to emerging 
threats. We were pleased to see such a provision in the President's 
Executive Order on cybersecurity.
    Cybersecurity Regime.--A cybersecurity framework must prioritize 
the principle that agility is the key to responding to cyber threats. 
An overly burdensome and prescriptive regulatory regime will be 
increasingly challenged to keep pace with evolving cyber threats. A 
beneficial framework not only defines capabilities, but provides 
learning, methodologies, objectives, and techniques (tools and 
measures) to achieve the required results. In conjunction with risk-
based analysis, that type of framework can be leveraged by all 
participants to mitigate threats.
    Incident Management.--The reality is advanced persistent threat 
actors are not going away and the risk of a cyber incident will remain 
top of mind for the foreseeable future. Increased situational awareness 
coupled with response and recovery plans will be incorporated into 
existing emergency operating procedures.
    A leading effort on incident management comes under the auspices of 
the National Infrastructure Advisory Council (NIAC) report, several 
electric utility CEOs are engaged in an on-going partnership with the 
White House National Security Staff and senior officials throughout the 
Government, including Department of Energy Deputy Secretary Daniel 
Poneman and Department of Homeland Security Deputy Secretary Jane Holl 
Lute. This collaboration has resulted in several Government-industry 
initiatives, one of which is to identify roles and responsibilities 
that will expedite response and recovery should a major power 
disruption occur.
    Collaboration.--All of these themes require partnerships with 
industry and Government. Collaboration is essential to our combined 
mission of protecting the public, customers, employees, critical 
infrastructure, intellectual property, and National security. Notable 
examples demonstrating the strength of collaboration between public and 
private sectors include the Industrial Control Systems Joint Work Group 
(ICS-JWG) and the TSA-sponsored public-private partnership which 
supports the National Infrastructure Protection Plan (NIPP).
    To illustrate further, I offer the case of our interstate gas 
transmission pipelines where the cyber collaboration with the Federal 
Government began through our work with INGAA and AGA. After the 
September 11 attacks, and before the TSA or the DHS were created, we 
voluntarily collaborated through INGAA and AGA with the then-Research 
and Special Programs Administration within the Department of 
Transportation (DOT) to develop the initial Pipeline Security 
Information Circular. This collaborative approach to developing and 
implementing security measures continues to this day in our 
collaboration with the TSA. Since that time, gas pipeline owners and 
operators have worked with TSA to safeguard and protect our 
infrastructure's security--both from physical and cyber attacks. As a 
result of years of work and collaboration between owners and operators 
and the TSA we have a strong, trust-based collaboration--a public-
private partnership. This approach, and the relationship it fostered, 
produced robust, thorough cyber guideline development for natural gas 
transmission pipelines even before the ``911 Act'' became law.\2\
---------------------------------------------------------------------------
    \2\ Implementing Recommendations of the 9/11 Commission Act.
---------------------------------------------------------------------------
    TSA is using a voluntary partnership approach because it works. TSA 
and the private sector partner in order to leverage the collective 
expertise and experience of the Government and private industry in 
finding practical solutions to cybersecurity. This approach and the 
relationship it has fostered have produced robust cybersecurity 
guidelines and best practices for natural gas transmission pipelines.
    The TSA approach builds on what has been proven through experience: 
Public-private partnerships for cybersecurity generate solutions. A 
Congressional Research Service August 2012 report, ``Pipeline Cyber 
Security: Federal Policy,'' stated that ``TSA officials assert that 
security regulations could be counter-productive because they could 
establish a general standard below the level of security already in 
place at many pipeline companies based on their company-specific 
security assessments.'' Moreover, the report notes that ``[b]ecause TSA 
believes the most critical U.S. pipeline systems generally meet or 
exceed industry security guidance, the agency believes it achieves 
better security with voluntary guidelines, and maintains a more 
cooperative and collaborative relationship with its industry partners 
as well.''
    We believe that the key to effective cybersecurity is the trust 
developed in partnerships like the one with TSA. The dynamic solutions 
that are born of the public and private sector coming together are not 
possible when the Government is only acting as a regulator and 
enforcer. The cybersecurity world moves too quickly for such 
traditional regulatory models to be beneficial or productive.
                               conclusion
    We take seriously the responsibility of protecting our customers, 
employees, assets, and communities in which we operate, and thus 
cybersecurity is a top priority for CenterPoint Energy. We also 
recognize the importance of critical infrastructure to our National 
security. Because cyber threats are constantly changing and evolving, 
we support voluntary programs that encourage partnership, 
collaboration, sharing of information and technology, and the 
preparedness necessary to mitigate and respond to the ever-changing 
nature of cyber attacks. We will not succeed in this effort alone. The 
strengthening and expansion of industry and Government partnerships 
provides our best front in this cyber war.
    Chairman McCaul, Ranking Member Thompson, and Members of the 
committee, we appreciate the opportunity to share our perspectives and 
stand ready to assist you in your efforts to protect our critical 
infrastructure.

    Chairman McCaul. Thank you, Mr. Hayes. I appreciate your 
analogy. It is well taken.
    Now the Chairman now recognizes Ms. Richardson for her 
testimony.

STATEMENT OF MICHELLE RICHARDSON, LEGISLATIVE COUNSEL, AMERICAN 
                     CIVIL LIBERTIES UNION

    Ms. Richardson. Chairman McCaul, Ranking Member Thompson, 
thank you for the opportunity to testify today on the 
Department of Homeland Security's role in cybersecurity.
    This hearing is very timely. DHS is currently running major 
cybersecurity programs in order to secure critical 
infrastructure and Congress will likely vote on legislation 
further defining its role in the coming months.
    One of the most important decisions Congress will make is 
whether domestic cybersecurity programs will remain in the 
hands of civilian agencies, like DHS, or be ceded to the 
military. Under long-standing American legal requirements and 
policy traditions, the military is restricted from targeting 
Americans on American soil.
    Yet some are now arguing that cybersecurity should be the 
exception and the National Security Agency should be empowered 
to collect more information about internet users in order to 
respond to on-line threats. Doing so would create a significant 
new threat to Americans' privacy and must be avoided.
    The NSA has developed extraordinary powers and has been 
granted incredible legal leeway, all under the premise that its 
spying would be turned outward against foreign enemies. Setting 
it free to collect American information for cybersecurity would 
be unprecedented.
    This warning seems dire but that is because the 
consequences are dire. If domestic cybersecurity programs are 
ceded to the NSA, this committee, rank-and-file Members of 
Congress and the American public will never hear of it again. 
Keeping cybersecurity within DHS and within the jurisdiction of 
this committee would enhance privacy and accountability in very 
concrete ways.
    In addition to being a bad deal for privacy, placing new 
programs outside of DHS isn't even necessary from a security 
perspective. The highest ranks of the intelligence community 
agree that DHS should retain authority over civilian cyber 
programs.
    NSA Director Alexander has stated that his agency should 
not be the public face of domestic cybersecurity and that DHS 
should be the entity to deal directly with civilians, the 
private sector, and the domestic internet.
    The Obama administration continues to empower DHS and other 
civilian agencies to pursue cybersecurity for critical 
infrastructure in the public. The other panelists discussed in 
their statements the many different existing programs and 
information sharing hubs that are working successfully through 
DHS and other agencies.
    Its involvement in this area is only going to grow in light 
of the recent Executive Order. For example, the much-touted 
Defense Industrial Base Pilot Program, now known as the 
Enhanced Cybersecurity Program, will be expanded to all 
critical infrastructure and run by DHS. That program will 
organize and facilitate the flow of information from the 
Government to critical infrastructure.
    Also under the Executive Order, DHS will conduct the first 
inter-agency privacy analysis of cyber information sharing. As 
noted by the other panelists, there are dozens of information-
sharing bodies within and outside of the Government, all 
sharing different data pursuant to different statutes. No one 
has ever reviewed those programs for their effect on privacy.
    The President endorsed the Fair Information Privacy 
Principles and that heartens us, and we look forward to DHS's 
public report, due back next year. This committee could help 
bring pressure to bear on the agencies in its jurisdiction to 
ensure that they conduct a full and meaningful privacy analysis 
as part of that product.
    Since civilian control is decidedly better for privacy, 
works from a security perspective, and is already being 
implemented through current programs, it is disappointing that 
a legislative proposal that would fundamentally alter this 
balance is being considered.
    The Cyber Intelligence Sharing and Protection Act, known as 
CISPA, would create a cybersecurity exception to all privacy 
laws, so that companies can share Americans' internet data with 
each other and with the Government, even in the absence of a 
warrant, subpoena, or emergency, and share that information 
directly with military agencies like the NSA.
    In its veto threat, the administration argued this bill, 
``effectively treats domestic cybersecurity as an intelligence 
activity and thus significantly departs from long-standing 
efforts to treat the internet and cyber space as civilian 
spheres.''
    We hope the House will refer that bill to this committee or 
that you will otherwise consider taking up legislation of your 
own.
    Thank you for this opportunity to testify. We look forward 
to working with this committee going forward on DHS's role in 
cybersecurity.
    [The prepared statement of Ms. Richardson follows:]
               Prepared Statement of Michelle Richardson
                             March 6, 2013
    Good morning Chairman McCaul, Ranking Member Thompson, and Members 
of the committee. Thank you for the opportunity to testify on behalf of 
the American Civil Liberties Union (ACLU), its more than half-a-million 
members, countless additional activists and supporters, and 53 
affiliates Nation-wide, about the role of the Department of Homeland 
Security (DHS) in protecting the cybersecurity of critical 
infrastructure.
    The topic of today's hearing is very timely. DHS is currently the 
lead agency running major cyber programs on behalf of the Government 
and critical infrastructure, but Congress is considering establishing a 
new information-sharing regime that could collect cyber information 
notwithstanding any of the privacy laws currently protecting Americans' 
sensitive and personal data, and some proposals are unfortunately 
questioning the role of DHS. Most Americans would agree that the 
enhancement of on-line security is a worthy and appropriate goal for 
those vested with the responsibility for safeguarding the interests of 
all Americans. Protecting the right to internet privacy--a right with 
roots in our Constitutional principles opposing unreasonable search and 
seizure and assuring limited Government--is as critical a goal as 
enhancing on-line security, and DHS is the agency best positioned to 
handle such new authority in an effective and accountable manner. We 
look forward to working with this committee to ensure that these new 
cyber programs remain under civilian, rather than military control, and 
that Congress conducts extensive oversight of all DHS programs to 
ensure protection of privacy rights.
    Cybersecurity programs can and must be run in accordance with the 
Constitution and American values.\1\ The internet is an incredibly 
useful and empowering tool that enhances public knowledge, broadens the 
reach of our free speech rights, and eases and facilitates daily 
business and personal activities. As a result, internet data is rich in 
intimate details of our private and professional lives, such as where 
we go, with whom we associate, what we read, our religious faith, 
political leanings, financial status, mental and physical health, and 
more. Protecting privacy is necessary for the public to feel confident 
in continuing to engage with new and developing technology; any 
cybersecurity initiatives should make protecting that privacy a 
paramount goal.
---------------------------------------------------------------------------
    \1\ The American Civil Liberties Union's letters to Congress, 
comments to Federal agencies, blogs, and other cybersecurity materials 
may be found at http://www.aclu.org/cybersecurity.
---------------------------------------------------------------------------
    Many existing and proposed cyber efforts do not threaten the 
privacy or civil liberties of every day internet users, and we urge 
this Congress and the administration to pursue those programs and to 
avoid alternative proposals that risk creating major new and 
unnecessary surveillance programs. Appropriate programs for 
Congressional or administrative action include those to secure 
Government and military networks, educate the public on hygiene issues, 
prosecute internet-based financial crimes, invest in research and 
development, secure the supply chain of hardware, and share targeted 
threat information with critical infrastructure.
  i. the importance of keeping domestic cybersecurity programs within 
                           civilian agencies
    Under long-standing American legal requirements and policy 
traditions, the military is restricted from targeting Americans on 
American soil. Instead, domestic intelligence and law enforcement 
activities are run by civilian authorities. Some are now arguing that 
cybersecurity should be the exception, and that military agencies like 
the National Security Agency (NSA) should be empowered to collect more 
information about every-day American internet users in order to respond 
to on-line threats. Doing so would create a significant new threat to 
Americans' privacy, and must be avoided.
    To date, the military vs. civilian debate has been skewed by the 
intense focus on cybersecurity threats posed by hostile foreign 
governments, or international terrorists, and the comparative 
inattention to threats unrelated to National security. While advanced 
persistent threats from foreign actors are real and require a 
multifaceted response from the Government, it does not follow that all 
cybersecurity incidents impacting domestic internet users should merit 
a military response. Even by intelligence community estimates, those 
dangers represent a small portion of the threats that affect American 
internet users. Malware, financial crimes, and other threats that do 
not rise to the level of international incidents make up the 
overwhelming majority of malicious conduct on the internet. The 
conflation of foreign spying and potential sabotage, with corporate 
espionage, everyday internet crime, political statements, and 
essentially prank behavior has inflated every internet malfeasance into 
a potential National disaster. This hyperbole is simply not factually 
accurate, and only serves to encourage policy decisions with serious 
privacy and civil liberties implications.\2\
---------------------------------------------------------------------------
    \2\ See, for example, Howard Schmidt, Price of Inaction Will Be 
Onerous, NYT, Oct. 18, 2012, available at http://www.nytimes.com/
roomfordebate/2012/10/17/should-industry-face-more-cybersecurity-
mandates/price-of-inaction-on-cybersecurity-will-be-the-greatest.
---------------------------------------------------------------------------
    Placing cyber programs under the jurisdiction of domestic civilian 
agencies like DHS has real and far more positive consequences for 
transparency and accountability. DHS's lead competition for cyber 
programs--the NSA--is a black hole of information. Programs housed 
there, like in the rest of the intelligence community, are not subject 
to any meaningful public oversight. The NSA's activities appear to be 
presumptively classified, and whatever oversight that takes place is 
cabined in the Intelligence Committees, which conduct most of their 
business behind closed doors.
    One only need look to intelligence wiretapping for an example of 
the dangers posed if Congress hands control over domestic cybersecurity 
to the NSA. In 1978, Congress established the Foreign Intelligence 
Surveillance Act (FISA) to govern foreign intelligence electronic 
surveillance. Federal judges meeting in a secret court issued opinions 
interpreting Americans' Constitutional rights and developed a secret 
body of law that the American public has not been allowed to read. The 
extreme secrecy around such intelligence programs helped conceal a 
program of illegal and warrantless wiretapping for over 6 years. 
Congress eventually amended the FISA to permit this warrantless 
surveillance to continue, but included a sunset provision that was 
scheduled to expire at the end of last year. Congress reauthorized it 
without having a single open hearing with administration witnesses to 
explain how this expansive authority affects Americans' privacy. While 
some claim this evolution of expanded wiretapping as a success of the 
intelligence oversight process, it reflects the limits and consequences 
of housing these programs behind the intelligence wall.\3\
---------------------------------------------------------------------------
    \3\ The Supreme Court recently ruled in Amnesty v. Clapper that 
ACLU clients lacked standing to challenge the FISA Amendments Act of 
2008, because they could not prove that surveillance of their 
communications under the act was ``certainly impending,'' all but 
foreclosing meaningful judicial review of that statute's 
constitutionality.
---------------------------------------------------------------------------
    If cybersecurity--with a set of programs dominated by non-military 
and non-National security concerns--is ceded to the NSA, this 
committee, rank-and-file Members of Congress, and the American public 
will never hear of it again. Keeping cybersecurity within DHS and other 
civilian agencies, and within the jurisdiction of this committee would 
enhance, not harm, both security and privacy.
    ii. the current role of the department of homeland security in 
                             cybersecurity
    Developments over the last several years have rightly steered 
domestic programs into the DHS or other civilian agencies. In 2010, the 
Secretary of DHS and the director of the National Security Agency (NSA) 
signed an agreement that put DHS in charge of cybersecurity in the 
United States, with the NSA providing support and expertise.\4\ The 
President's recent Executive Order 13636 continues this approach, 
putting DHS and the National Institute of Standards and Technology atop 
the domestic cyber hierarchy, with consultation from the Attorney 
General, the Privacy and Civil Liberties Oversight Board, and the 
Office of Management and Budget.\5\ These major structural and policy 
commitments add to long-standing DHS programs that share information 
with companies and infrastructure operators, educate the public, and 
secure Government systems.
---------------------------------------------------------------------------
    \4\ MEMORANDUM OF AGREEMENT BETWEEN THE DEPARTMENT OF HOMELAND 
SECURITY AND THE DEPARTMENT OF DEFENSE REGARDING CYBERSECURITY, 
September 27, 2010, available at http://www.dhs.gov/xlibrary/assets/
20101013-dod-dhs-cyber-moa.pdf.
    \5\ Executive Order 13636, Improving Critical Infrastructure 
Cybersecurity, 78 Fed. Reg. 11739, February 12, 2013 [hereinafter 
Executive Order].
---------------------------------------------------------------------------
    DHS's role in the collection, use, and dissemination of 
cybersecurity information has substantially grown over the last several 
years. With the recent Executive Order, its participation will expand 
again, especially in two areas. First, DHS will run the Enhanced 
Cybersecurity Services program and facilitate the sharing of threat 
indicators with critical infrastructure owners and operators.\6\ 
Information sharing in this direction--from Government to private 
sector--has far fewer privacy implications than the reverse. It does 
however cement DHS' role in information sharing and publicly available 
Privacy Impact Assessments suggest that the agency is imposing 
meaningful privacy protections for the personally identifiable 
information (PII) coming into its possession. For example, PII is not 
maintained in a system of records, and therefore is not searchable by 
name or other identifiers, and information is not retained unless it is 
``directly relevant and necessary'' to address a cyber threat.\7\
---------------------------------------------------------------------------
    \6\ Id. at 4(c).
    \7\ PRIVACY IMPACT ASSESSMENT FOR ENHANCED CYBERSECURITY SERVICES, 
January 16, 2013, available at http://www.dhs.gov/sites/default/files/
publications/privacy/privacy_pia_nppd_ecs_jan2013.pdf, at 7.
---------------------------------------------------------------------------
    Second, DHS will coordinate a review of current information sharing 
programs to determine whether they meet the ideas in the Fair 
Information Practice Principles (FIPPs).\8\ Currently, there is little 
publicly available information about what agencies are currently doing 
with cybersecurity information and this annual report will be the first 
overarching review of these programs.
---------------------------------------------------------------------------
    \8\ Executive Order at (5).
---------------------------------------------------------------------------
  iii. emerging domestic information-sharing programs must be run by 
                     civilian agencies such as dhs
    Congress is considering a significant expansion of the Government's 
authority to collect cybersecurity information, and if the expansion 
moves forward, it is critical for civil liberties that they be run by 
civilian agencies such as DHS. H.R. 624, the Cyber Intelligence and 
Sharing Protection Act (CISPA), would exempt cybersecurity information 
sharing from all privacy laws and reverse decades of statutory 
protections for sensitive information like our communication, 
financial, and internet information. It would permit corporations to 
determine what information pertains to cybersecurity and allow them to 
share it with the Government--including military agencies like the 
NSA--and other corporations without making a reasonable effort to 
shield or scrub out personally identifiable information that is 
unnecessary to address the threat at hand. Companies would then be free 
to use Americans' sensitive private information as they see fit, and 
the Government could use it for certain reasons other than 
cybersecurity. When one of those reasons--National security--is wholly 
undefined, we are especially concerned that the military and 
intelligence agencies accessing that information would consider 
themselves to have free reign over such private records, under ever 
expanding arguments of what National security includes. These and other 
fundamental problems are why the ACLU continues to oppose CISPA.
    One of the biggest problems with CISPA is that it does not require 
companies that participate in this new information sharing regime to 
work with civilian agencies, and instead allows them to share sensitive 
and personal information directly with the NSA and other military 
agencies. The bill's sponsors claim that American corporations insist 
on dealing with the NSA and may withhold this information from the 
Government altogether if directed to go elsewhere. This assertion does 
not stand up, especially considering that the companies in question are 
not part of the defense sector, and primarily offer services to the 
public and the private sector. Companies that actually have defense 
information are already permitted to participate in a NSA-run 
information regime, and other potentially targeted sectors can continue 
to work with the agencies that have long regulated them.
    CISPA insists on giving the companies the authority to share 
domestic, civilian internet information directly with the NSA even 
though it neither wants nor needs it. NSA Director General Keith 
Alexander has stated that his agency should not be the public face of 
cybersecurity and does not need to directly receive domestic cyber 
information.\9\ In fact, the House Intelligence bill is an outlier. The 
administration's Statement of Administration Policy on CISPA in the 
112th Congress, said that the bill:
---------------------------------------------------------------------------
    \9\ Jennifer Martinez, General: Nation Needs DHS Involved in 
Cybersecurity, THE HILL, Oct. 21, 2012, available at http://
thehill.com/blogs/hillicon-valley/technology/259547-general-nation-
needs-dhs-involved-in-cybersecurity-, (``I see DHS as the entry point 
for working with industry,'' [General Keith ] Alexander said at an 
event hosted by the Wilson Center and National Public Radio . . . 
Alexander stressed that protecting the Nation's critical infrastructure 
requires a team effort from the Government, including the involvement 
of DHS. ``Where I sit, it's our job to help them be successful. I think 
they're taking the right steps and it's the right thing to do,'' 
Alexander said. ``Our nation needs them to be in the middle of 
this.''); Kim Zetter, DHS, Not NSA Should Lead Cybersecurity, Pentagon 
Official Says, WIRED, Mar. 1, 2012, available at http://www.wired.com/
threatlevel/2012/03/rsa-security-panel/ (`` `Obviously, there are 
amazing resources at NSA, a lot of magic that goes on there,' said Eric 
Rosenbach, deputy assistant secretary of Defense for Cyber Policy in 
the Department of Defense. `But it's almost certainly not the right 
approach for the United States of America to have a foreign 
intelligence focus on domestic networks, doing something that 
throughout history has been a domestic function.' Rosenbach, who was 
speaking at the RSA Security conference in San Francisco, was adamant 
that the DHS, a civilian agency, should take the lead for domestic 
cybersecurity, with the FBI taking a strong role as the country's 
domestic law enforcement agency.'').

`` . . . effectively treats domestic cybersecurity as an intelligence 
activity and thus, significantly departs from long-standing efforts to 
treat the internet and cyberspace as civilian spheres. The 
administration believes that a civilian agency--the Department of 
Homeland Security--must have a central role in domestic cybersecurity, 
including for conducting and overseeing the exchange of cybersecurity 
information with the private sector and with sector-specific Federal 
agencies.''\10\
---------------------------------------------------------------------------
    \10\ OFFICE OF MANAGEMENT AND BUDGET, EXECUTIVE OFFICE OF THE 
PRESIDENT, STATEMENT OF ADMINISTRATION POLICY, H.R. 3523, CYBER 
INTELLIGENCE SHARING AND PROTECTION ACT, April 25, 2012, available at 
http://www.whitehouse.gov/sites/default/files/omb/legislative/sap/112/
saphr3523r_20120425.pdf.

    The Senate's most recent information-sharing legislation, Title VII 
of the Cybersecurity Act of 2012, also made clear that cybersecurity 
information should only go to a civilian agency.\11\ While a handful of 
amendments to CISPA passed on the House floor last year, none of them 
addressed this point. Members of the Intelligence and Homeland Security 
Committees filed amendments that would have required new domestic 
information sharing to be routed through civilian agencies, but they 
were not made in order and did not receive a vote.\12\ The 
administration, the Senate, and the privacy community are in agreement 
that civilian control of these programs is not only good for civil 
liberties, but workable from a cyber and National security standpoint. 
CISPA stands alone in failing to follow this common wisdom.
---------------------------------------------------------------------------
    \11\ S. 3414, The Cybersecurity Act of 2012, 112th Cong. (2012).
    \12\ CISPA amendments filed with the with the House Rules Committee 
are available at http://rules.house.gov/Legislation/
legislationDetails.aspx?NewsID=812. Amendment 19 by House Permanent 
Select Committee on Intelligence Member Representative Jan Schakowsky 
(D-IL) and amendment 21 by House Homeland Security Committee Ranking 
Member Bennie Thompson (D-MS) would have ensured that new sharing under 
CISPA would have gone to civilian agencies and DHS respectively.
---------------------------------------------------------------------------
     iv. further areas for committee oversight of dhs cybersecurity
    Because of the House's imminent efforts to expand information 
sharing and the importance of keeping those programs in civilian hands, 
this statement has focused on that proposal and how it fails from a 
civil liberties and privacy perspective. But we also urge this 
committee to undertake oversight activities of existing cybersecurity 
programs. In particular, we urge the committee to review the 
implementation of the EINSTEIN program, which works with providers to 
scan Government systems for known cyber threats. The last Privacy 
Impact Assessment on EINSTEIN was written in 2010 and there is little 
public information about the broader application of the program and the 
effectiveness of privacy requirements. The committee should also make 
sure that agencies are participating meaningfully in the FIPPs review 
discussed above so that DHS can do an overarching analysis of whether 
privacy is protected in current programs.
                             v. conclusion
    Thank you for the opportunity to share our views on cybersecurity 
and the role of DHS. The administration is giving DHS increasing 
responsibilities in this area and we hope that if information 
collection programs expand, they too are housed in DHS. We look forward 
to working with you on this and other civil liberties issues in the 
future.

    Chairman McCaul. Thank you, Ms. Richardson. This committee 
is, again, committed to taking up legislation. I think you 
raised some valid points and concerns in terms of a civilian 
versus military space.
    Let me start with Mr. Bhimani. Your sector has been perhaps 
one of the most successful stories in terms of working with DHS 
and protecting your critical infrastructure. Yet, has been 
under attack, as you know, by countries like Iran and others 
quite extensively.
    Could you share with this committee your experiences with 
your sector's participation with the NCCIC and how that has 
worked for your industry?
    Mr. Bhimani. Yes. Thanks very much for that recognition. I 
think our Members obviously think that we should very seriously 
devote thousands of people towards this problem. But 
individually, you can only go so far.
    So with all the challenges that maybe have been facing this 
sector, I shudder to think what it would have been like if we 
hadn't been sharing with each other and hadn't had that 
partnership with both Treasury and DHS.
    I think our presence on the NCCIC floor has really sped 
that partnership significantly, being able to get information 
both from the NCCIC as well as from our members to the NCCIC.
    Chairman McCaul. Would you recommend--would it be your 
recommendation--well, first of all, it has been successful for 
you, your relationship with DHS and the NCCIC, is that correct?
    Mr. Bhimani. Yes, it has. I think there is always ways to 
improve any sort of partnership, but it is--if I compare it 
with the relationship we had with various agencies years ago, 
it is light-years ahead.
    Chairman McCaul. Would you recommend in getting full 
participation from the 16 ISECs out there to participate on the 
NCCIC floor? Would that be helpful?
    Mr. Bhimani. Yes. The same way I said that I think that we 
as a sector recognize that us individually really have 
responsibility for the whole sector, if you look at all those 
sectors, there is a tremendous amount of dependency from one 
sector onto another. We have as much dependency on the 
electricity sector, the telecom sector, as we do on each other, 
right.
    So I do think that there is a certain--and with as much 
progress as we made within the sectors, not just financial, but 
otherwise, sharing with each other, I do think doing that would 
significantly enhance cross-sector sharing, yes.
    Chairman McCaul. I think that is going to be one of the 
goals of this committee, is to get full participation from the 
private sector.
    Mr. Hayes, you obviously represent the energy side of the 
house. Obviously, the Mandiant report out there talks about 
China targeting our energy sector. Can you tell us about your 
experience with DHS and the NCCIC and why that would be 
valuable to codify that relationship into law?
    Mr. Hayes. Sir we have had a good relationship with DHS, 
primarily around the ICS-CERT. When I go to meetings within the 
industry group and talk to the boots-on-the-ground security 
people, it is probably one of the security organizations that 
they reference the most in terms of the benefit it brings to 
them.
    In terms of the NCCIC, we are learning about that. We want 
to understand that capability around situational awareness. As 
I mentioned, it is better to see the storm coming, to deal with 
it than have to react to it after the fact.
    So those are the things that our industry is working with. 
We are working also with NIAC through both DOE, NSA, DHS, and 
several others, to look at a response plan for our industry as 
we move forward.
    Chairman McCaul. Well, that is good because we always talk 
about the electric grid and how shutting that down would 
potentially cause more damage than Sandy or other hurricanes, 
if done effectively.
    Ms. Richardson, I wanted you to expand, as you correctly 
noted, that General Alexander, the director of NSA, sees DHS 
having an important role with cybersecurity, particularly, as 
he put it, being a civilian interface to the private sector. 
Can you explain to this committee why that civilian interface 
is so important?
    Ms. Richardson. Sure. A lot of the press around 
cybersecurity has really focused on foreign actors and attacks 
at a very high level on our defense information, corporate 
espionage.
    But overwhelmingly, the cybersecurity programs that affect 
everyday Americans are about everyday cyber crime, insecure 
networks, things like that. Those do not merit a military 
response. They should be handled by civilian agencies and the 
capability has certainly been built up there.
    We can certainly look over the last decade that, as the 
Government has expanded its intelligence authorities, once you 
go behind that intelligence curtain, there isn't oversight and 
there isn't accountability and it operates in almost complete 
secrecy, with even Members of the intelligence committees 
saying that they don't have basic information on how these 
programs are run.
    We don't see that happening nearly as much in programs that 
are run under DHS and are presumptively public.
    Chairman McCaul. So do you believe that civilian 
authorities over, say, the dot-com and the critical 
infrastructures, as has been put forth by both President Bush 
and Obama, is the better route to go?
    Ms. Richardson. Absolutely. That doesn't necessarily 
detract from the NSA and Defense working in its own sphere. 
They have their own authorities and they will continue to build 
them out.
    However, as we turn to the public internet that everyday 
Americans are using, it absolutely has to be controlled by 
civilian agencies like DHS.
    Chairman McCaul. We are trying--I was looking at that 
bubble chart earlier, just trying to figure out the roles 
between the--I believe they all have roles and there is plenty 
work for everybody. I think it is clearly defining these roles 
between the three agencies that is highly important. We need to 
get this right before we pass legislation.
    On the issue of privacy, Chairman Meehan and I are looking 
for ways to ensure that privacy is protected under the 
Constitution. We have looked at the Executive Order language as 
a possible starting point.
    I know that your group, the ACLU, for the most part has 
been supportive of the language, in terms of the adoption of 
the Fair Information Practice Principles for internal 
information sharing. Is that a fair statement?
    Ms. Richardson. Yes. We were very happy to see the 
Executive Order embrace the FIPs. They represent principles 
like transparency, accountability, minimization, control over 
your own information. Those should be the bedrock going forward 
for information-sharing programs.
    Chairman McCaul. Okay. Well, thank you very much. That is 
all I have for now. I now yield to the Ranking Member.
    Mr. Thompson. Thank you very much, Mr. Chairman. I am most 
appreciative of having other people talk about cyber, other 
than just in a classified setting or some other kind of setting 
where we can't talk about it.
    Well, that kind of puts a muzzle on Members of Congress 
from going forward and trying to do the right thing, because it 
is presented to us in a manner where we can't talk about it.
    So for this hearing, it has allowed us to hear from not 
just DHS, but also people who either do it everyday or people 
who review policy everyday. What I would like to do for each 
one of our witnesses is to say we are not trying to reinvent 
the wheel. Most private sector businesses' best practice says 
we have to have a secure network as best we can.
    We are not trying to create a bureaucracy on top of that, 
so no ``you have to do it this way because the Government says 
to do it this way.''
    Now that being said, do I hear from the private sector that 
it is important for a civilian coordinating role to be part of 
this cybersecurity policy?
    Mr. Hayes, we can start with you and we will go from there.
    Mr. Hayes. Yes, I believe it is very important to have that 
clear role. I think there was the discussion earlier with Ms. 
Lute about the FEMA. We utilize the FEMA ICS formats in our 
structure, so clear command in incident situations are 
important.
    It is also equally important as we work with our 
partnership and organizations across our industries and our 
agencies, that it is clear in how we are dealing with that. 
What information can be shared, what information can be shared 
openly, fairly, quickly, responsibly? Those are things that are 
very, extremely important to us, because those are the things 
we react to.
    As my other speaker talked about, actionable items, how do 
we get to actionable items? That is what we do on a daily 
basis. So without the clarity of roles and responsibilities 
across those organizations, then we are providing multiple 
perspectives. Just to give you an idea, as we track the number 
of entities, and that could be Governmental or industry or 
whatever, we are well over 70 different groups that are 
focusing on cybersecurity. So as a single company, you can't 
support 70 types of activities. You have got to focus on the 
ones that are providing the value, creating the value, 
providing the information that you can respond to and actually 
benefit both your company and the customers that you serve.
    Mr. Thompson. Mr. Bhimani.
    Mr. Bhimani. I do believe it is important to have a 
civilian agency involved. What I would say, just echoing Mr. 
Hayes's comments, is it is often difficult for those of us in 
the private sector to navigate the various agencies and 
departments involved in cybersecurity.
    We have benefited tremendously in the financial industry 
from having the Treasury Department and their critical 
infrastructure protection office do that for us. So I strongly 
believe that there be a single organization to be that conduit. 
I think, the call-out of sector-specific agencies in the 
Presidential directive, I think is a step towards that.
    I think, as I mentioned before, our partnerships with DHS 
have been very strong, both with the NCCIC as well as with the 
Intelligence and Analysis Directorate.
    What I would say is what we care most about is that we are 
able to receive actionable, timely information from whoever has 
it, and not necessarily be limited to those agencies we can 
speak with as dictated by what we need.
    Mr. Thompson. Ms. Richardson, I would say on top of that, 
how would the need for transparency and oversight impact 
perhaps what we have heard from these other two witnesses?
    Ms. Richardson. Well, I think often transparency, 
oversight, privacy are conceptualized as opposite to timely 
sharing and agility that is needed in this area. That is not 
necessarily the case.
    There are ways to conduct information sharing that 
absolutely builds in all of the privacy principles that are so 
important to protect this very sensitive data. So it is very 
possible to do a very targeted information-sharing program that 
clearly defines what can be shared, who can receive it, and 
what can be done with it.
    The answers to those questions are just technical data, 
stripped of the personal information, with civilian agencies 
who can then use it just for cybersecurity purposes. The devil 
will be in the details, but there is nothing inconsistent with 
providing these guys with what they need and doing it in a way 
that protects privacy.
    Mr. Thompson. Thank you. I yield back, Mr. Chairman.
    Chairman McCaul. Thank you.
    The Chairman now recognizes the Chairman of the 
Cybersecurity, Infrastructure Protection, and Security 
Technologies Subcommittee, Mr. Meehan.
    Mr. Meehan. Thank you, Mr. Chairman.
    Thank you for this very distinguished panel taking the time 
not only to be before us today but for the work that you are 
doing out there in the private sector, in all matters of it.
    Because as we have identified in numerous aspects of 
today's hearing, this is a true public-private partnership and 
in more ways than perhaps in any other in Government, because 
we are tied together so significantly. I look forward to 
working with you, each of you, as we move forward.
    Mr. Bhimani, let me ask you a question because I think you 
touched on something that is important in my understanding. It 
is as much to educate those who are out there, taking very 
seriously the important points that have been made by Ms. 
Richardson and the recognition that you and I think the banking 
industry have for the security of private information and other 
kinds of things, a long history of being able to do that.
    You spoke a little bit in your testimony about what may be 
necessary for you, and I think there are two points that I want 
you to speak to. It is necessary so it is real and actionable. 
But you also don't want to be getting a lot of information that 
as you, in your words, if it is stale it is a waste of time.
    We also appreciate that a lot of times we are talking about 
fractions of seconds within which the speed of this game is 
moving before somebody can be violated.
    So can you speak to a little bit more about what the nature 
of that information that you are looking for, how it can be 
actionable but yet at the same time not necessarily be 
identifiable in a way that would create concerns for people who 
might be the subjects of some of that?
    Mr. Bhimani. Sure, I would be happy to.
    Let's go back to when we think about any sort of an attack, 
what do we care most about? We care most about the method of 
the attack, the nature of the attack and, frankly, the 
motivation of the attacker, right?
    There is a term that we use a lot in cybersecurity, it is 
called an indicator of compromise, or an IOC. So sharing those 
indicators of compromise from one firm to another. Hey, we saw 
some activity from this address. Those sorts of things are very 
useful from that perspective.
    One other example might be we----
    Mr. Meehan. So it may not be--it is not necessarily 
content-specific?
    Mr. Bhimani. No.
    Mr. Meehan. It is really--could you just talk for a 
second--like----
    Mr. Bhimani. Sure. Sure. So----
    Mr. Meehan. So what is that information? Is it--or what?
    Mr. Bhimani. Yes, so it might be--yes, it might be an IP 
address. It might be a specific vulnerability in a system that 
was exploited. It might be----
    Mr. Meehan. Back door, so to speak, or something like that?
    Mr. Bhimani. I am sorry?
    Mr. Meehan. A back door, so to speak.
    Mr. Bhimani. A back door, so to speak, yes.
    Mr. Meehan. We understand the soft way. This is the way it 
is being exploited.
    Mr. Bhimani. Exactly. So basically, what is the attack 
technique used around that, right? I think that, if I go back 
to something I mentioned before, the GISF, right? One of the 
things that was most valuable out of that was, look, we can't 
tell you why or where this is, but if you see something coming 
from this IP address, be worried. That is something you should 
block. That is the kind of stuff that we need, right? So what 
we don't need to do is--you know, back to this--a majority of 
what we need tends to be machine-level data, right, IP 
addresses, vulnerabilities in software, specific attack 
patterns or things like that, that have nothing to do with an 
individual's information or an individual's data.
    In fact, in most cases, those things sit in two different 
systems within our organizations, right? So even by sharing 
one, you are almost physically barred in some cases from 
sharing the other one, because it comes from a completely 
different place.
    Mr. Meehan. Well, thank you. This is an issue that I want 
to explore. I appreciate the points that have been made by Ms. 
Richardson, as well, and I think we are going to be looking to 
explore ways in which privacy can be protected, but we can be 
actionable in an appropriate fashion.
    Just, Mr. Hayes, you represent not just the energy 
industry, but in my mind, the broad spectrum of kind-of, sort-
of utilities and otherwise, so it could be water, it could be a 
whole variety of things. There is also sophistication that has 
been identified. Your industry, Mr. Bhimani's industry, are 
really at the cutting edge of this, but there is a lot of 
things, municipal water supplies. I mean, they are paid for by 
taxpayer, rate-payer dollars. They have got systems that are 20 
and 30 years old. They are not built for the current level of 
cybersecurity.
    How are we going to be able to include all of the important 
partners in this at the same time, you know, without creating 
or--you know, standards that become check the box or become 
problems in which we talked about clutter? It almost becomes 
counterproductive. I am interested in your observations on how 
we can encourage people to participate and at what point in 
time the relationship starts to become counterproductive, 
because it becomes overly bureaucratic.
    Mr. Hayes. So I think it was hit on earlier about how we 
are integrated together, that all the systems are such that we 
touch each other and have dependencies. I mentioned earlier 
that, you know, there are companies--small municipal water 
facilities, small electric companies, rural electric 
cooperatives who may have one person in their IT department. 
How does that one person stay up with all of what is happening 
from that perspective?
    It is going to have to look at a risk-based profile. Are 
their actions as necessary as perhaps the actions of a large 
utility serving millions of customers? They may be of equal 
consequence in some ways, but the overall major consequences 
that could occur may be different. So I think developing the 
skill sets and knowledge to do risk-based analysis helps us 
understand how to prioritize and focus those areas where we 
need to make the best investments.
    Now, stepping away from that, we participate with 
organizations and industry groups in a variety of all sizes. 
Many of those will come to the seminars or the learning 
sessions, and if we learn, we share those best practices, and 
those people are willing to go back and incorporate those 
things within to their environments, within their risk profile, 
so I think it goes back to not only info sharing, information 
sharing, like we have talked about, but even within our 
industry groups, continuing to broaden the bigger footprint of 
thhe needs and necessities for information sharing in those 
areas.
    Mr. Meehan. Well, thank you. Thank you for the work that 
you do, and look forward to working with you collectively in 
the time ahead to do what we can in this public-private 
partnership to get it right. Thanks.
    Thank you, Mr. Chairman. I yield back.
    Chairman McCaul. I thank you. Let me just, in closing, 
since we don't have any other Members asking questions, if I 
could just give each of you just a couple minutes to highlight 
the most important points as you see it and particularly as we 
move forward with legislation, what you believe to be the most 
important pieces to that legislation?
    We will start with Mr. Bhimani.
    Mr. Bhimani. I would just echo--reiterate the importance of 
being able to get actionable, timely information out to the 
private sector from whatever the source, right? I do recognize 
a lot of the challenges between the civilian and the 
intelligence agencies, right? But at the end of the day, you 
know, we need to know what is going on and what is affecting us 
in a way that makes sense, so that is the first thing I would 
say.
    The second thing I would say in conjunction with that is, 
just reiterating my earlier point that it can often be very 
difficult for private-sector entities to navigate the number of 
agencies and the number of departments within agencies that do 
this, so having a conduit, like in our case Treasury, to serve 
as that point of contact for the industry I think is 
invaluable.
    Mr. Meehan. [Off mike.]
    Mr. Hayes. I think what is necessary is for the clarity of 
roles. I know that was talked about a lot today, and I think 
that is very beneficial. Anything that considers that helps us 
understand how do we interact helps in that process.
    It has got to be practical and immediate. This is a timely 
issue. The people and what we are dealing with are things that, 
as mentioned, need to be actionable. We need to come back and 
be able to do things and apply technologies and techniques and 
intelligence against solving this problem.
    Risk-based, one-size-fits-all is not appropriate. We have 
got to think about how we can address that small municipal all 
the way up to the larger utility infrastructures. Timely--and 
it is going to be timely in the fact that, how do we move from 
being reactive to being proactive to being predictive? How do 
we get the game where we are understanding that we might see 
these things coming earlier, often referred to as situational 
awareness? The other one is scalable. So what we need to do is 
it goes to my point. We have got to be able to apply this 
across the spectrum of our industry so it is effective to all.
    When we talk about legislation, just simply, it has got to 
be to where I don't have to go to my legal department or my 
regulatory department to address an issue. So if it creates 
those constructs--and I don't go and work in those constructs--
but if it creates those constructs, it makes information 
sharing difficult, slows the process down. So keep that in mind 
as we move forward.
    Last, it has got to be peer-to-peer and collaborative. We 
have talked about that throughout, and I heard that 
tremendously through the session, that is built on the trust 
that we both are going to react responsively in this effort to 
solve the problem around cybersecurity.
    Chairman McCaul. Thank you.
    Ms. Richardson.
    Ms. Richardson. Thank you. When we are evaluating 
cybersecurity legislation, we are very happy to report that 
largely it doesn't affect civil liberties, and there are a lot 
of things that the Government and Congress can be doing that 
are civil liberties-neutral, like building up capacity at DHS 
or education programs, research and development, securing the 
supply chain, and we really hope the Government will focus on 
those programs and not the ones that implicate civil liberties.
    To the extent, though, that the Government does want to 
increase information sharing and write laws that are going to 
contravene long-standing privacy statutes, there are a couple 
of things that have to happen. No. 1, those programs have to be 
civilian-run and by an agency like DHS. No. 2, those programs 
have to minimize the collection of personally identifiable 
information. No. 3, those programs have to absolutely tamp down 
the use of that information once it is collected, so that it is 
not purposed for things outside of cybersecurity.
    I think the last thing is just to urge you to take the time 
to get this right. I think we have seen that once the 
Government is formally given authority, it is almost impossible 
to get it back. So if Government now overreaches and allows too 
much information to be shared, I don't know how fixable it will 
be, so we hope that Congress makes sure that there is a very 
targeted, tailored approach going forward.
    Chairman McCaul. This has been very insightful. I want to 
thank the witnesses for your testimony.
    Pursuant to Committee Rule 7-E, the record will be held 
open for 10 days. Members may have additional questions in 
writing.
    Without objection now, the committee stands adjourned.
    [Whereupon, at 12:42 p.m., the committee was adjourned.]


                            A P P E N D I X

                              ----------                              

      Questions From Honorable Susan W. Brooks for Jane Holl Lute
    Question 1. Has the Department released the National Level Exercise 
2012 After-Action Report? If not, when will the Department release the 
report?
    Answer. The final National Level Exercise 2012 After-Action Report 
is currently in clearance and FEMA will provide a copy to Congress once 
it is approved. However, the NLE 12 Quick Look Report (attached) has 
been released and is publicly available.*
---------------------------------------------------------------------------
     * The document has been retained in committee files and is 
available at https://www.llis.dhs.gov/sites/default/files/
National%20Level%20Exercise%202012%20Quick%- 20Look%20Report.pdf.
---------------------------------------------------------------------------
    Question 2. Last year FEMA released the National Preparedness 
Report (NPR), which showed that significant gaps still remain in our 
Nation's Cybersecurity capability. The NPR reported that the Nation was 
not even half-way to the desired capability level for cybersecurity. 
What should we do to educate and train our Federal, State, local, and 
private-sector partners to help build and mature the Nation's 
cybersecurity capability?
    Answer. Emerging cyber threats require the engagement of the entire 
Nation--from Government and law enforcement to the private sector and 
most importantly, the public. Raising the cyber education and awareness 
of the general public creates a more secure environment in which the 
private or financial information of individuals is better protected. 
DHS advocates for a safe and secure cyber environment by conducting 
outreach and awareness efforts to educate and inform the general public 
about cybersecurity opportunities to enhance their confidence to 
protect themselves on-line.
    In 2011, DHS released the Blueprint for a Secure Cyber Future, 
which calls for a coordinated effort across the homeland security 
community to protect America's critical information infrastructure and 
build a safer and more secure cyber ecosystem. Such tools and resources 
that promote cybersecurity education include the DHS/NSA Centers for 
Academic Excellence, the CyberCorps Scholarship for Service Program, 
the Integrated Cybersecurity Education Communities Program, and the 
Federal Virtual Training Environment, which provides on-line access to 
cybersecurity training for State, local, territorial, and Tribal 
governments.
    DHS recognizes that partnership and collaboration are crucial to 
ensuring that all Americans take responsibility for their actions on-
line. To that end, we are continuing to grow the Department's public-
private partnerships through the Stop.Think.Connect.<SUP>TM</SUP> 
Campaign, which is a year-round National public awareness effort 
designed to engage Americans and encourage them to join the effort to 
practice and promote safe on-line practices. In addition, National 
Cyber Security Awareness Month (NCSAM) is an opportunity to engage 
public and private-sector stakeholders--as well as the general public--
to create a safe, secure, and resilient cyber environment.
    The Department promotes cybersecurity in grades K-12 and higher 
education. Key programs provide established undergraduate and graduate 
specializations at designated universities and scholarships in exchange 
for Federal service after graduation. DHS, in coordination with the 
National Initiative for Cybersecurity Education, is currently 
institutionalizing and delivering tools and resources through the 
National Initiative for Cybersecurity Careers and Studies (NICCS) 
portal. The NICCS public website is a comprehensive on-line resource 
for cyber education and training for Federal employees and the general 
public.
    DHS is building strong cybersecurity career paths within the 
Department and in partnership with other Government agencies. To 
accomplish this critical task, we have created a number of competitive 
scholarship, fellowship, and internship programs to attract top talent, 
including computer engineers, computer scientists, analysts, and IT 
specialists. For example, the Homeland Security Advisory Council Task 
Force on Cyber Skills provided recommendations in October 2012 that 
will help DHS develop the next generation cyber workforce. The 
Department has worked to fulfill recommendations that expand the 
National pipeline of men and women with advanced cybersecurity skills, 
enable DHS to become a preferred employer for the talent produced by 
that pipeline, and position the Department to help make the United 
States safer, more secure, and more resilient.
    Finally, the Multi-State Information Sharing and Analysis Center 
(MS-ISAC) provides managed security services to States and local 
governments, education and training services, and resources to non-
member SLTT governments on a fee-for-service provision and to the 
public. The MS-ISAC has since grown to include all 50 States, three 
U.S. territories, the District of Columbia, and more than 200 local 
governments.
    In addition, the National Computer Forensic Institute has trained 
more than 1,000 State and local law enforcement officers since 2009 to 
conduct network intrusion and electronic crimes investigations and 
forensic functions. Several hundred prosecutors and judges as well as 
representatives from the private sector have also received training on 
the impact of network intrusion incident response, electronic crimes 
investigations, and computer forensics examinations.
    Question 3. In February, the Emergency Alert System of two 
television stations in Montana was compromised and a fake emergency 
alert message warning of a zombie apocalypse occurring in several 
counties. While this incident did not cause any harm, my concern is 
that the American people rely on public information during crisis and 
disasters to help guide their actions and hacking into the system could 
cause great harm or confusion. What are some measures that can be taken 
to prevent this from occurring again and assure the American people the 
information we provide through the emergency alert system is accurate?
    Answer. A Federal Communications Commission's (FCC) investigation 
of the false emergency alert messages identified several standard best 
practices that could have prevented this event. The FCC's review 
revealed that the broadcasters were using off-the-shelf technology, but 
had not acted on the manufacturer's recommendation to change the 
default password and user ID codes. The default user ID and passwords 
are contained in the manufacturer's on-line manual and are easily 
discoverable. In addition, critical portions of the broadcaster's 
network were accessible through the public internet and were not 
isolated by a firewall. The following security best practices, 
published by the National Association of Broadcasters, would greatly 
reduce the possibility of future similar events:
    (1) Follow the manufacturer's installation instructions;
    (2) Change manufacturer passwords immediately upon installation of 
        the purchased equipment;
    (3) Employ a strong password model (using combinations of letters, 
        numbers, and symbols) that must be changed periodically; and
    (4) Install firewall software to protect critical internal networks 
        from easy public access.
    Implementation of these basic security practices would help to 
prevent future abuses. Further, the National Protection and Programs 
Directorate/Office of Cybersecurity and Communications is engaging with 
the Federal Communications Commission and the Federal Emergency 
Management Agency to examine system configuration and recommending 
additional measures for consideration and implementation by 
manufacturers and broadcast system owners and operators to increase 
security and system integrity.
        Questions From Honorable Scott Perry for Jane Holl Lute
    Question 1a. When a company from the private sector chooses to 
report that they fell victim to a cybersecurity crime, what is the 
process by which they go about doing that? Specifically, what is the 
department or agency they report to?
    Answer. Successful response to dynamic cybersecurity crime requires 
leveraging homeland security, law enforcement, and military authorities 
and capabilities, which respectively promote domestic preparedness, 
criminal deterrence and investigation, and National defense. DHS, the 
Department of Justice (DOJ), and the Department of Defense (DOD) each 
play a key role in responding to cybersecurity crimes, with each 
department having areas with overlapping jurisdiction regarding law 
enforcement, protection, and response. Regardless of which agency 
receives an initial incident report, these Federal entities regularly 
share incident information in a manner that protects privacy and civil 
liberties, and coordinate on response activities such that ``a call to 
one is a call to all.''
    Question 1b. If the Government substantiates the claim, what 
information can be provided to the company? Specifically, is the 
company given tools to prevent future attacks; do they receive the 
origin of the attack?
    Answer. If a company requests that DHS evaluate a suspected 
intrusion, the company may voluntarily provide network or system log 
data to the NCCIC for technical review to ascertain the characteristics 
of an incident. The NCCIC will analyze the log data and provide the 
company with a detailed analysis, classified and/or unclassified as 
appropriate, and recommend mitigation strategies. Other agencies, like 
the FBI, may also coordinate with DHS to share information with the 
company.
    The Department's enhanced cybersecurity and communications 
collaboration, situational awareness, and everyday response 
capabilities through the NCCIC allow for information sharing across all 
levels of government and the private sector for cyber incident 
situational awareness and coordinated response and recovery efforts. 
DHS routinely shares threat knowledge in anonymized, non-attributable 
formats, with the private sector to enable effective computer network 
defense during steady states as well as in response to a more 
particularized threat. In response to an incident, DHS frequently 
provides analysis to assist in mitigating the activity or preventing 
future attacks. In addition, the NCCIC shares timely and actionable 
incident data with the affected company as well as interagency partners 
and across multiple sectors to enable alert and warning activity, 
helping other partners protect themselves before they are impacted. For 
instance, the Cybersecurity Information Sharing and Collaboration 
Program allows for sharing and receiving anonymized actionable threat 
data: With participating private-sector entities that provides 
protection for information submitted and enables collaboration with 
other entities in response to cybersecurity threats and incidents.
    DHS also offers a number of voluntary programs to increase an 
entity's cybersecurity posture upon request. These include the Cyber 
Security Evaluation Tool, which is a self-assessment tool downloadable 
from www.us-cert.gov and a library of recommended practices that a 
company can follow to increase their cybersecurity posture. 
Additionally, critical infrastructure owners and operators can request 
an on-site Cyber Resilience Review of their organization's overall 
cyber posture or an assessment of their control systems' security from 
the Industrial Control Systems Cyber Computer Emergency Response Team.
    Question 2. Currently, it is in the best fiscal interest for many 
companies not to report cyber attacks on their networks. In drafting 
legislation, can any confidentiality safeguards be implemented that 
would encourage more companies to come forward when they have fallen 
victim to cyber attacks?
    Answer. The Department of Homeland Security (DHS) has a long 
history of responding to cyber and physical security incidents 
involving critical infrastructure and protecting the confidentiality of 
sensitive information through the Protected Critical Infrastructure 
Information program (PCII). PCII is an information-protection program 
that enhances voluntary information sharing between infrastructure 
owners and operators and the Government. If the information submitted 
satisfies the requirements of the Critical Infrastructure Information 
Act of 2002, it is protected from disclosure under the Freedom of 
Information Act; State, Tribal, and local disclosure laws; use in 
regulatory actions; and use in civil litigation. PCII can only be 
accessed in accordance with strict safeguarding and handling 
requirements. Only trained and certified Federal, State, and local 
government employees or contractors may access PCII.
    Designating information as PCII also provides a level of protection 
that facilitates DHS's ability to work directly with the infrastructure 
owners and operators to identify vulnerabilities, mitigation 
strategies, and protective measures. Homeland security partners can be 
confident that sharing their information with the Government will not 
expose sensitive or proprietary data, while the Government can still 
benefit from increased information sharing by analyzing and securing 
critical infrastructure and protected systems, identifying 
vulnerabilities and developing risk assessments, and enhancing recovery 
preparedness measures. Furthermore, timely reporting of serious cyber 
incidents allows for companies, or the Department, to provide 
mitigation assistance as soon as possible, often limiting the damage 
that can be caused and potentially saving on remediation costs.
    The Executive Order on Improving Critical Infrastructure 
Cybersecurity also initiates key information sharing improvements by 
increasing the security clearances provided to critical infrastructure 
personnel and expanding a program that enables advanced sharing of 
cyber threat information to assist participating critical 
infrastructure companies in their cyber protection efforts. While there 
is bipartisan consensus on the need for additional information-sharing 
legislation, the administration is focused on ensuring that the text of 
any such law fully addresses several key objectives. Specifically, 
information-sharing legislation must:
  <bullet> Carefully safeguard privacy and civil liberties, including 
        properly defining the type of information that can be shared, 
        the purposes for which such sharing can occur, establishing 
        adequate oversight, and procedures to remove identifying 
        information unrelated to cybersecurity threats;
  <bullet> Provide targeted liability protections that explicitly 
        authorize legitimate action without creating unintended 
        consequences;
  <bullet> Leverage all of the Government's cybersecurity capabilities, 
        while preserving the long-standing, respective roles and 
        missions of civilian and intelligence agencies; and
  <bullet> Clarify the type of assistance that DHS can provide to 
        quickly help a private-sector company, State, or local 
        government when that organization asks for its help.
       Question From Honorable Susan W. Brooks for Gary W. Hayes
    Question. In February, the Emergency Alert System of two television 
stations in Montana was compromised and a fake emergency alert message 
warning of a zombie apocalypse occurring in several counties. While 
this incident did not cause any harm, my concern is that the American 
people rely on public information during crisis and disasters to help 
guide their actions and hacking into the system could cause great harm 
or confusion. What are some measures that can be taken to prevent this 
from occurring again and assure the American people the information we 
provide through the emergency alert system is accurate?
    Answer. Response was not received at the time of publication.

                                 <all>

</pre></body></html>
